App. 1
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

-----------------------------------------------------------------------

No. 20-5269

September Term, 2020
FILED ON: MARCH 15, 2021

LAWYERS UNITED INC. AND EVELYN AIMEE DEJESUS,
APPELLANTS
V.

UNITED STATES, ET AL,
APPELLEES
-----------------------------------------------------------------------

Appeal from the United States District Court
for the District of Columbia
(No. 1:19-cv-03222)
-----------------------------------------------------------------------

Before: TATEL and PILLARD, Circuit Judges,
and SENTELLE, Senior Circuit Judge.
JUDGMENT
This appeal from the United States District Court
for the District of Columbia was considered on the record and on the briefs of the parties. See Fed. R. App. P.
34(a)(2); D.C. Cir. Rule 34(j). The Court has accorded
the issues full consideration and has determined that
they do not warrant a published opinion. See D.C. Cir.
R. 36(d). It is
ORDERED and ADJUDGED that the judgment
of the district court be AFFIRMED.

App. 2
Substantially for the reasons contained in our
court’s decision in National Ass’n for Advancement of
Multijurisdiction Practice v. Howell, 851 F.3d 12 (D.C.
Cir. 2017), the district court properly granted appellees’ motion to dismiss and denied their motion for
reconsideration, and appellants have not shown any
other reversible error.
The Clerk is directed to withhold issuance of the
mandate herein until seven days after resolution of
any timely petition for rehearing or rehearing en banc.
See Fed. R. App. P. 41(b); D.C. Cir. Rule 41.
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

App. 3
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LAWYERS UNITED, INC.,
et al.,
Plaintiffs,
v.
UNITED STATES, et al.,
Defendants.

)
)
)
)
)
)
)
)

Case No.
1:19-cv-3222-RCL

MEMORANDUM ORDER
(Filed Aug. 21, 2020)
On June 29, 2020, this Court denied plaintiffs’ request for a preliminary injunction and dismissed the
case with prejudice. The Court assumes familiarity
with that Memorandum Opinion (ECF No. 60) and the
accompanying Order (ECF No. 61). On July 16, 2020,
plaintiffs filed a motion for reconsideration (ECF No.
62). Upon consideration of that motion, defendants’
opposition (ECF No. 65), and plaintiffs’ reply1 (ECF
Nos. 66 & 67), the Court DENIES the motion.
Plaintiffs seek reconsideration under Federal
Rules of Civil Procedure (“Rules”) 59 and 60. Under
1

Defendants filed their opposition on August 7, 2020, meaning that plaintiffs’ reply was due on August 14, 2020; however,
plaintiffs did not file their reply until August 18, 2020. They did
not ask the Court for an extension of time, and their reply is thus
untimely. Nevertheless, the Court considered the reply as supplemented before issuing this ruling.

App. 4
Rule 59(e), the Court may grant reconsideration if the
movant shows an intervening change of controlling
law, the availability of new evidence that could not
have been raised prior to the Court’s order, or the need
to correct a clear error or prevent manifest injustice.
See Firestone v. Firestone, 76 F.3d 1205, 1208 (D.C. Cir.
1996). Under Rule 60(b), the Court may grant reconsideration due to “mistake, inadvertence, surprise, or
excusable neglect” as well as for “any other reason
that justifies relief.” Fed. R. Civ. P. 60(b)(1); Fed. R. Civ.
P. 60(b)(6). Under either rule, “it is well-established
that ‘motions for reconsideration . . . cannot be used as
an opportunity to reargue facts and theories upon
which a court has already ruled, nor as a vehicle for
presenting theories or arguments that could have been
advanced earlier.” Lemper v. Power, 45 F. Supp. 3d 79,
85-86 (D.D.C. 2001).
Neither Rule 59 nor Rule 60 supports plaintiffs’
motion, which primarily rehashes the litany of rambling arguments that they already presented in their
original filings. There has been no change of controlling
law since the Court issued its ruling on June 29, 2020,
nor is there any new evidence to consider. There is no
clear error or manifest injustice to prevent, nor can the
Court find any other reason to grant relief. Quite
simply, plaintiffs’ motion is not a proper motion. to reconsider under the Federal Rules of Civil Procedure, as
there is no basis for reconsideration. Perhaps the most
bewildering part of plaintiffs’ motion is the final section, which asks the Court to “enter judgment for
plaintiffs.” ECF No. 62 at 23. To the extent that this

App. 5
represents a request for the Court to enter summary
judgment in plaintiffs’ favor, this case had not even
reached the summary judgment stage before it was
dismissed—the Court cannot grant summary judgment when plaintiffs never asked for it in the first
place. As already explained in the previous Memorandum Opinion, plaintiffs’ Amended Complaint failed to
state any viable claims, and plaintiffs’ claims are no
more viable today than they were on June 29, 2020.
The motion for reconsideration is therefore DENIED.
It is SO ORDERED.
Date: August 21, 2020

/s/ Royce C. Lamberth
Royce C. Lamberth
United States
District Court Judge

App. 6
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LAWYERS UNITED, INC.,
et al.,
Plaintiffs,
v.
UNITED STATES, et al.,
Defendants.

)
)
)
)
)
)
)
)

Case No.
1:19-cv-3222-RCL

MEMORANDUM OPINION
(Filed Jun. 29, 2020)
In October of 2019, plaintiffs Lawyers United Inc.
and Evelyn Aimee de Jesus filed this lawsuit against
defendants the United States, Attorney General William P. Barr, and federal judges on the D.C. Circuit
Court of Appeals, the U.S. District Court for the District of Columbia, the Ninth Circuit Court of Appeals,
the Northern, Eastern, Central, and Southern Districts of California, the Eleventh Circuit Court of
Appeals, and the Northern, Middle, and Southern Districts of Florida.1 Plaintiffs have brought seven counts
challenging the Local Rules that govern general admission privileges in federal courts in California, Florida, and the District of Columbia. Plaintiffs requested
1

The United States, the Attorney General, the Eleventh Circuit judges, and the District Court judges in Florida were added
as defendants for the first time in the Amended Complaint. The
original Complaint also named all nine Supreme Court Justices,
but they have since been terminated as defendants.

App. 7
a preliminary injunction (ECF No. 43), and defendants
responded with a motion to dismiss the case in its entirety (ECF No. 52). Upon consideration of all motions,
oppositions, and replies, the Court will GRANT defendants’ motion to dismiss and DENY plaintiffs’ motion for a preliminary injunction. There is no need to
have a hearing on these issues, so plaintiffs’ supplemental motion for a hearing (ECF No. 59) will be DENIED as moot. It will be ORDERED that this case is
DISMISSED with prejudice.
BACKGROUND
Plaintiffs’ Amended Complaint challenges Local
Rule 83.8 of the U.S. District Court for the District of
Columbia, which governs eligibility for general admission privileges in this Court. Plaintiffs specifically
challenge the provision allowing attorneys who are active members in good standing of the Bar of any State
in which they maintain their principal law office to
obtain general admission (“Primary Office Provision”).
The Amended Complaint also challenges the general
bar membership rules for the U.S. District Courts for
the Northern, Eastern, Central, and Southern Districts of California as well as for the Northern; Middle,
and Southern Districts of Florida. The U.S. District
Courts in California require attorneys to be members
of the California State Bar before they can obtain general admission privileges, and the U.S. District Courts
in Florida require attorneys to be members of the Florida State Bar before they can obtain general admission
privileges.

App. 8
Plaintiffs’ Amended Complaint lists seven causes
of action. Attempting to parse through some of these
allegations was exceedingly difficult, as plaintiffs did
not clearly or succinctly explain all of their claims. After sorting through the obfuscating metaphors and extraneous information in the Amended Complaint, it
appears that plaintiffs believe defendants have violated the separation of powers doctrine, various federal
statutes, the Federal Rules of Civil Procedure, the Supremacy Clause, the First Amendment, and the Fifth
Amendment. Plaintiffs seek a preliminary injunction
invalidating the challenged local rules. Defendants ask
that this case be dismissed for lack of personal jurisdiction and failure to state a claim.
LEGAL STANDARDS
I.

MOTION TO DISMISS
A. Personal Jurisdiction

Federal Rule of Civil Procedure (“FRCP”) 12(b)(2)
requires courts to have personal jurisdiction over the
parties. Although 28 U.S.C. § 1391(e) arguably provides for personal jurisdiction over the United States
in many instances, it does not provide for personal
jurisdiction over the U.S. Courts, as U.S. Courts are
not “agencies.” See, e.g., King v. Russell, 963 F.2d
1301, 1303-04 (9th Cir. 1992); Liberation News Serv.
v. Eastland, 426 F.2d 1379, 1384 (2d Cir. 1970). D.C.
Code § 13-422 permits this Court to exercise general
personal jurisdiction over a person who is “domiciled
in, organized under the laws of, or maintaining [a]

App. 9
principal place of business in, the District of Columbia
as to any claim for relief.” For parties over whom the
Court does not have general personal jurisdiction, (i.e.,
defendants who are not “at home” in the District of Columbia), the Court will need specific personal jurisdiction.
The first requirement of specific personal jurisdiction is that the defendant must fall within the forum’s
long-arm statute. The District of Columbia’s long-arm
statute requires plaintiffs to show that defendants:
(1) transacted business in the District; (2) contracted
to supply services in the District; (3) caused tortious
injury in the District by an act or omission in the District; (4) caused tortious injury in the District by an act
or omission outside the District if they regularly do or
solicit business, engage in any other persistent course
of conduct, or derive substantial revenue from goods
used or consumed, or services rendered, in the District;
(5) had an interest in, are using, or possess real property in the District; (6) contracted to insure or act as
surety for or on any person, property, or risk, contract,
obligation, or agreement located, executed, or to be performed within the District at the time of contracting;
or (7) in certain circumstances, have a marital or parent and child relationship in the District. D.C. Code
§ 13-423(a).
If the non-resident defendant does fall within the
long-arm statute, exercising specific personal jurisdiction must still be consistent with the Due Process
Clause of the Fourteenth Amendment. This means
that the defendant must have “minimum contacts”

App. 10
with the forum state “such that the maintenance of the
suit does not offend ‘traditional notions of fair play and
substantial justice.’ ” Int’l Shoe v. Washington, 326 U.S.
310, 316 (1945). “Minimum contacts” are established
if the defendant creates a “substantial connection”
with the forum state. Burger King Corp. v. Rudzewicz,
471 U.S. 462, 475 (1985). The minimum contacts “must
have a basis in ‘some act by which the defendant purposefully avails itself of the privilege of conducting activities within the forum state, thus invoking the
benefits and protections of its laws.’ ” Asahi Metal Indus. v. Superior Court, 480 U.S. 102, 109 (1987). The
Court must dismiss any defendants over whom it lacks
personal jurisdiction. Fed. R. Civ. P. 12(b)(2).
B. Failure to State a Claim
FRCP 12(b)(6) requires courts to dismiss any case
wherein the plaintiff has failed to state a legal claim
upon which relief can be granted. To survive a motion
to dismiss for failure to state a claim, the complaint
“must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’ Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007)). When deciding a motion to dismiss under
FRCP 12(b)(6), courts must construe the pleadings
broadly and assume that the facts are as the plaintiff
alleges; however, “[t]hreadbare recitals of the elements
of a cause of action, supported by mere conclusory
statements, do not suffice.” Id. at 678. Additionally,
courts are not obligated to “accept as true a legal

App. 11
conclusion couched as a factual allegation.” Papsan v.
Allain, 478 U.S. 265, 286 (1986).
II.

PRELIMINARY INJUNCTION

A preliminary injunction is “an extraordinary
remedy.” Winter v. Natural. Res. Del Council, Inc., 555
U.S. 7, 22 (2008). The movant must make a “clear showing that four factors, taken together, warrant relief.”
League of Women Voters of U.S. v. Newby, 838 F.3d 1, 6
(D.C. Cir. 2016) (quoting Pursuing Am.’s Greatness v.
FEC, 831 F.3d 500, 505 (D.C. Cir. 2016)). The four factors are: (1) a substantial likelihood of success on the
merits, (2) that [the movant] would suffer irreparable
injury if the injunction were not granted, (3) that an
injunction would not substantially injure other interested parties, and (4) that the public interest would be
furthered by the injunction. Chaplaincy of Full Gospel
Churches v. England, 454 F.3d 290, 297 (D.C. Cir.
2006). Plaintiffs must clearly demonstrate that all four
factors weigh in their favor before they can obtain a
preliminary injunction. See Winter, 555 U.S. at 22.
ANALYSIS
I.

PERSONAL JURISDICTION

Defendants argue that the Court lacks personal
jurisdiction over the Circuit and District judges in
California and Florida who are named as defendants
in this lawsuit. The Court agrees and will thus dismiss them from the case. As a preliminary matter, although 28 U.S.C. § 1391(e) generally allows for lawsuits

App. 12
against the United States, it does not provide for personal jurisdiction over federal judges sued in their official capacities. Section 1391(e) states:
A civil action in which a defendant is an officer
or employee of the United States or any
agency thereof acting in his official capacity or
under color of legal authority, or an agency of
the United States, or the United States, may,
except as otherwise provided by law, be
brought in any judicial district in which (A) a
defendant in the action resides, (B) a substantial part of the events or omissions giving rise
to the claim occurred, or a substantial part of
property that is the subject of the action is situated, or (C) the plaintiff resides if no real
property is involved in the action. Additional
persons may be joined as parties to any such
action in accordance with the Federal Rules of
Civil Procedure and with such other venue requirements as would be applicable if the
United States or one of its officers, employees,
or agencies were not a party.
Courts are divided about whether Section 1391(e)
confers personal jurisdiction or is merely a venue statute. See Duplantier v. United States, 606 F.2d 654, 663
(5th Cir. 1979) (explaining that although the Second
Circuit found that Section 1391(e) is both a personal
jurisdiction statute and a venue statute, other courts
have found that it is purely a venue statute). The Court
need not resolve this dispute here. Even when assuming that Section 1391(e) is also a personal jurisdiction statute, it still does not cover federal judges in

App. 13
California or Florida, as the provision only applies to
the executive branch. See, e.g., King, 963 F.2d at 130304 (finding that Section 1391(e) “only applies to suits
against officers of the executive branch”); Liberation
News Serv., 426 F.2d at 1384 (explaining that the Court
did not have personal jurisdiction over members of
the legislative branch under Section 1391(e) because
when Congress enacted that provision, it “was thinking solely in terms of the executive branch”).
Of course, Section 1391(e) is not the only means
through which courts may obtain personal jurisdiction.
As previously explained, either general personal jurisdiction or specific personal jurisdiction will suffice. In
this case, however, plaintiffs have failed to establish
that either form of personal jurisdiction covers the California or Florida defendants. The Court clearly lacks
general personal jurisdiction over the California and
Florida defendants, as they are not “at home” in the
District of Columbia. The fact that a federal judge
could be assigned anywhere in the country by designation is insufficient to establish general personal jurisdiction. Mason v. Cassady, U.S. Dist. LEXIS 91614, at
*11 (S.D. Miss. Sep. 1, 2010).
Plaintiffs have also failed to allege facts sufficient
to show that the Court has specific personal jurisdiction over these defendants. There is nothing to suggest
that any one of the seven provisions of D.C.’s long-arm
statute applies to these defendants. Because they do
not fall within the District of Columbia’s long-arm
statute, the Court lacks specific personal jurisdiction.
Additionally, plaintiffs have not alleged that these

App. 14
defendants have any minimum contacts with the forum state that are based in purposeful availment of
the privilege of conducting activities within the forum
state, meaning that exercising specific personal jurisdiction over these defendants would violate the Fourteenth Amendment’s Due Process Clause. Id. (finding
that the District of Mississippi has no specific personal
jurisdiction over a Magistrate Judge assigned to the
Southern District of Alabama). For these reasons, the
Court lacks personal jurisdiction over all of the judges
who do not sit in the District of Columbia, and FRCP
12(b)(2) requires that they be dismissed from this lawsuit.2
Plaintiffs make a convoluted argument that because the defendant-judges are being sued in their official capacities, the United States is the real party in
interest. This argument suggests that plaintiffs believe it is completely unnecessary to name any individual judges as defendants if they have also named the
United States, thus leading the Court to question why
plaintiffs would name individual judges in the first
place. Plaintiffs also appear to argue that because the
2

Plaintiffs claim that any arguments regarding personal
jurisdiction, minimum contacts, or long-arm statutes are “red
herrings” that are “not relevant” to this case. ECF No. 54 at 27.
Plaintiffs may not like that many of the defendants they have
named in this lawsuit are outside of the Court’s jurisdiction, but
that does not make FRCP 12(b)(2) a red herring. FRCP 12(b)(2) is
clear that if the Court does not have personal jurisdiction over a
defendant, it must dismiss all claims against that defendant. The
Court is therefore obligated to analyze the personal jurisdiction
question presented in this case.

App. 15
United States is the real party in interest and because
there is personal jurisdiction over the United States,
there must also be personal jurisdiction over the
judges. This reasoning is misguided. Although the
United States is the real party in interest in many official capacity suits, that does not automatically make
the United States the real party in interest in every official capacity suit. The Supreme Court has been clear
that official capacity suits “represent only another way
of pleading an action against an entity of which an officer is an agent.” Lewis v. Clarke, 137 S. Ct. 1285, 1290
(2017). Here, the California and Florida federal judges
were acting in their official capacity as members of the
Judicial Councils on which they sit. Although they are
federal employees, the United States as a whole did not
enact the challenged Local Rules—the Judicial Councils on which these defendants sit enacted those rules.
Therefore, the real parties in interest are the Judicial
Councils on which the defendant-judges sit, not the
United States, and this Court does not have jurisdiction over the defendant-judges simply because they are
federal employees.3 Just as this Court lacks jurisdiction over the defendant-judges in California and Florida, it similarly lacks jurisdiction over the Judicial
Councils on which they sit.
This is confirmed by persuasive authority like
Duplantier v. United States, wherein the Fifth Circuit found that despite the District Court’s ability to
3

Even if the United States were the real party in interest,
plaintiffs have also sued the United States, meaning that naming
individual judges would be redundant and unnecessary.

App. 16
exercise personal jurisdiction over the United States,
it lacked personal jurisdiction over the Judicial Ethics
Committee, which was undisputedly a part of the
federal judiciary. 606 F.2d at 664. The Fifth Circuit
similarly determined that the District Court lacked
personal jurisdiction over the Chairman of the Judicial
Ethics Committee, D.C. Circuit Judge Edward Allen
Tamm, who was sued in his official capacity. See id. If
being sued in one’s official capacity as a member of the
federal judiciary was synonymous with suing the
United States and thus automatically conferred personal jurisdiction over that member of the federal judiciary, the Fifth Circuit in Duplantier would have
found that it had personal jurisdiction over the Judicial Ethics Committee and Judge Tamm. Instead, the
Fifth Circuit made a crucial distinction between the judiciary and other branches of government, meaning
that personal jurisdiction is not automatic when federal judges are sued in their official capacities. Even in
cases where the Court has personal jurisdiction over
the United States, it does not necessarily have personal jurisdiction over federal judges outside of the
forum who are sued in their official capacities. Essentially, if a federal judge is sued in his or her official capacity outside of the District or Circuit on which he or
she sits, the Court will usually lack personal jurisdiction over that federal judge. Therefore, even when taking into consideration the real parties in interest,
FRCP 12(b)(2) still requires dismissing all defendant
judges from courts other than the District of Columbia.

App. 17
II.

FAILURE TO STATE A CLAIM

Although the Court may assert personal jurisdiction over the Attorney General, the United States, and
the judges sitting in the District of Columbia, plaintiffs have failed to state any legally cognizable claims
with respect to these defendants. Therefore, all claims
against these defendants must be dismissed under
FRCP 12(b)(6).
A. The United States & Attorney General
William P. Barr
Plaintiffs have included in their long list of defendants both the United States and Attorney General William P. Barr. The Amended Complaint, however, fails
to allege any actual wrongdoing on the Attorney General’s part. It does not claim that the Attorney General
committed any acts or omissions related to the challenged Local Rules, nor does it explain what relief the
Attorney General could provide. The Attorney General
“plays no role in promulgating or enforcing the local
rules of federal courts.” Nat’l Ass’n for the Advancement
of Multijurisdictional Practice v. Roberts, 180 F. Supp.
3d 46, 55 (D.D.C. 2015) (dismissing the Attorney General from a lawsuit challenging the Local Rules). The
D.C. Circuit similarly held in Nat’l Ass’n for the Advancement of Multijurisdictional Practice v. Howell—a
nearly identical lawsuit—that the Attorney General
could not be sued for Local Rules which allegedly violate the Constitution or federal statutes. 851 F.3d 12,

App. 18
16-17 (D.C. Cir. 2017). Therefore, Attorney General
Barr must be dismissed from this lawsuit.
Plaintiffs have also named as a co-defendant the
United States. Although oftentimes the United States
is a proper party when government employees are sued
in their official capacities, that is not always the case.
The Amended Complaint does not specify any wrongdoing on the part of the United States, nor does it
specify what remedy the United States could provide.
Although the judges sued in their individual capacities
are technically federal employees, as explained above,
that does not automatically make the United States
the real party in interest, nor does it automatically
make the United States a proper defendant. For example, the Fifth Circuit only found that the United States
was a proper defendant in Duplantier because the statute in question specifically assigned responsibilities to
the United States. 606 F.2d at 665. The Local Rules at
issue in this case do no such thing. Because the United
States is not a proper party, it must be dismissed from
this lawsuit.4
B. D.C. District and Circuit Judges
Plaintiffs’ claims against the remaining defendants must also fail under FRCP 12(b)(6). The D.C. Circuit ruled in Howell that Local Rule 83.8 violates
4

Even if the United States and/or the Attorney General were
proper parties, the claims against them would still be dismissed
for the reasons set forth in the next Section of this Memorandum
Opinion.

App. 19
neither the Constitution nor any federal statute. The
D.C. Circuit noted that the National Association for the
Advancement of Multijurisdictional Practice has spent
over thirty years attempting “to overturn local rules of
practice limiting those who may appear before a particular state or federal court.” 851 F.3d at 16. The D.C.
Circuit expressly “join[ed] the chorus of judicial opinions rejecting these futile challenges,” finding that
the constitutional and statutory claims were without
merit. Id. The claims in that case were nearly identical
to the claims in this case. Quite simply, the Court must
follow controlling precedent until that precedent is
directly overturned. United States v. Torres, 115 F.3d
1033, 1036 (D.C. Cir. 1997).
The D.C. Circuit in Howell specifically upheld Local Rule 83.8’s Primary Office Provision, finding that:
(1) there was no violation of the Rules Enabling Act;
(2) there was no violation of the Supreme Court’s decision in Frazier v. Heebe; (3) rational basis review is the
proper standard; (4) there was no violation of 28 U.S.C.
§ 1783; (5) there was no violation of the admission requirements of other federal courts; and (6) there was
no First Amendment Violation. The D.C. Circuit specifically clarified that Local Rule 83.8 “is not an unconstitutional content-based restriction on speech”
and noted that other circuits have come to the same
conclusion. Howell, 851 F.3d at 19-20. The D.C. Circuit
also specified that the Primary Office Provision “does
not contravene any Act of Congress” whatsoever. Id. at
17. In light of these express findings, it appears that

App. 20
plaintiffs have failed to state any legally cognizable
claims in this case.
Interestingly, plaintiffs do not deny that the
claims at issue in Howell are the same claims at issue
in this lawsuit. Instead, they attempt to argue that although Howell has not been overturned, it is undermined by subsequent case law. The Court declines
plaintiffs’ invitation to ignore binding precedent. Indeed, Howell is not just binding precedent—it is nearly
identical to this case. If plaintiffs want to challenge
Howell, they must do so in the D.C. Circuit or the U.S.
Supreme Court, as this District Court plainly lacks
authority to overturn binding precedent, especially
when that precedent is nearly indistinguishable from
the current case. Moreover, even if this Court did have
authority to ignore Howell, it would not do so, as this
Court agrees with the reasoning set forth in that opinion and does not believe that subsequent case law
would require the D.C. Circuit to decide Howell differently today.
Plaintiffs also accuse the D.C Circuit of engaging
in a “conspiracy” to “cover[ ] up” the illegality of the Local Rules. ECF No. 54 at 33. These accusations are
completely unfounded. Furthermore, even if the Court
did believe that the D.C. Circuit was biased when it
made its decision in Howell, that would not be a valid
basis for ignoring precedent. This argument is clearly
a desperate attempt to convince this Court to ignore a
binding decision legitimately issued by the D.C. Circuit.

App. 21
In addition to the fact that precedent clearly requires. this Court to dismiss all seven counts set forth
in the Amended Complaint, the first claim would need
to be dismissed simply because it is unintelligible. The
first cause of action—titled “Separation of Powers”—
rambles on for fourteen pages, and it is unclear how
exactly plaintiffs believe that defendants have violated
the separation of powers doctrine. FRCP 8(a)(2) specifically requires plaintiffs to provide “a short and plain
statement of the claim showing that [they are] entitled
to relief.” Plaintiffs failed to do so with respect to the
first claim.
Furthermore, even if defendants had not filed a
motion to dismiss, the Court would still deny the motion for a preliminary injunction. Plaintiffs have
failed to meet the four factors required to obtain this
“extraordinary remedy.” Winter, 555 U.S. at 22. Beginning with the first factor, plaintiffs do not have a substantial likelihood of success on the merits. As already
explained in this Memorandum Opinion, plaintiffs’
claims cannot succeed as a matter of law. That fact
alone is enough to deny the preliminary injunction.
The second factor, however, also turns in defendants’
favor, as a preliminary injunction is not necessary to
stop irreparable harm. Plaintiffs have asked for multiple stays throughout the course of this litigation, suggesting that the alleged “harm” they are suffering is
not irreparable. Additionally, although plaintiffs cannot obtain general admission privileges, they can still
file for pro hac vice admission while this case is pending, meaning that they are not entirely precluded from

App. 22
appearing in federal court. The third and fourth factors
also turn in defendants’ favor, as the requested injunction would alter rather than preserve the status quo,
forcing courts to alter their rules. Although plaintiffs
argue that such a change benefits the public by expanding admission privileges and thereby increasing
access to counsel, the public is not benefitted by an unnecessary injunction that does not stop irreparable
harm. Therefore, plaintiffs have not met their burden
to prove that such an “extraordinary remedy” is warranted. Winter, 555 U.S. at 22.
Finally, the Court feels compelled to highlight
some of the offensive analogies that plaintiffs attempted to draw throughout this case. Although these
inappropriate analogies were not the basis for dismissing plaintiffs’ suit, the Court would be remiss if it did
not take a moment to address them. First, plaintiffs
suggest that being denied general admission privileges
in federal court is akin to “deny[ing] American women
the right to vote.” ECF No. 54 at 45-47. Plaintiffs may
not like the Local Rules at issue, but the Court can
guarantee that they would like being denied the right
to vote even less. Frankly, this comparison is an insult
to the brave women who fought tirelessly for the fundamental right to participate in their democracy.
Second, plaintiffs argue that being admitted pro hac
vice rather than being given general admission privileges is akin to being told that you may “sit in the
front of the bus for this one time.” ECF No. 35 at 11.
Again, while plaintiffs certainly do not like the Local
Rules, any alleged injury caused by these Local Rules

App. 23
certainly pales in comparison to the injuries caused by
segregation. Third, in arguing that this Court should
ignore binding precedent, plaintiffs assert that the
D.C. Circuit abused its authority in Howell in the same
way that the “Minneapolis police officers” abused their
authority over “George Floyd while they were kneeling
on his head while ignoring his complaints that he could
not breathe.” ECF No. 54 at 32. It would be improper
for the Court to comment on the circumstances surrounding George Floyd’s death due to the ongoing
criminal proceedings, but for reasons that hopefully
are obvious, this analogy is both appalling and severely
flawed.
Perhaps most shocking was plaintiffs’ argument
that the Local Rules treat them “as 3/5 of a citizen.”
ECF No. 35 at 13. This is an obvious reference to the
Three-Fifths Compromise, which counted slaves as
three-fifths of a person when determining a state’s
total population for legislative representation. The
history of slavery in this country is shameful and reprehensible. The Court will not allow plaintiffs’ counsel
to trivialize that painful history by arguing that an attorney who is unable to appear in federal court has
been subjected to the same evils as a human being
who was purchased and treated as property. Plaintiffs made many other comparisons that the Court
found extremely distasteful, but the ones highlighted
here were the most egregious. This Court strongly
recommends that plaintiffs’ attorneys, Joseph Robert Giannini and W. Peyton George, refrain from

App. 24
ever again making such highly offensive and utterly
unfounded comparisons.
CONCLUSION
Based on the foregoing, the Court will GRANT defendants’ motion to dismiss (ECF No. 52) and DENY
plaintiffs’ motion for a preliminary injunction (ECF
No. 43). The Court will also DENY plaintiffs’ request
for a hearing (ECF No. 59) as moot.
It will be ORDERED that this case is DISMISSED with prejudice.
A separate Order accompanies this Memorandum
Opinion.
Date: June 29, 2020

/s/ Royce C. Lamberth
Royce C. Lamberth
United States
District Court Judge

App. 25
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
-----------------------------------------------------------------------

No. 20-5269

September Term, 2020
1:19-cv-03222-RCL
Filed On: May 5, 2021

Lawyers United Inc. and
Evelyn Aimee DeJesus,
Appellants
v.
United States, et al.,
Appellees
BEFORE: Tatel and Pillard, Circuit Judges,
and Sentelle, Senior Circuit Judge.
ORDER
Upon consideration of appellants’ petition for
panel rehearing filed on April 26, 2021, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

App. 26
DISTRICT OF COLUMBIA
LCvR 83.2 PRACTICE BY ATTORNEYS
(c) PRACTICE BY NON-MEMBERS OF THE BAR
OF THIS COURT. (1) An attorney who is a member in
good standing of the bar of any United States Court or
of the highest court of any State, but who is not a member of the Bar of this Court, may file papers in this
Court only if such attorney joins of record a member in
good standing of the Bar of this Court. All papers submitted by nonmembers of the Bar of this Court must
be signed by such counsel and by a member of the Bar
of this Court joined in compliance with this Rule. (2)
Paragraph (1) above is not applicable to an attorney
who engages in the practice of law from an office located in the District of Columbia. An attorney who engages in the practice of law from an office located in
the District of Columbia must be a member of the District of Columbia Bar and the Bar of this Court to file
papers in this Court.
(d) PARTICIPATION BY NON-MEMBERS OF THIS
COURT’S BAR IN COURT PROCEEDINGS. An attorney who is not a member of the Bar of this Court may
be heard in open court only by permission of the judge
to whom the case is assigned, unless otherwise provided by the Federal Rules of Civil Procedure. Any attorney seeking to appear pro hac vice must file a
motion signed by a sponsoring member of the Bar of
this Court, accompanied by a declaration by the nonmember that sets forth: (1) the full name of the attorney; (2) the attorney’s office address and telephone
number; (3) a list of all bars to which the attorney has

App. 27
been admitted; (4) a certification that the attorney either has or has not been disciplined by any bar, and if
the attorney has been disciplined by any bar, the circumstances and details of the discipline; (5) the number of times the attorney has been admitted pro hac
vice in this Court within the last two years; and (6)
whether the attorney, if the attorney engages in the
practice of law from an office located in the District of
Columbia, is a member of the District of Columbia Bar
or has an application for membership pending. Each
motion must be accompanied by a payment of $100.
Such sums will be deposited in the fund described in
LCvR 83.8(f )
(e) ATTORNEYS EMPLOYED BY THE UNITED
STATES An attorney who is employed or retained by
the United States or one of its agencies may appear,
file papers and practice in this Court on behalf of the
United States or that agency, irrespective of (c) and (d)
above. A government attorney must register and certify personal familiarity with the Local Rules of this
Court and, as appropriate, other materials set forth
in LCvR 83.8(b) and 83.9(a), prior to the initial appearance by the attorney pursuant to this subsection. A government attorney must submit an updated
registration and certification every three years, as requested by the Clerk’s Office.
(f ) ATTORNEYS EMPLOYED BY A STATE. A State
Attorney General or that official’s designee, who is a
member in good standing of the bar of the highest court
in any State or of any United States Court, may appear
and represent the State or any agency thereof, irrespective of (c) and (d) above. A state attorney must

App. 28
register and certify personal familiarity with the Local
Rules of this Court and, as appropriate, other materials set forth in LCvR 83.8(b) and 83.9(a), prior to the
initial appearance by the attorney pursuant to this
subsection. A state attorney must submit an updated
registration and certification every three years, as requested by the Clerk’s Office. (g) ATTORNEYS REPRESENTING INDIGENTS. Notwithstanding (c) and
(d) above, an attorney who is a member in good standing of the District of Columbia Bar or who is a member
in good standing of the bar of any United States Court
or of the highest court of any State may appear, file papers and practice in any case handled without a fee on
behalf of indigents upon certifying that the attorney is
providing representation without compensation and is
personally familiar with the Local Rules of this Court
and, as appropriate, the other materials set forth in
LCvR 83.8(b) and LCvR 83.9(a).
LCvR 83.8 ADMISSION TO THE BAR (a) WHO MAY
BE ADMITTED. Admission to and continuing membership in the Bar of this Court are limited to: (1) attorneys who are active members in good standing in
the District of Columbia Bar; or (2) attorneys who are
active members in good standing of the Bar of any
state in which they maintain their principal law office; or (3) in-house attorneys who are active members in good standing of the Bar of any state and
who are authorized to provide legal advice in the state
in which they are employed by their organization client. COMMENT TO LCvR 83.8(a): The new subsection
(3) addresses situations in which an in-house counsel,

App. 29
although licensed to practice in one state, is employed
by her organization client elsewhere. For example, if
an attorney is licensed in Illinois, but works as an internal or corporate counsel in the District of Columbia,
D.C. Court of Appeals Rule 49(c)(6) permits her to provide certain legal advice here. Article 10-206(d) of the
Maryland Code is similar as applied to in-house counsel in Maryland. Such lawyers would now be eligible
for admission to this Court’s Bar.
(e) OATH. The oath which each applicant for admission to the Bar of this Court shall take shall be as follows: I do solemnly swear (or affirm) that I will support
the Constitution of the United States; that I will respect courts of justice and judicial officers; that I will
well and faithfully discharge my duties as an attorney
and as an officer of the court; and in the performance
84 of those duties I will conduct myself with dignity
and according to both the law and the recognized
standards of ethics of our profession. (f ) ADMISSION
FEE. Each petition shall be accompanied by payment
in such amount and form as determined by the Court,
which the Clerk shall deposit to the credit of a fund to
be used for such purposes as inure to the benefit of the
members of the bench and the Bar in the administration of justice which are determined to be appropriate
by the Court from time to time. This fee shall be in addition to the statutory fee for administering the oath of
office and issuing the certificate of admission.
(f ) ADMISSION FEE. Each petition shall be accompanied by payment in such amount and form as determined by the Court, which the Clerk shall deposit to

App. 30
the credit of a fund to be used for such purposes as inure to the benefit of the members of the bench and the
Bar in the administration of justice which are determined to be appropriate by the Court from time to
time. This fee shall be in addition to the statutory fee
for administering the oath of office and issuing the certificate of admission.
(g) CLERK AS AGENT FOR SERVICE. By being admitted to the Bar of this Court or by being permitted
to practice in this Court under LCvR 83.2 and 83.12 or
in fact practicing in this Court, the attorney shall be
deemed to have designated the Clerk of the Court as
agent for service of process in any disciplinary proceeding before this Court. COMMENT TO LCvR 83.8: This
Rule clarifies the intention that continuing membership in the bar is premised on a continuing duty to
meet the requirements of this Rule. Section (a) parallels revised LCvR 83.2 regarding practice by attorneys.
COMMENT TO LCvR 83.8(b)(6)(ii): Section (v) was
added to LCvR 83.8(b)(6) to stress the importance that
the Court places on the need for civility among lawyers
who practice in the Court.
LCvR 83.9 RENEWAL OF MEMBERSHIP (a) RENEWAL OF MEMBERSHIP EVERY THREE YEARS.
Each member of the Bar of this Court shall renew his
or her membership every three years by filing with the
Clerk of the Court, on or before July 1st of every third
year, a certificate in a form prescribed by the Clerk that
the member is familiar with the then current version
of the Federal Rules of Civil Procedure, Federal Rules
of Evidence, the Local Rules of this Court, Rules of

App. 31
Professional Conduct and the D.C. Bar Voluntary
Standards for Civility in Professional Conduct. If the
attorney appears in criminal cases, he or she must also
certify familiarity with the then-current version of the
Federal Rules of Criminal Procedure and the Sentencing Guidelines. (See LCrR 44.5(b)). Members of the Bar
of this Court on the effective date of this Rule shall file
certificates by March 1, 1990, and by July 1 of every
third calendar year thereafter. Subsequently admitted
members shall file certificates by July 1st of every
third calendar year after the year in which they were
admitted. The Clerk shall notify members of this certification requirement at least 60 days before the date
for filing such certificates and renewals.
(b) RENEWAL FEE. Each certificate required by (a)
above shall be accompanied by a payment of $25 in a
form determined by the Clerk. The fee shall be $10 for
the initial certificate filed by any person admitted to
the Bar of this Court after July 1, 1986. The Clerk shall
deposit the fees received to the credit of the fund described in LCvR 83.8(f ) to be used for the purposes
specified in that Rule, including the defraying of expenses of maintaining a current register of members
in good standing and to administer the counseling program outlined in LCvR 83.21.
(c) FAILURE TO RENEW. An attorney who fails to
file the required certifications and pay the renewal fee
shall be provisionally removed from the list of members in good standing and pursuant to LCrR44.1(a)
shall not be permitted to practice before this Court until restored as a member in good standing. The name

App. 32
of the attorney shall be restored to the list of members
in good standing upon filing of the required certificates
and payment of the delinquent fee within five years after the due date. At the end of five years from the due
date, the name will be permanently removed from the
roll, without prejudice to an application for admission
as a new member.
COMMENT TO LCvR 83.9(a): This amendment brings
the rule in compliance with LCvR 83.8(b)(6)(v).
LCvR 83.15 OBLIGATIONS OF ATTORNEYS (a)
RULES OF PROFESSIONAL CONDUCT. Violations
of the Rules of Professional Conduct (as adopted by
the District of Columbia Court of Appeals except as
otherwise provided by specific Rule of this Court) by
attorneys subject to these Rules shall be grounds for
discipline, whether or not the act or omission occurred
in the course of an attorney-client relationship.
(b) DUTY TO NOTIFY THE COURT. It shall be the
duty of each attorney subject to these Rules to notify
promptly the Clerk of this Court of: (1) conviction of
any crime other than minor traffic offenses, giving the
name of the court in which the attorney was convicted,
the date of conviction, docket number, the offense for
which the attorney was convicted and the sentence;
(2) any disbarment, suspension or other public discipline imposed by any federal, state or local court, giving the name of the court, the date of such disbarment,
suspension or other public discipline, the docket number, and a description of the discipline imposed and
the offense committed in connection therewith; or any

App. 33
disbarment by consent or resignation while an investigation into allegations of misconduct is pending;
(3) whether the attorney has ever been held in contempt of court and, if so, the nature of the contempt
and the final disposition thereof; and (4) any change in
the attorney’s office address or telephone number as
provided for in (c) below. Failure to provide the notice
required by this paragraph may constitute a separate
ground for discipline.
(c) CHANGES IN ADDRESS Notice to the Clerk of
any change in the attorney’s address or telephone
number (see (b)(4) above) shall be filed in writing
within 14 days of the change. The attorney shall also
within 14 days file a praecipe reflecting such change in
each case which the attorney has pending before this
Court, serving a copy upon each of the attorneys in
these cases.
LCrR 57.21 ADMISSION TO THE BAR (a) WHO MAY
BE ADMITTED. Admission to and continuing membership in the Bar of this Court are limited to: (1) attorneys who are active members in good standing in
the District of Columbia Bar; or (2) active members in
good standing of the Bar of any state in which they
maintain their principal law office; or (3) in-house attorneys who are active members in good standing of
the Bar of any state and who are authorized to provide
legal advice in the state in which they are employed by
their organization client.
COMMENT TO LCrR 57.21: The new subsection (3)
addresses situations in which an in-house counsel,

App. 34
although licensed to practice in one state, is employed
by her organization client elsewhere. For example, if
an attorney is licensed in Illinois, but work as an internal or corporate counsel in the District of Columbia,
D.C. Court of Appeals Rule 49(c)(6) permits her to provide certain legal advice here. Article 10-206(d) of the
Maryland Code is similar as applied to in-house counsel in Maryland. Such lawyers would now be eligible
for admission to this Court’s Bar.
LCrR 57.21.1 RENEWAL OF MEMBERSHIP (a) RENEWAL OF MEMBERSHIP EVERY THREE YEARS.
Each member of the Bar of this Court shall renew his
or her membership every three years by filing with the
Clerk of the Court, on or before July 1st of every third
year, a certificate in a form prescribed by the Clerk that
the member is familiar with the then current version
of the Federal Rules of Civil Procedure, Federal Rules
of Evidence, the Local Rules of this Court, Rules of
Professional Conduct and the D.C. Bar Voluntary
Standards for Civility in Professional Conduct. If the
attorney appears in criminal cases, he or she must also
certify familiarity with the then-current version of the
Federal Rules of Criminal Procedure and the Sentencing Guidelines. (See LCrR 44.5(b)). Members of the Bar
of this Court on the effective date of this Rule shall file
certificates by March 1, 1990, and by July 1 of every
third calendar year thereafter. Subsequently admitted
members shall file certificates by July 1st of every
third calendar year after the year in which they were
admitted. The Clerk shall notify members of this

App. 35
certification requirement at least 60 days before the
date for filing such certificates and renewals.
(b) RENEWAL FEE. Each certificate required by (a)
above shall be accompanied by a payment of $25 in a
form determined by the Clerk. The fee shall be $10 for
the initial certificate filed by any person admitted to
the Bar of this Court after July 1, 1986. The Clerk shall
deposit the fees received to the credit of the fund described in LCvR 83.8(f ) to be used for the purposes
specified in that Rule, including the defraying of expenses of maintaining a current register of members
in good standing and to administer the counseling program outlined in LCrR 57.31.173 (c)

App. 36
LOCAL RULES –
CENTRAL DISTRICT OF CALIFORNIA
L.R. 83-2.1 Attorneys L.R. 83-2.1.1 Appearance Before
the Court L.R. 83-2.1.1.1 Who May Appear. Except as
provided in L.R. 83-2.1.3, 83-2.1.4, 83-2.1.5, 83-4.5, and
F.R.Civ.P. 45(f ), an appearance before the Court on behalf of another person, an organization, or a class may
be made only by members of the Bar of this Court, as
defined in L.R. 83-2.1.2.
L.R. 83-2.1.1.2 Effect of Appearance. Any attorney who
appears for any purpose submits to the discipline of
this Court in all respects pertaining to the conduct of
the litigation.
L.R. 83-2.1.1.3 Form of Appearance – Professional
Corporations and Unincorporated Law Firms. No appearance may be made and no pleadings or other documents may be signed in the name of any professional
law corporation or unincorporated law firm (both hereinafter referred to as “law firm”) except by an attorney
admitted to the Bar of or permitted to practice before
this Court. A law firm may appear in the following
form of designation or its equivalent: John Smith A
Member of Smith and Jones, P.C. Attorneys for Plaintiff
.R. 83-2.1.2 The Bar of this Court L.R. 83-2.1.2.1 In
General. Admission to and continuing membership in
the Bar of this Court are limited to persons of good
moral character who are active members in good
standing of the State Bar of California. If an attorney
admitted to the Bar of this Court ceases to meet these

App. 37
criteria, the attorney will be subject to the disciplinary
rules of the Court, infra.
L.R. 83-2.1.2.2 Admission to the Bar of this Court.
Each applicant for admission to the Bar of this Court
must complete an Application for Admission to the
Bar of the Central District of California (Form G-60)
and submit it to the Court electronically through the
Court’s website, together with the admission fee prescribed by the Judicial Conference of the United States
and such other fees as may from time to time be required by General Order of this Court. The completed
Application for Admission to the Bar of the Central
District of California must include certification that
the applicant is familiar with the Court’s Local Civil
and Criminal Rules and with the Federal Rules of Civil
Procedure, Criminal Procedure, and Evidence.
L.R. 83-2.1.3 Pro Hac Vice Practice L.R. 83-2.1.3.1 Who
May Apply for Permission to Practice Pro Hac Vice. An
attorney who is not a member of the State Bar of California may apply for permission to appear pro hac vice
in a particular case in this Court if the attorney:
(a) is a member in good standing of, and eligible
to practice before, the bar of any United States
Court, or of the highest court of any State, Territory, or Insular Possession of the United States;
(b) is of good moral character; (c) has been retained to appear before this Court; and (d) is not
disqualified under L.R. 83-2.1.3.2.
L.R. 83-2.1.3.2 Disqualification from Pro Hac Vice Appearance. Unless authorized by the Constitution of the

App. 38
United States or Acts of Congress, an applicant is not
eligible for permission to practice pro hac vice if the
applicant:
(a)

resides in California;

(b)

is regularly employed in California; or (

c) is regularly engaged in business, professional,
or other similar activities in California.
L.R. 83-2.1.4 Attorneys for the United States, or Its Departments or Agencies L.R. 83-2.1.4.1 Attorney for the
United States, or its Departments or Agencies. Any
person who is not eligible for admission under L.R. 832.1.2 or 83-2.1.3, who is employed within this state and
is a member in good standing of, and eligible to practice
before, the bar of any United States Court, the District
of Columbia Court of Appeals, or the highest court
of any State, Territory or Insular Possession of the
United States, and is of good moral character, may be
granted leave of court to practice in this Court in any
matter for which such person is employed or retained
by the United States, or its departments or agencies.
The application for such permission must include a
certification filed with the Clerk showing that the applicant has applied to take the next succeeding Bar Examination for admission to the State Bar of California
for which that applicant is eligible. No later than one
year after submitting the foregoing application, the applicant must submit to this Court proof of admission to
the State Bar of California. Failure to do so will result
in revocation of permission to practice in this Court.

App. 39
L.R. 83-2.1.4.2 Special Assistant United States Attorneys. Notwithstanding L.R. 83-2.1.4.1, any United
States Armed Forces attorney who has been appointed
a Special Assistant United States Attorney pursuant
to 28 U.S.C. sections 515 and 543 may handle misdemeanor matters before this Court. Attorneys employed
by the United States Department of Justice specially
appointed by the United States Attorney General to
conduct any kind of legal proceeding, civil or criminal,
pursuant to 28 U.S.C. § 515(a), may appear without filing an Application of Non-Resident Attorney to Appear
in a Specific Case.
L.R. 83-2.1.5 Registered Legal Services Attorney. A
registered legal services attorney authorized to appear
in the state courts of California under California Rules
of Court, Rule 9.45, may apply for permission to appear
in a case before this Court under the conditions set
forth in that rule. Such an applicant must complete an
Application of Registered Legal Services Attorney to
Practice Before the Court (Form CV-99, available on
the Court’s website), which must include:
(a) certification that the applicant is a registered
legal services attorney authorized to practice law
in the state courts of California pursuant to California Rules of Court, Rule 9.45 (or a successor
rule);
(b) certification that the applicant is familiar
with the Court’s Local Civil and Criminal Rules
and with the Federal Rules of Civil Procedure,
Criminal Procedure, and Evidence; and

App. 40
(c) identification of a supervising attorney who is
a member in good standing of the Bar of this
Court, and who must appear with the registered
legal services attorney as one of the attorneys of
record.
The completed Application of Registered Legal
Services Attorney to Practice Before the Court must be
electronically filed by the supervising attorney in each
case in which the applicant seeks to appear, together
with a separate proposed Order. Approval of the application will be at the discretion of the assigned judge in
each case in which an application is submitted. By
practicing in this Court, the registered legal services
attorney submits to the disciplinary authority of the
Central District of California.
L.R. 83-2.2 Parties Without Attorney

App. 41
LOCAL RULES UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
RULE 2.01 GENERAL ADMISSION TO PRACTICE
(a) No person shall be permitted to appear or be
heard as counsel for another in any proceeding in this
Court unless first admitted to practice in the Court
pursuant to this rule (or heretofore admitted under
prior rules of the Court).
(b) Only those persons who are members in good
standing of The Florida Bar shall be eligible for general admission to the bar of the Court. If a person
ceases to be a member in good standing of The Florida
Bar, that person will be suspended from the bar of the
Court until that person is reinstated to The Florida
Bar. However, if the suspension from The Florida Bar
is 90 days or less, the person will be automatically reinstated. If the suspension is 91 days or more, that
person must apply with the Clerk of Court for reinstatement. Each applicant for general admission shall
file with the Clerk a written petition setting forth his
residence and office address, his general and legal education, and the Courts to which he has previously
been admitted to practice. The petition shall be accompanied by the certificates of two members in good
standing of the bar of the Court attesting that the applicant is of good moral character and is otherwise
competent and eligible for general admission to practice in the Court (provided, however, members in good
standing of the bars of the Northern or Southern Districts of Florida shall be admitted on petition without necessity of such certificates). In addition, each

App. 42
applicant shall furnish a certificate certifying that the
applicant has read and is familiar with each of the following: The Federal Rules of Evidence, the Federal
Rules of Civil Procedure, the Federal Rules of Criminal
Procedure, and the Local Rules of the Middle District
of Florida.
(c) Petitions for general admission to practice shall be
called from time to time in open Court on notice to the
applicants; except that, under special circumstances,
any United States District Judge or United States
Magistrate Judge of the Court may entertain a petition
at any time. Upon taking the prescribed oath and payment of the prescribed enrollment fee, the applicant
shall then be enrolled as a member of the bar of the
Court and the Clerk shall issue a suitable certificate to
that effect.
(d) To maintain good standing in the bar of this
Court, each attorney admitted under this rule, beginning in the year following the year of the attorney’s admission, must pay a periodic fee set by administrative
order and, unless exempted by the Chief Judge for good
cause, must register with the Clerk of Court and maintain an e-mail address for electronic service by the
Clerk during the attorney’s membership in the bar of
this Court. An attorney who fails to pay timely the periodic fee or fails without exemption to maintain a registered e-mail address is subject to removal from
membership in the bar of this Court.

App. 43
RULE 2.02 SPECIAL ADMISSION TO PRACTICE
(a) Any attorney who is not a resident of Florida but
who is a member in good standing of the bar of any
District Court of the United States; outside Florida;
may appear specially as counsel of record; without formal or general admission; provided, however, such
privilege is not abused by appearances in separate
cases to such a degree as to constitute the maintenance
of a regular practice of law in Florida; and provided
further that whenever appearing as counsel by filing
any pleading or paper in any case pending in this
Court, a non-resident attorney shall file within fourteen (14) days a written designation and consent-to-act
on the part of some member of the bar of this Court,
resident in Florida, upon whom all notices and papers
may be served and who will be responsible for the progress of the case, including the trial in default of the
non-resident attorney. In addition to filing the written
designation, the non-resident attorney shall comply
with both the fee and e-mail registration requirements
of Rule 2.01(d), and the written designation shall certify the non-resident attorney’s compliance.
(b) An attorney employed full-time by either the
United States, an agency of the United States, or a
public entity established under the laws of the United
States may appear within the course and scope of the
attorney’s employment as counsel without general or
other formal admission.
(c) Any attorney who appears specially in this Court
pursuant to subsections (a) or (b) of this rule shall be

App. 44
deemed to be familiar with, and shall be governed by,
these rules in general, including Rule 2.04 hereof in
particular; and shall also be deemed to be familiar with
and governed by the Code of Professional Responsibility and other ethical limitations or requirements then
governing the professional behavior of members of The
Florida Bar.
(d) In an extraordinary circumstance (such as the
hearing of an emergency matter) a lawyer who is not a
member of the Middle District bar may move instanter
for temporary admission provided the lawyer appears
eligible for membership in the Middle District bar and
simultaneously initiates proceedings for general or
special admission to the Middle District bar. Temporary admission expires in thirty days or upon determination of the application for general or special
admission, whichever is earlier.

App. 45

EXHIBIT A
Proof 100% Subjective Cal
Bar Exam for experienced
attorneys is not a valid or reliable test covered-up by
Federal Courts

App. 46
[SEAL]

Committee of Bar Examiners
of The State Bar of California

Report to the
Supreme Court of California
on the February 2001
California Bar Examination
(February 2001 .41)
WRITTEN SECTION
There were 1050 applicants who had their answers
read at least twice. On the average, an applicant’s total
written raw score on the first reading was about 5
points higher than it was on the second reading. The
correlation between these scores was .41. This value
underestimates the true degree of agreement between
readers because reread was limited to applicants near
the pass/fail line. Table 2 shows the means and standard deviations on each question after all readings.
Table 2 – SUMMARY STATISTICAL DATA ON
THE WRITTEN SECTION AFTER ALL READINGS
Question Essay Content Area(s)
Number and PT Tasks
1
2
3
4
5
6

Community Property
Corporations
Criminal Law
Remedies
Professional
Responsibility
Contracts

Mean
Score

Standard
Deviation

61.7
63.3
59.8
64.3

8.32
7.32
8.50
7.03

65.6

7.12

61.3

6.39

App. 47
PT-1
PT-2

Draft pre-counseling
letter
Draft closing argument

65.3

8.57

66.8

7.86

SUMMARY STATISTICS
Table 3 presents summary statistical data on each
section after all readings. There was a .58 correlation
between MBE and Written scores. Law School Admission Test (LSAT) scores correlated .52, .43, and .52
with MBE, Written, and Total Scale scores, respectively. There were 3779 applicants with useable LSAT
scores.
Table 3 – SUMMARY TEST
STATISTICS AFTER ALL READINGS
MBE
Scale

Written
Raw

Total
Scale

Mean Score

1405.3

640.2

1397.5

Standard

147.0

46.2

129.5

.89

.72

.83

Test Statistic

Deviation
Reliability

The MBE’s reliability was computed by ACT using national data.

App. 48
[SEAL]

Committee of Bar Examiners
of The State Bar of California

Report to the
Supreme Court of California
on the
July 2001 California Bar Examination
(July 2001 .48)
Table 1 – NATIONAL AND CALIFORNIA
MEAN MBE SCORES AND THE
DIFFERENCE BETWEEN THESE MEANS
Test Score

Number National California
of Items Mean
Mean Difference

Constitutional
Law

33

22.9

22.5

-0.4

Contracts

34

21.8

22.3

0.5

Criminal Law

33

21.6

22.5

0.9

Evidence

33

21.4

23.5

2.1

Real Property

33

19.2

20.5

1.3

Torts

34

21.9

22.4

0.5

Total Raw

200

128.7

133.7

5.0

NCBE/ACT Scale

200

142.8

146.8

4.0

WRITTEN SECTION
There were 1598 applicants who had their answers
read at least twice. On the average, an applicant’s
total written raw score on the first reading was 7
points higher than it was on the second reading. The

App. 49
correlation between these scores was .48. This value
underestimates the true degree of agreement between
readers because reread was limited to applicants near
the pass/fail line. Table 2 shows the means and standard deviations on each question after all readings.
Table 2 – SUMMARY STATISTICAL DATA ON
THE WRITTEN SECTION AFTER ALL READINGS
Question Essay Content Area(s)
Number and PT Tasks

Mean
Score

Standard
Deviation

1

Civil Procedure

61.7

9.19

2

Real Property

64.9

7.22

3

Evidence

64.1

9.45

4

Constitutional Law

61.4

7.92

5

Torts

61.3

8.91

6

Wills & Trusts

61.8

7.57

PT-1

Constitutional Law

66.1

6.61

PT-2

Criminal Law
and Procedure

65.0

8.11

App. 50
[SEAL]

Committee of Bar Examiners
of The State Bar of California

Report to the
Supreme Court of California
on the
February 2002 California Bar Examination
(February 2002 .38)
Table 1 – NATIONAL AND CALIFORNIA
MEAN MBE SCORES AND THE
DIFFERENCE BETWEEN THESE MEANS
Test Score

Number National California
of Items Mean
Mean Difference

Constitutional
Law

33

20.71

18.03

-2.68

Contracts

34

22.83

18.72

-4.11

Criminal Law

33

17.08

23.84

6.76

Evidence

33

17.94

21.12

3.18

Real Property

33

19.65

20.43

0.78

Torts

34

21.93

22.95

1.02

Total Raw

200

120.15

125.09

4.94

NCBE/ACT Scale

200

135.28

139.60

4.32

WRITTEN SECTION
There were 990 applicants who had their answers read
at least twice. On the average. an applicant’s total written raw score on the first reading was 11 points higher
than it was on the second reading. The correlation

App. 51
between these scores was .38. This value underestimates the true degree of agreement between readers
because reread was limited to applicants near the
pass/fail line. Table 2 shows the means and standard
deviations on each question after all readings.

App. 52
[SEAL]

Committee of Bar Examiners
of The State Bar of California

Report to the
Supreme Court of California
on the
July 2002 California Bar Examination
(July 2002 .40)
WRITTEN SECTION
There were 1588 applicants who had their answers
read at least twice. On the average. an applicant’s total
written raw score on the first reading was 4 points
higher man it was on the second reading. The correlation between these scores was .40 This value underestimates the true degree of agreement between readers
because reread was limited to applicants near the
pass/fail line. Table 2 shows the means and standard
deviations on each question after all readings.
Table 2 – SUMMARY STATISTICAL DATA ON
THE WRITTEN SECTION AFTER ALL READINGS
Question Essay Content Area(s)
Number and PT Tasks

Mean
Score

Standard
Deviation

1

Wills

63 3

10.2

2

Real Property

63 5

68

3

Professional
Responsibility

65.3

9.2

4

Contracts

62.4

8.2

5

Torts

61.2

8.3

App. 53
6

Community Property

63.2

7.7

PT-1

Memo regarding constitutionality and changes

60.8

8.8

PT-2

Analysis of criminal law
statute and ethical issues

65.8

7.4

SUMMARY STATISTICS
Table 3 presents summary statistical data on each
section after all readings. There was a .64 correlation
between MBE and Written scores. Law School Admission Test (LSAT) scores correlated .61, .48, and .57
with MBE, Written, and Total Scale scales, respectively. There were 6764 applicants with useable LSAT
scores.
Table 3 – SUMMARY TEST
STATISTICS AFTER ALL READINGS
MBE
Scale

Written
Raw

Total
Scale

Mean Score

1445.1

1438.3

1440.7

Standard

155.2

154.2

141 2

0.89

0.72

0.84

Test Statistic

Deviation
Reliability

The MBE’s reliability was computed by ACT using national data.

App. 54
[SEAL]

Committee of Bar Examiners
of The State Bar of California
Report to the
Supreme Court of California
on the
February 2003
California Bar Examination
(February 2003 .48)

WRITTEN SECTION
There were 991 applicants who had their answers read
at least twice. On the average, an applicant’s total written raw score on the first reading was 10 points higher
than it was on the second reading. The correlation between these scores was .48. This value underestimates
the true degree of agreement between readers because
reread was limited to applicants near the pass/fail line.
Table 2 shows the means and standard deviations on
each question after all readings.
Table 2 – SUMMARY STATISTICAL DATA ON
THE WRITTEN SECTION AFTER ALL READINGS
Question Essay Content Area(s)
Number and PT Tasks

Mean
Score

Standard
Deviation

1

Civil Procedure

55.56

8.11

2

Wills/Real Property

59.29

8.30

3

Criminal Law

61.10

6.93

4

Professional
Responsibility

62.48

8.73

5

Constitutional Law

60.09

7.00

App. 55
6

Community Property

59.20

7.97

PT-1

Torts

65.33

7.69

PT-2

Civil Procedure/Evidence

61.31

8.16

SUMMARY STATISTICS
Table 3 presents summary statistical data on each
section after all readings. There was a .58 correlation
between MBE and Written scores. Law School Admission Test (LSAT) scores correlated .48, .44, and .51
with MBE, Written, and Total Scale scores, respectively. There were 3523 applicants with useable LSAT
scores.
Table 3 – SUMMARY TEST
STATISTICS AFTER ALL READINGS
MBE
Scale

Written
Raw

Total
Scale

Mean Score

1397.92

611.06

1397.15

Standard

146.39

45.21

131.60

.87

.68

.81

Test Statistic

Deviation
Reliability

The MBE’s reliability was computed by ACT using national data.

App. 56
[SEAL]

Committee of Bar Examiners
of The State Bar of California
Report to the
Supreme Court of California
on the
February 2004
California Bar Examination
(February 2004 .39)

WRITTEN SECTION
There were 936 applicants who had their answers read
at least twice. On the average, an applicant’s total written raw score on the first reading was 9 points higher
than it was on the second reading. The correlation between these scores was .39. This value underestimates
the true degree of agreement between readers because
reread was limited to applicants near the pass/fail line.
Table 2 shows the means and standard deviations on
each question after all readings.
Table 2 – SUMMARY STATISTICAL DATA ON
THE WRITTEN SECTION AFTER ALL READINGS
Question Essay Content Area(s)
Number and PT Tasks

Mean
Score

Standard
Deviation

1

Criminal Law and
Procedures

62 90

8 05

2

Community Property

64.44

8.94

3

Professional
Responsibility

64.38

7.64

4

Real Property

61 03

7 34

App. 57
5

Constitutional Law

60 50

7 13

6

Civil Procedure

61 16

8 90

PT-1

Insurance Law
and Contracts

61.70

7 80

PT-2

Contracts and Alternative Dispute Resolution

63 34

7 30

SUMMARY STATISTICS
Table 3 presents summary statistical data on each
section after all readings. There was a :59 correlation
between MBE and Written scores. Law School Admission Test (LSAT) scores correlated .52, .41, and .50
with MBE, Written, and Total Scale scores, respectively. There were 3699 applicants with useable LSAT
scores
Table 3 – SUMMARY TEST
STATISTICS AFTER ALL READINGS
MBE
Scale

Written
Raw

Total
Scale

Mean Score

1392 30

624.54

1390 27

Standard
Deviation

146 53

46.28

132.04

Reliability

.89

.72

.90

Test Statistic

The MBE’s reliability was computed by ACT using national data.

App. 58
[SEAL]

Committee of Bar Examiners
of The State Bar of California
Report to the
Supreme Court of California
on the
July 2004
California Bar Examination
(July 2004 .41)

MULTISTATE BAR EXAMINATION (MBE)
Table 1 shows California applicants scored higher than
the national average on five of the six MBE subtests.
California’s mean total raw score (the average number
of questions answered correctly) was 2.44 points higher
than the national average (which included California
scores).
Table 1 – NATIONAL AND CALIFORNIA
MEAN MBE SCORES AND THE
DIFFERENCE BETWEEN THESE MEANS
Test Score

Number National California
of Items Mean
Mean Difference

Constitutional
Law

33

23.51

21.63

-1.88

Contracts

34

21.63

21.97

0.34

Criminal Law

33

21.23

21.73

0.50

Evidence

33

21.65

23.96

2.31

Real Property

33

21.64

22.21

0.57

App. 59
Torts

34

22.95

23.56

0.61

Total Raw

200

132.62

135.06

2.44

NCBE/ACT Scale

200

141.22

143.38

2.16

WRITTEN SECTION
There were 1658 applicants who had their answers
read at least twice. On the average, an applicant’s total
written raw score on the first reading was 2.5 points
higher than it was on the second reading. The correlation between these scores was .41. This value underestimates the true degree of agreement between readers
because reread was limited to applicants near the
pass/fail line. Table 2 shows the means and standard
deviations on each question after all readings.
Table 2 – WRITTEN RAW
SCORES AFTER ALL READINGS
Question Essay Content Area(s)
Number and PT Tasks

Mean
Score

Standard
Deviation

1

Criminal Law

61.08

6.79

2

Constitutional Law

59.27

6.90

3

Wills/Trusts

60.92

9.05

4

Evidence

62.85

8.65

5

Professional
Responsibility

64.37

9.65

6

Torts

61.03

8.16

App. 60
PT-1

Consumer Protection/
Usury

60.86

7.72

PT-2

Torts/Premises Liability

64.84

8.35

App. 61
DECLARATION OF PHILLIP L. ACKERMAN. Ph.D.
I PHILLIP L. ACKERMAN, Ph.D. am competent
to testify and have personal knowledge, and based on
that knowledge declare the following:
1.

My curriculum vita is attached.

I am attaching a true and complete copy of my
Evaluation of the Psychometric Adequacy of the California Attorney’s Examination dated February 15,
2008, that is the test given by the State of California
to attorneys in good standing already licensed in another state for four years to qualify for licensure in
California. I am re-publishing that Evaluation, and including additional information that can be found in
paragraphs 6-10 below, that reinforces the conclusions
reached in my Evaluation of the Psychometric Adequacy of the California Attorney’s Examination.
2. These are a few salient details about my background (also listed in the CV).
a. I am a Professor of Psychology at Georgia Institute of Technology, and the past Editor, Journal of
Experimental Psychology: Applied.
b. I am a Fellow of the American Psychological
Association, a Fellow of the American Educational Research Association, and a member of the National
Council on Measurement in Education (these are the
three organizations that generate the Standards on
Psychological and Educational Testing in the United
States.)

App. 62
c. Over the past 17 years, I have published 12 reviews and I have two additional reviews “in press” in
the Mental Measurements Yearbook (this is generally
regarded as the ‘bible’ for critical reviews of commercial educational, psychological and organizational
tests). In 2005, I was named a “Distinguished Reviewer” by the Buros Institute of Mental Measurements.
d. Over the past 27 years, I have consulted on
educational and occupational testing for the following organizations: U.S. Air Force, U. S. Army, U. S. Navy
Personnel Research and Development Center, U. S. Department of Education, Minnesota Air Traffic Control
Training Center (FAA), The College Board, Educational Testing Service (ETS), and General Motors.
3. It is my professional opinion that the Attorney’s Examination fails to meet the Standards for Educational and Psychological Testing (1999) published
by the American Educational Research Association,
American Psychological Association, and the National
Council on Measurement in Education.
4. As stated in my Evaluation of the Psychometric Adequacy of the California Attorney’s Examination
dated February 15, 2008, the specific shortcomings for
this test and thus its failure to meet the Standards for
Educational and Psychological Testing are as follows:
a.

The Attorney’s Examination lacks contentrelated validity. According to Steven P. Klein
(The Rand Corporation):

App. 63
“State bar examinations have been criticized
for measuring only a few of the important
skills and abilities that are needed for the
practice of law. For example, a typical essay
question provides several facts that are material to a case and then asks the applicant to
determine how the case should be resolved
relative to the applicant’s knowledge of general legal principles. The exam does not address
interviewing, negotiating, or oral advocacy
skills; the ability to draft or evaluate legal
documents; or the ability to conduct legal research.” (Klein, 1983a; Measuring Legal Research Skills on a Bar Examination, Rand
Report P-6879). [emphasis added]1
Similarly, Klein claimed “Some of the other
skills that are important for legal practice
that are not tested directly by the traditional
bar exam include the ability to interview clients, examine a witness, conduct legal research, and negotiate a settlement.” (Klein,
1983b, Relationship of Bar Examinations to
Performance Tests of Lawyering Skills, Rand
Report P-6895)
b.

1

The Attorney’s Examination has never been
demonstrated to have criterion-related validation, in terms of evaluating the scores on
the test and comparing them to performance

The incomplete coverage of the content of the job in this
case might be compared to a driving license examination that only
involves parking a car, and does not involve driving outside of a
parking lot. Such an examination would fail to adequately sample
the content of the overarching activities allowed by a driver’s license.

App. 64
of practicing attorneys. (per Dr. Susan M.
Case, Director of Testing, National Conference
on Bar Examiners, 1/18/08).
c.

The scores on the Attorney’s Examination are
determined in a manner that is not consistent
with professional standards. The reliability of
the test scoring procedures fails to reach a
level that would be acceptable for high-stakes
testing. (Specifically, inter-rater agreement is
quite low, a correlation of .48 between raters
indicate only 23% shared variance among ratings; source: Klein & Bolus; Gansk & Associates 2003.) An acceptable level of reliability
for such high-stakes testing would be shared
variance in the neighborhood of 70% or higher
(corresponding to reliability of about .84 or
higher).

d.

The passing cut-off score on the Attorney’s Examination is determined without regard to
the actual knowledge and skills of the individuals taking the examination, but is determined by the scores of other individuals
taking the test.
The adjustment process that is used to transform the Attorney’s Examination raw scores
to a mean and standard deviation that
matches the results of other examinee’s MBE
scores, is performed in a manner that is inconsistent with actually assessing the individual
examinee’s knowledge and skills. This process
is “ . . . arbitrary, because it ensures that some
fixed proportion of applicants will fail even
though all or most of the applicants may in

App. 65
fact be qualified. The more able the group of
applicants taking the test, the higher the passing scores will be.” (Shimberg, 1981, p. 1141)
e.

Because of the lower reliability of the Attorney’s Examination, when compared to the
MBE, and the non-compensatory scoring for
the Attorney’s Examination, the resulting regression-to-the-mean (a statistical phenomena that is exacerbated by lower reliability)
will result in fewer qualified individuals taking the Attorney’s Examination actually obtaining a passing score on the examination, in
comparison to the California Bar Examination.

6. I have not testified as a witness at trial or deposition in the last four years.
7. I agree with Dr. Robert Kane’s conclusions
that bar exams are high-stakes licensing tests, and “a
fairly high reliability (above 0.8; preferably above 0.9)
is expected for testing programs that are used to make
high-stakes decisions about individuals.” See Kane,
Reflections on Bar Examining, 6, The Bar Examiner,
p.9 (Nov 2009). Dr. Kane’s opinion is consistent with
my opinion expressed in Paragraph 4C above: (“An acceptable level of reliability for such high-stakes testing
would be shared variance in the neighborhood of 70%
or higher (corresponding to reliability of about .84 or
higher”).
8. I also agree with Dr. Gary McClelland’s conclusion concerning the California Attorney’s Examination that: “The degree of inter-rater agreement is

App. 66
dreadful. I do not believe any scientist would ever publish data based on such low inter-rater agreement.” See
McClelland Declaration ¶ 6, May 5, 2008.
9. When the goal of inter-rater reliability is preferably in the range of .8 to .9 as noted by Dr. Kane, and
the inter-rater reliability of the California Attorney’s
Examination is consistently reported to be below .5,
there can be little doubt that the reliability of the decisions made on the basis of the scores is extremely low,
and not acceptable.
10. The facts and opinions submitted in this
Declaration and in the attached Evaluation of the
Psychometric Adequacy of the California Attorney’s
Examination are true and correct to the best of my
knowledge. This Declaration is submitted under penalty of perjury under state and federal law.
Dated: July 30, 2010
/s/ Phillip L. Ackerman
PHILLIP L. ACKERMAN, Ph.D.

App. 67
DECLARATION OF
GARY H. McCLELLAND, Ph.D.
I, GARY H. McCLELLAND, Ph.D. am competent
to testify and have personal knowledge, and based on
that knowledge declare the following:
1. I’m a psychology professor at the University of
Colorado at Boulder. I am interested in the study of
judgment and decision making, measurement and
scaling, and statistics and data analysis. I do research
in these areas and teach courses about statistics and
measurement.
2. I have a Ph.D. (1974) from The University of
Michigan, and I am also a Faculty Fellow, at the Institute of Cognitive Science.
3.

A representative of my publications includes:

•

McClelland, G.H. (2000). Seeing Statistics.
Duxbury Press.

•

Judd, C.M., & McClelland (1998). Measurement. In D. Gilbert, S. Fiske, & G. Lindzey
(Eds.), The handbook of social psychology (4e).
Cambridge University Press.

•

McClelland, G.H. (1997). Optimal design in
psychological research. Psychological Methods, 2, 3-19.

•

Judd, C.M., McClelland, G.H., & Smith, E.R.
(1996). Testing treatment by covariate interactions when treatment varies within subjects.
Psychological Methods, 1, 366-378.

App. 68
•

Judd, C.M., McClelland, G.H., & Culhane,
S.E. (1995). Data analysis: Continuing issues
in the everyday analysis of psychological data.
Annual Review of Psychology, 46, 433-465.

•

McClelland, G.H., & Judd, C.M. (1993). Statistical difficulties of detecting interactions
and moderator effects. Psychological Bulletin,
114(2), 376-390.

•

McClelland, G.H., Schulze, W.D., & Coursey,
D.L. (1993). Insurance for low-probability hazards: a bimodal response to unlikely events.
Journal of Risk and Uncertainty, 7(1), 95-116.

•

Irwin, J.R., Slovic, P., Lichtenstein, S., & McClelland, G.H. (1993). Preference reversals
and the measurement of environmental values. Journal of Risk and Uncertainty, 6, 5-18.

•

Judd, C.M., & McClelland, G.H. (1989). Data
analysis: A model comparison approach. New
York: Harcourt Brace Jovanovich.

4. I have previously studied the Colorado bar examination from 1972 to 1975, and based on that study
wrote “Assessing Bias in Professional Licensing Examinations by Checking Internal Consistency,” 9 Law and
Human Behavior, No. 3, p. 305 (1985).
5. I have reviewed Dr. Phillip L. Ackerman’s
“Evaluation of the Psychometric Adequacy of the California Attorney’s Examination” dated February 15,
2008, and generally agree with it. Dr. Ackerman is a
credible psychometrician as well. In my opinion, the
lack of an explicit equating procedure for the Essay

App. 69
and Performance Test sections is a fatal flaw. The degree of inter-rater agreement is dreadful. I do not believe any scientist would ever publish data based on
such low inter-rater agreement.
6. The facts and opinions submitted in this Declaration are true and correct to the best of my
knowledge. This Declaration is submitted under penalty of perjury under state and federal law.
Date: 5 May 08

/s/ Gary H. McClelland, Ph.D.
GARY H. McCLELLAND, Ph.D.

App. 70
Evaluation of the Psychometric Adequacy
of the California Attorney’s Examination
Prepared by Phillip L. Ackerman, Ph.D.
February 15, 2008
1.

According to the State Bar of California Committee of Bar Examiners/Office of Admissions. Retrieved from the web 12/8/07
“To be admitted to practice law in California, an
attorney applicant must comply with the requirements outlined in the Rules, which include: 1) registration as an attorney applicant; 2) a positive
moral character determination; 3) passage of the
Multistate Professional Responsibility Examination (MPRE); and 4) passage of the California Bar
Examination.”
“Attorney applicants admitted in other states or
jurisdictions of the United States who have been
admitted in active status in good standing four
years immediately preceding the first day of the
administration of the California Bar Examination,
may elect to take the Attorney’s Examination,
which is of two days duration and consists of six
essay questions and two performance test questions from the California Bar Examination.”

2.

After review of the available materials, it is concluded that the Attorney’s Examination fails to
meet the Standards for Educational and Psychological Testing. (1999), Published by the American
Educational Research Association, American Psychological Association, and the National Council
on Measurement in Education.

App. 71
The specific shortcomings of the test are as follows:
a.

The Attorney’s Examination lacks contentrelated validity. According to Steven P. Klein
(The Rand Corporation):
“State bar examinations have been criticized
for measuring only a few of the important
skills and abilities that are needed for the
practice of law. For example, a typical essay
question provides several facts that are material to a case and then asks the applicant to
determine how the case should be resolved
relative to the applicant’s knowledge of general legal principles. The exam does not address interviewing, negotiating, or oral
advocacy skills; the ability to draft or
evaluate legal documents; or the ability
to conduct legal research.” (Klein, 1983a;
Measuring Legal Research Skills on a Bar Examination, Rand Report P-6879). [emphasis
added]1
Similarly, Klein claimed “Some of the other
skills that are important for legal practice
that are not tested directly by the traditional
bar exam include the ability to interview clients, examine a witness, conduct legal research, and negotiate a settlement.” (Klein,

1

The incomplete coverage of the content of the job in this
case might be compared to a driving license examination that only
involves parking a car, and does not involve driving outside of a
parking lot. Such an examination would fail to adequately sample
the content of the overarching activities allowed by a driver’s license.

App. 72
1983b, Relationship of Bar Examinations to
Performance Tests of Lawyering Skills, Rand
Report P6895)
b.

The Attorney’s Examination has never been
demonstrated to have criterion-related validation, in terms of evaluating the scores on
the test and comparing them to performance
of practicing attorneys. (per Dr. Susan M.
Case, Director of Testing, National Conference
on Bar Examiners, 1/18/08).

c.

The scores on the Attorney’s Examination are
determined in a manner that is not consistent
with professional standards. The reliability of
the test scoring procedures fails to reach a
level that would be acceptable for high-stakes
testing. (Specifically, inter-rater agreement is
quite low, a correlation of .48 between raters
indicate only 23% shared variance among ratings; source: Klein & Bolus; Gansk & Associates 2003.) An acceptable level of reliability
for such high-stakes testing would be shared
variance in the neighborhood of 70% or higher
(corresponding to reliability of about .84 or
higher).

d.

The passing cut-off score on the Attorney’s
Examination is determined without regard
to the actual knowledge and skills of the individuals taking the examination, but is determined by the scores of other individuals
taking the test.
The adjustment process that is used to transform the Attorney’s Examination raw scores
to a mean and standard deviation that

App. 73
matches the results of other examinee’s MBE
scores, is performed in a manner that is inconsistent with actually assessing the individual
examinee’s knowledge and skills. This process
is “ . . . arbitrary, because it ensures that some
fixed proportion of applicants will fail even
though all or most of the applicants may in
fact be qualified. The more able the group of
applicants taking the test, the higher the
passing scores will be.” (Shimberg, 1981, p.
1141)
e.

Because of the lower reliability of the Attorney’s Examination, when compared to the
MBE, and the non-compensatory scoring for
the Attorney’s Examination, the resulting regression-to-the-mean (a statistical phenomena that is exacerbated by lower reliability)
will result in fewer qualified individuals taking the Attorney’s Examination actually obtaining a passing score on the examination, in
comparison to the California Bar Examination.
Specific Evidence/Data that
Form the Basis of the Evaluation

1.

The described procedure (from the Gansk & Associates “Analysis of the February 2003 California
Bar Examination” by S. P. Klein & R. Bolus; and
repeated in subsequent reports)
a.

The procedure described for the “equating” of
test scores from the MBE (using common
questions across multiple administrations of
the test) appears to be an appropriate use of

App. 74
psychometric procedures to maintain approximately similar meanings of test scores from
one administration to the next. However, neither the National Conference of Bar Examiners (phone contact with Dr. Susan Case,
1/18/08) nor ACT, Inc. (phone contact with Diane Johnson, 1/18/08) would make available
any evidence regarding the adequacy of the
procedures used for equating the test scores.
A failure to release such information is inconsistent with standards for open professional
evaluation of the psychometric adequacy of
tests used for commercial purposes.
b.

The reported reliability (form of reliability not
specified in the report) of the Attorney’s Examination ranges from .68 to .79 in available
reports, but is always reported to be lower
than the MBE (which ranges from .87 to .90)
[Given that no discussion is presented about
a sample of individuals who have taken the
test twice for test-retest reliability purposes, I
have surmised that the authors are referring
to internal consistency reliability.] Because internal consistency reliability estimates (such
as Cronbach’s a) represent a confounding of
test reliability and homogeneity (see Ackerman & Humphreys, 1991), the reported reliability information does not, in and of itself,
provide sufficient evidence to determine if the
test has adequate reliability. A sample of individuals who have taken the test twice, which
would provide either test-retest same form or
test-retest alternate form reliability is needed,
in order to ascertain whether the reliability of
the test and the stability of the knowledge and

App. 75
skills assessed by the test are adequately
measured. Test-retest alternate form reliability would be the most appropriate form of reliability for a certification test, and such data
are not available.
c.

No criterion-related validity data are reported
for the MBE or the Attorney’s Examination.
According to the evidence available and statements from the National Conference of Bar
Examiners (NCBE) Director of Testing, there
has never been an attempt to establish whether
the test has criterion-related validity.

2.

There is no clear indication of how the examination questions for the Essay section and the Performance Test (PT) section were created.

3.

There is no evidence of explicit equating procedure
(as is performed with the MBE) which involves
repeated use of a subsample of items from one administration to the next, in order to retain equivalent interpretations of test scores.

4.

Instead, the raw scores for the written portion (Essay and PT) are converted to another scale, by
means of multiplying the raw scores by a constant
and subtracting the mean, in order to “have the
same mean and standard deviation as the applicants’ MBE scores” (Klein & Bolus, 2003, p. 5)
“An applicant’s Total scale score was a weighted
combination of that applicant’s MBE and Written
scale scores. The formula for computing Total scale
scores was:
Total Scale Score = (.35)(MBE Scale) + (.65)(Written Scale)” (p.3)

App. 76
The actual weighting and constant values applied
to the raw scores on the Written portion changes
from one administration to the next; essentially
moving the goal posts, depending on the scores of
other examinees who complete the MBE. For example, in July, 2002 the Written Scale score was
“(3.0256 x Written Raw) – 473.9788” (p. 3). In February, 2003, the Written Scale score was “(3.2419
x Written Raw) – 584.0536”(p. 3)
5.

As noted above, according to the State Bar of California “Attorney applicants who take the Attorney’s Examination also have their scores on the
written section placed on the same scale of measurement as general applicants, but as they are exempt from the MBE, their pass/fail status is based
solely on the written section” (p. 3).

On the basis of professional standards:
Standards for educational and psychological testing. (1999). Published by the American Educational
Research Association, American Psychological Association, and the National Council on Measurement in
Education
1.

Ideally, there would be criterion-related validity
for each of the components of the Bar Examination
(in particular, both the MBE and the Written sections).
Comment: There do not appear to be any empirical
data on criterion-related validity for either of
these tests.

App. 77
2.

In the absence of criterion-related validity, there
should be indicators of content-based validity.
Comment: It is not possible, from the information
made available, to ascertain the process by which
items are created for the Written sections of the
test.

3.

Page 157. “Tests for credentialing need to be precise in the vicinity of the passing, or cut, score.
They may not need to be precise for those who
clearly pass or clearly fail.”
According to the Gansk & Associates 2003 report:
“There were 991 applicants who had their answers
read at least twice. On the average, an applicant’s
total written raw score on the first reading was 10
points higher than it was on the second reading.
The correlation between these scores was .48. This
value underestimates the true degree of agreement
between the readers because reread was limited
to applicants near the pass/fail line.” (p.5., italics
added)
In July 2002, “The correlation between these
scores was .40”
In the reports of the February, 2005 and July 2005
administrations, these statistics have been omitted.
Comment: This level of inter-rater agreement is
quite low, indicating only 16% to 23% shared variance among ratings. With such low reliability,
there is a strong tendency for regression-to-themean when scores are averaged. If the pass/fail
cutoff score is above the mean, the result will be
lower passing rates than would be obtained if the

App. 78
procedure were more reliable. (This results in a
larger portion of truly qualified individuals taking
the Attorney’s Examination to fail the examination, in comparison to individuals taking the full
California Bar Examination, ceteris paribus.)
4.

Page 157 “Legislative bodies sometimes attempt to
legislate a cut score, such as a score of 70%. Arbitrary numerical specifications of cut scores are unhelpful for two reasons. First, without detailed
information about the test, job requirements, and
their relationship, sound standard setting is impossible. Second, without detailed information
about the format of the test and the difficulty of
the items, such numerical specifications have little
meaning.”
Page 158. “Some credentialing groups consider it
necessary, as a practical matter, to adjust their criteria yearly in order to regulate the number of accredited candidates entering the profession. This
questionable procedure raises serious problems
for the technical quality of the test scores. Adjusting the cut score annually implies higher standards in some years than in others, which, although
open and straightforward, is difficult to justify on
the grounds of quality of performance. Adjusting
the score scale so that a certain number or proportion reach the passing score, while less obvious, is
technically inappropriate because it changes the
meaning of the scores from year to year.”
Standard 14.13. “When decision makers integrate
information from multiple tests or integrate test
and nontest information, the role played by each
test in the decision process should be clearly

App. 79
explicated, and the use of each test or test composite should be supported by validity evidence.
(p. 181).
Standard 14.17. “The level of performance required for passing a credentialing test should depend on the knowledge and skills necessary for
acceptable performance in the occupation or profession and should not be adjusted to regulate the
number of proportion of persons passing the test.”
Comment: Given that there is no apparent matching between the content of the Written portion
scores and the content of the knowledge and skills
of the occupation (especially given that the
score ‘meaning’ is norm-centered, rather
than content-centered, based on the transformations to the raw scores), it seems clear
that these standards have not been met in
any explicit fashion.
5.

On January 18, 2008, I spoke by telephone with
Dr. Susan M. Case, Director of Testing, National
Conference on Bar Examiners.
Dr. Case confirmed that there have been no validation studies conducted on the Multistate Bar
Examination (MBE) that involve practicing lawyers. That is, there are no predictive or concurrent
validity data that would support the use of the
MBE for determining the competency of individuals for admission to the Bar.
Dr. Case also indicated that NCBE would not release any information about the psychometric
adequacy of the MBE test (e.g., reliability and validity).

App. 80
I also spoke with Diane Johnson of ACT on January 18, 2008. She noted that ACT develops and
equates the test for NCBE, but she indicated that
no information could be released about the psychometric properties (e.g., reliability, equating) could
be released from her organization.
References
Klein, S. P., & Bolus, R. (2002). Analysis of the July
2002 California Bar Examination. This is an attachment to the Report to the Supreme Court of California.
Klein, S. P., & Bolus, R. (2003). Analysis of the February
2003 California Bar Examination. This is an attachment to the Report to the Supreme Court of California.
Klein, S. P., & Bolus, R. (2005a). Analysis of the February 2005 California Bar Examination. This is an attachment to the Report to the Supreme Court of California.
Klein, S. P., & Bolus, R. (2005b). Analysis of the July
2005 California Bar Examination. This is an attachment to the Report to the Supreme Court of California.
Report to the Supreme Court of California on the July
2002 California Bar Examination
Report to the Supreme Court of California on the February 2003 California Bar Examination
Report to the Supreme Court of California on the February 2005 California Bar Examination
Report to the Supreme Court of California on the July
2005 California Bar Examination

App. 81
Standards for educational and psychological testing.
(1999). Washington DC: American Educational Research Association, American Psychological Association, and the National Council on Measurement
in Education.
Ackerman, P. L., & Humphreys, L. G. (1991). Individual
differences theory in industrial and organizational
psychology. Chapter in M. D. Dunnette & L. M.
Hough (Eds.) Handbook of industrial and organizational psychology (Volume 1, pp. 223-282). Palo
Alto, CA: Consulting Psychologists Press.
Klein, S. P. (1983a); Measuring legal research skills
on a bar examination, Rand Report P-6879. Rand
Corporation.
Klein, S. P. (1983b). Relationship of bar examinations
to performance tests of lawyering skills. Rand Report P-6895. Rand Corporation
Shimberg, B. (1981). Testing for licensure and certification. American Psychologist, 36, 1138-1146.
Additional Citations and Reference Materials
Others have offered both psychometric and principled
arguments against the methods currently in use for deriving scores on the Written Section (Essay and PT) of
the Bar Examination. For example, see the especially
detailed analysis provided by:
Merritt, D. J., Hargens, L. L., & Reskin, B. F. (2001).
Raising the bar: A social science critique of recent increases to passing scores on the bar exam. University
of Cincinnati Law Review, Vol. 69, No. 2.

App. 82
For a brief review of these points, see pp. 9-12 by D. J.
Merritt in The Bar Examiner, November 2001.
These issues are also discussed in W. C. Kidder (2004).
The bar examination and the dream deferred: A critical analysis of the MBE, social closure, and racial and
ethnic stratification. Law and Social Inquiry, pp. 547589.

App. 83

EXHIBIT B
2018 Petition by Legal Scholars on Behalf of National
Advocates to Change Local
Rules in 9th Circuit Arguing
this Federal Discrimination
is Not Reasonably Related
to any Legitimate Purpose &
Rejection

App. 84
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
UNITED STATES COURTHOUSE
450 GOLDEN GATE AVENUE
SAN FRANCISCO, CA 94102
(415) 522-4100
CHAMBERS OF

PHYLLIS J. HAMILTON
CHIEF JUDGE

April 3, 2018
Alan B. Morrison
Lerner Family Associate Dean for Public
Interest & Public Service
George Washington University
School of Law
2000 H Street, NW
Washington, DC 20052
Dear Mr. Morrison
I write in response to your letter of February 6,
2018, and accompanying petition to amend the Northern District of California’s Civil Local Rule 11-1(b). As
per our Civil Local Rule 83-1, your petition and supporting materials have been fully vetted first by the
court’s Local Rules Committee and then by the entire
court. We have voted to deny your petition.
Thank you for your interest in our local rules.
Sincerely,
/s/ Phyllis Hamilton
Phyllis Hamilton
Chief Judge

App. 85
cc: Hon. Richard Seeborg,
Chair, Local Rules Committee
Susan Y. Soong, Clerk of Court

App. 86
THE GEORGE
WASHINGTON
UNIVERSITY
WASHINGTON, DC
May 23, 2018
By Federal Express
Sidney R. Thomas, Chief Judge
United States Court of Appeals for the Ninth Circuit
The James R. Browning Courthouse
Office of the Circuit Executive
95 Seventh Street, Suite 429
San Francisco CA 94103
Dear Chief Judge Thomas:
This letter is written to you in your capacity as Chair
of the Judicial Council of the Ninth Circuit. Pursuant
to 28 U.S.C. § 2071(c)(1), the enclosed Petition asks the
Council to review a decision of the United States District Court for the Northern District of California declining to amend its Local Rule 11-1(b) to delete the
requirement that applicants for admission to the Bar
of that Court must also be active members of the California Bar. An electronic version of this Petition and
supporting papers are being provided by email to the
Circuit Executive’s office.
Respectfully submitted,
/s/ Alan B. Morrison
Alan B. Morrison
Attorney for the Petitioners
cc:

Marcy Mills, mmills@ce9.uscourts.gov

App. 87
THE GEORGE
WASHINGTON
UNIVERSITY
WASHINGTON, DC
May 23, 2019
Federal Express
Sidney R. Thomas, Chief Judge
United States Court of Appeals for the Ninth Circuit
The James R. Browning Courthouse
Office of the Circuit Executive
95 Seventh Street, Suite 429
San Francisco CA 94103
Dear Chief Judge Thomas:
This letter is written to you in your capacity as Chair
of the Judicial Council of the Ninth Circuit. A year ago
I filed a Petition with the Judicial Council pursuant to
28 U.S.C. § 2071(c)(1). A complete copy of the Petition
and my cover letter are enclosed.
The Petition sought review of a decision of the United
States District Court for the Northern District of California declining to amend its Local Rule 11-1(b) to delete the requirement that applicants for admission to
the Bar of that Court must also be active members of
the California Bar. An electronic version of the Petition
and supporting papers were provided by email to the
Circuit Executive’s office.
Although a year has passed since the Petition was
filed, there has been no action on the Petition, nor have
I received any communication from the Judicial Council on this matter. I would appreciate it if you would

App. 88
look into this matter and advise me whether we will
receive a substantive response and, if so, in what time
frame.
Respectfully submitted,
/s/ Alan B. Morrison
Alan B. Morrison
Attorney for the Petitioners
cc:

Marcy Mills, mmills@ce9.uscourts.gov
(w/out enclosures)

App. 89
February 6, 2018
PETITION OF PUBLIC CITIZEN LITIGATION
GROUP & 12 OTHERS PURSUANT TO LOCAL
RULE 83-2 TO AMEND LOCAL RULE 11-1(b)
This Court and the three other federal district
courts in California have promulgated rules under
which attorneys may not be admitted to practice in
those courts unless they are active Members of the Bar
of the State of California. This Petition asks this Court
to amend Local Rule 11-1(b) to delete the requirement
that applicants for admission to the bar of this Court
must be members of the California bar. Copies of this
Petition are being sent to the Clerk of each of the District Courts in the Ninth Circuit. All of those courts require that members of their bars be admitted to the
state court in which the district is located. However,
within the Ninth Circuit, only three States require
that all applicants for admission take the bar exam for
that jurisdiction (California, Nevada, and Hawaii, plus
the Territories of Guam and North Marianas). NAT’L
CONFERENCE OF BAR EXAM’RS AND AM. BAR ASS’N SECTION OF LEGAL EDUC. AND ADMISSIONS TO THE BAR, COMPREHENSIVE GUIDE TO BAR ADMISSION REQUIREMENTS 36
(2017) (“Nat’l Conf Report”) http://www.ncbex.org/pubs/
bar-admissions-guide/2017/mobile/index.html#p=48
SUMMARY OF PROPOSAL
Pursuant to Local Rule 83-2 and 28 U.S.C.
§ 2071(c), this Petition asks the Court to amend Rule
11-1(b), after providing notice and an opportunity to

App. 90
submit comments, to delete the requirement for California Bar admission, with the proposed text appearing on page 5. As more fully explained below, three
reasons support this change.
(1) The requirement for California Bar admission does not bear any reasonable relationship to the
actual practice in this Court because the procedures
followed are established by federal rules and the issues
in the vast majority of the cases in this Court arise under federal, not California law.
(2) Because the California Bar does not allow
any attorney to be admitted on motion, having to take
the California Bar exam imposes unjustified burdens
of time and money for an attorney whose primary reason to obtain admission to that Bar is to be admitted
to practice in this Court. In addition, once admitted, a
lawyer must continue to be an active dues-paying
member of the California Bar to remain a member of
the Bar of this Court, even when a lawyer does not regularly practice in California. These burdens are wholly
out of proportion to any possible benefit that might be
realized for clients and the Court from imposing such
a requirement.
(3) The requirements for pro hac vice admission—in particular the payment of $310 for each attorney in each case—are burdensome. The required
payment must be made not only by attorneys who have
a major role in a case, but also by those whose appearance is on behalf of an amicus or a class member objecting to a settlement of a class action, or in

App. 91
connection with motions pertaining to a subpoena issued in support of litigation pending in a different district.
THE PETITIONERS
The Addendum to this Petition describes each of
the Petitioners and explains their interests in supporting the proposed rule change. The reasons for their
support vary, because the petitioners represent a variety of affected persons, including non-profit organizations providing pro bono legal services; organizations
of attorneys; and a membership organization of forprofit businesses. Each Petitioner has concluded that
the current requirement of membership in the California bar imposes unnecessary burdens on lawyers and
clients alike, although in different ways and in different circumstances.
HISTORY OF RULE 11-1(b)
Shortly after the Federal Rules of Civil Procedure
became effective in 1938, a committee of Federal District Judges, chaired by Judge John Knox of the Southern District of New York, prepared a report, FED.
JUDICIAL CONFERENCE, REPORT ON LOCAL DISTRICT
COURT RULES (1940), reprinted in 4 Fed R. Serv. 969
(1941) (hereinafter, the “Knox Report”). The Report
sets forth the circumstances in which the committee
thought local rules might appropriately supplement
the uniform civil rules. The Report concluded that bar
admission rules were appropriate for local adoption.

App. 92
The committee also included as an Appendix to the Report model rules for bar admission and other topics
that it considered appropriate. A copy of the pages of
that Appendix relating to attorney admission is included in the Addendum to this Petition.
The model rule on bar admission is noteworthy in
that it did not suggest that the federal courts require
admission to the bar of the state in which the federal
court was located. Rather, it would have allowed admission for any attorney who was admitted by the
highest court of “this state . . . or any other state” with
one proviso: that the applicant “must show that at the
time of his admission to the bar of that [other] court,
the requirements for admission to that bar were not
lower than those that were at the same time in force
for admission to the bar of this state.” Knox Report
Appendix at 29. The committee described the proviso
as “a step in the direction of higher standards for admission and will tend to make applicable to the Federal
bar in any state at least the standards which that state
requires.” Id. at 30. Thus, to the extent that the committee envisioned admission to a district court bar to
exclude attorneys admitted in other states, it was
solely because a particular state—not all other
states—had lower standards for admission than the
state where the district court was located.
This Court first enacted local rules in 1977 and
amended them in 1988. On March 22, 1994, the Court
appointed a committee to review all of the local rules
and make suggestions for revisions. The committee
issued its report on November 1, 1994, and on January

App. 93
20, 1995, the Court published the report and requested
comments on the proposed changes, which included a
proposed change to Rule 11 on bar admission. The first
ten pages of the notice and report, which include the
material relevant to Rule 11, are attached (the “Notice”).
At that time, this Court had no requirement that
a member of the Bar of this Court be admitted to the
California Bar. The committee proposed that change,
among amendments that it designated “Policy Suggestions,” as one that “it felt would be wise as a matter of
policy.” Notice at vii. In support of the change, the committee offered no studies or other evidence beyond its
self-evident observations that the proposed rule “more
closely restricts bar membership to members of the
California bar” and that “the previous rule was less restrictive on this issue.” The Rule was adopted, with no
changes, but with one noteworthy feature: it allowed
those attorneys who were admitted to this Court prior
to the 1995 amendment to continue as members of the
bar of this Court.
As a result, Rule 11-1 of this Court now provides
as follows:
(b) Eligibility for Membership. To be eligible for admission to and continuing membership in the bar of this Court an attorney
must be an active member in good standing of
the State Bar of California, except that for any
attorney admitted before September 1, 1995
based on membership in the bar of a jurisdiction other than California, continuing active

App. 94
membership in the bar of that jurisdiction is
an acceptable alternative basis for eligibility.
PETITIONERS’ PROPOSED RULE
Petitioners propose that the Rule be amended by
deleting the following language:
the State Bar of California, except that for any
attorney admitted before September 1, 1995
based on membership in the bar of a jurisdiction other than California, continuing active
membership in the bar of that jurisdiction is
an acceptable alternative basis for eligibility.
In the place of the language limiting new admissions
to members of the California Bar, the following language, eliminating that restriction, would be inserted:
“the bar of any State, Territory, or the District of Columbia.” Under this proposal, Rule 11-1(b) would read
as follows:
(b) Eligibility for Membership. To be eligible for admission to and continuing membership in the bar of this Court, an attorney
must be an active member in good standing of
the bar of any State, Territory, or the District
of Columbia.1

1

The full text of current Local Rule 11 is included in the Addendum.

App. 95
REASONS TO GRANT THE PETITION
1.

The Current Rule Is Not Reasonably Related to Any Legitimate Purpose.

The requirement of admission to the California
Bar is a barrier to admission to the federal courts in
California by out-of-state attorneys in good standing
where they primarily practice, and, therefore, there
should be a good reason for it. This Petition is not like
a court challenge to a bar admission rule in which the
Court would have to give deference to the entity that
issued the rule and would have to determine the appropriate level of scrutiny to apply. Because this Court
has the power to change the rule whenever it finds
cause to do so, the Petition need only show that the
California Bar requirement is not reasonably necessary to serve a legitimate purpose.
(a) Federal Law Dominates the Cases in this
Court.
The only possible justification for requiring licensed attorneys who wish to become members of the
Bar of this Court to be admitted to the State Bar of
California would be that many of the cases in this
Court involve questions of California law. Yet because
so many do not involve California law, that argument
does not justify the rule. To begin with, federal courts
apply federal procedural rules—civil, criminal, bankruptcy, and evidence, as well as the Court’s local
rules—to the proceedings before them. Before 1938,
federal courts applied local procedural rules, and so

App. 96
knowing California state procedures might have made
sense then, but that is no longer the case. To the extent
that California Bar admission is a proxy for a lawyer
being available to be in court, the increased use of electronic filing and teleconferencing has reduced the need
for counsel who live and regularly practice in California. Moreover, even when motions are not decided on
the papers alone, many judges hold hearings by telephone even for lawyers who have offices in the District.
See Civ. L. R. 7-1(b).
On the substantive side, criminal cases are governed by federal criminal statutes and the Federal
Rules of Criminal Procedure and the United States
Constitution. Most laws at issue in bankruptcy and admiralty proceedings are federal, although issues of
state law arise regarding claims in bankruptcies and
may arise in other cases as well. Even then, for reasons
discussed below for civil cases generally, the applicable
state law may not be that of California. In short, as the
American Law Institute observed, the requirement of
local bar membership “is inconsistent with the federal
nature of the court’s business.” RESTATEMENT OF LAW,
THIRD, THE LAW GOVERNING LAWYERS § 3 comment g
(AM. LAW INST. 2000).
On the civil side, cases fall into two major categories: cases arising under federal law, for which California state law is only rarely even a small part of the
governing authority, and diversity cases, in which
state law is the basis for the underlying claim. During
the year ending June 30, 2016, 6,925 civil cases were
commenced in the Northern District of California.

App. 97
Statistical Tables for the Federal Judiciary, ADMIN. OFFICE OF THE U.S. COURTS Table C-3 at 5 (June 30, 2016),
http://www.uscourts.gov/statisticsreports/statisticaltables-federal-judiciary-june-2016. In addition, 591
criminal cases and 10,777 bankruptcy cases were filed,
for a total of 18,293 cases. Id. Tables D at 3; Table F at
3. Among the civil actions, the United States was a
party in 651, id. Table C-3 at 5, and pursuant to 28
U.S.C. § 517, its attorneys may appear in any court,
federal or state. Of the 6,274 private cases, 1,084 were
prisoner petitions, 590 were intellectual property
cases, 502 were labor suits, and 963 were civil rights
suits. Id. at 6. Complaints in these categories all appear to be based on federal substantive law, although
some cases may also include closely related state-law
claims under supplemental jurisdiction. Even in those
“mixed” cases, the lawyer’s expertise in employment,
securities, or antitrust law, for example, is far more important to the client than whether the lawyer is admitted to the state court where the federal court is
situated.
Of the 3,135 remaining private civil cases, 722
were contract cases, 273 were real property cases, 411
were personal injury cases, and 662 were “other tort
cases,” which may well include federal admiralty cases.
Id. The remaining 1,067 cases were not categorized,
but, based on their placement in the table, and the absence of any category for securities and antitrust
cases, some of them are certainly cases based on federal substantive law. The Administrative Office does
not publish statistics on the basis of subject matter

App. 98
jurisdiction by District for filed cases, but from its data
set on case closings, assisted by a researcher at the
Federal Judicial Center, Petitioners were advised that
there were 1,038 civil cases, based on diversity of citizenship, terminated in fiscal year 2016 in the Northern
District of California. On the assumption that terminations and filings were approximately the same, diversity cases represented 16.5% of the private civil
cases, but only 5.6% of the total of all cases.2
(b) Even Cases in This Court Involving State
Substantive Law Do Not Require California
Expertise.
Moreover, even when state law is significant in a
particular case, the state law at issue is by no means
certain to be the law of California. In diversity cases,
the parties will always be from at least two jurisdictions, one of which is not California. With the laws of
two or more jurisdictions a possibility, there is no particular reason to think that California law would apply
even in a diversity case in federal court in California,
using the applicable conflicts of laws principles (which
will be decided based on the choice of law principles of
2

The Northern District’s caseload is in line with the national
numbers. Thus, of the 1,187,854 cases filed in all district courts
for the 12 months ending March 31, 2016, 833,515 were bankruptcy cases, 79,787 were criminal cases and 274,552 were civil
cases of which only 82,990 (7.0% of total filings and 30.2% of
civil filings) were diversity cases. Federal Judicial Caseload
Statistics, ADMIN. OFFICE OF THE U.S. COURTS (Mar. 31, 2016),
http://www.uscourts.govistatistics-reports/federal-judicial-caseloadstatistics-2016.

App. 99
the State in which the district court is located) or the
choice of law provision in a contract. Moreover, a number of MDL diversity cases, including nationwide class
actions, end up in California, where the judge will have
to decide which state law(s) to apply to the claims. In
one substantive area of law in which California is different from that of most states—it has community
property—the exclusion of matrimonial cases from the
scope of diversity jurisdiction, Ankenbrandt v. Richards, 504 U.S. 689 (1992), makes it unlikely that community property issues will arise with any frequency
in this Court. To be sure, some cases in this Court involve questions of California law. But even in that subset of cases, there is no reason to presume that private
lawyers who practice primarily outside of California
are not fully qualified to represent their clients in
those cases.
Two other reasons show that close familiarity with
the substantive law of a particular state is not likely to
be a significant factor in most federal court litigation.
First, advising a client in advance about state law is
quite different from handling a lawsuit after the claim
has arisen. In the former situation, knowledge of the
law can help avoid problems by careful planning, but
that is no longer an option once the breach of contract
or harm constituting a tort or a violation of another
law has occurred. At that point, the role of the lawyer
is to research existing law and apply it to the facts of
the case, rather than predict what problems might
arise and anticipate how to avoid them. Second, good
litigators, which describes most of the lawyers who

App. 100
handle civil cases in federal courts, are used to venturing into new areas of substantive law; indeed, that is
one of the skills that makes them good litigators. Thus,
even if there are nuances of California law at issue in
a given case, that is a common aspect of practice for a
federal court litigator.
(c) Other Aspects of the Current Rule Show that
the California Bar Admission Requirement
is Unnecessarily Burdensome.
Two features of the current rule undermine any
purported basis for the requirement of California Bar
admission. First, the rule makes an exception for attorneys who were admitted to the Bar of this Court prior
to September 1, 1995, based on admission to the bar of
another State, even if they still are not admitted in
California. That exception shows that the Court recognizes that litigants, opposing counsel, and the judges
of this Court are able to conduct litigation with lawyers
who have been admitted to the Bar of the Court, but
not the California Bar.3
Second, the current rule requires that attorneys
must continue to be “active” members of the California
Bar. As a result, if a California attorney moves his or
her primary practice to another jurisdiction, the right
to practice in this Court will depend on whether the
3

The fact that former members of the California Bar admitted to this Court after September 1995 are removed from the
Court’s bar if they retire from the California bar, even while maintaining active status in the bar of another state, further shows
the arbitrariness of the current rule.

App. 101
attorney continues to pay the $410 that is currently
charged active California lawyers, as well as the costs
to comply with the CLE requirement of the California
Bar (25 hours of CLE every three years, http://www.
calbar.ca.gov/Attorneys/MCLE-CLE/Requirements).
The CLE requirement may not dovetail with any CLE
requirements of the lawyer’s primary bar, and may require the lawyer to incur substantial additional costs.
Moreover, the requirement for admission to the local state court as a condition of admission to the federal court inevitably restricts clients’ choices of who
their attorneys will be. That limitation is unjustified
because there is no reason to assume that clients with
cases in this Court will not be able to make a proper
assessment as to whether the case is one in which
knowledge of local law is important or whether their
preferred lawyer is able to handle the matter, even
with local law issues as part of the mix. Federal court
diversity contract or property claims typically involve
significant matters, for which the client is either sophisticated or has advice of in-house counsel. As for
plaintiffs in tort actions, there is no reason to think
that the market for cases in the federal courts is so imperfect that this Court needs to require that the plaintiff hire a lawyer who is a member of the California Bar
for cases in this Court, regardless of how insignificant
issues of California law may be to the outcome. The argument to allow client choice is even stronger, and the
local law rationale even less weighty, in federal question, criminal, and bankruptcy cases, yet the California

App. 102
Bar admission requirement applies to those lawyers
who only handle cases arising under federal law.
In addition, the rules of professional responsibility
and the legal malpractice laws protect clients from unqualified and unethical lawyers, far more effectively
than the rule requiring California Bar admission. Local Rule 11-4(a)(1) of this Court incorporates the State
Bar of California’s Rules of Professional Conduct, including Rule 3-110 which states:
(A) A member shall not intentionally, recklessly, or repeatedly fail to perform legal services with competence.
(B) For purposes of this rule, “competence”
in any legal service shall mean to apply the
1) diligence, 2) learning and skill, and 3) mental, emotional, and physical ability reasonably
necessary for the performance of such service.
(C) If a member does not have sufficient
learning and skill when the legal service is
undertaken, the member may nonetheless
perform such services competently by 1) associating with or, where appropriate, professionally consulting another lawyer reasonably
believed to be competent, or 2) by acquiring
sufficient learning and skill before performance is required.
Finally, under the current Rule, if a client prefers
to have as lead counsel a lawyer who is not eligible to
become a member of the Bar of this Court, that will
generally require retaining and paying for local counsel, not just to sign papers, but, for at least some

App. 103
judges, to appear in court. See Civil L.R. 11-3(a)(3), (e).
Unless there is some reason to believe that clients cannot make appropriate decisions about which lawyer
they want to represent them in federal court litigation,
a local rule insisting that clients prefer California lawyers, no matter what the legal and factual issues may
be, is very hard to justify.
2.

California Bar Admission Is Burdensome.

Because California does not allow admission on
motion and does not provide for admission on a reciprocity basis, the burden imposed by this Court’s admission rule is even greater. Even if California allowed
admission on motion or through reciprocity, Petitioners would nonetheless urge this Court’s to revise its
rule for the reasons set forth in the prior section. Nonetheless, the requirements for admission to the California State Bar exacerbate the problem.
Everyone, no matter how long they have practiced
law, no matter if their work specializes in a single subject, even one dominated by federal law, must pass the
California Bar exam to be admitted to the State Bar,
and thus to be eligible for admission to the Bar of this
Court. As Justice Kennedy observed in Supreme Court
of Virginia v. Friedman, 487 U.S. 59, 68 (1988), “[a] bar
examination, as we know judicially and from our own
experience, is not a casual or lighthearted exercise.”
For lawyers who have been practicing elsewhere for a
number of years, the exam requirement is particularly
burdensome. The bar exam is a general test, and most

App. 104
lawyers specialize, and hence have no regular contact
with many areas that the exam tests. As a result, a
practicing lawyer will probably have to take a notinexpensive California Bar prep course,4 especially
given the low pass rate for the California bar (35.3%
for the February 2017 exam), including the attorneysonly exam (44.5% for the same exam). General Statistics Report, February 2017 California Bar Examination, THE STATE BAR OF CAL. (Mar. 26, 2017),
http://www.calbar.ca.gov/Portals/0/documents/admissions/
Statistics/FEB2017STATS.052617_R.pdf.
In contrast to an experienced lawyer who decides
to live and work in California, it is very hard for litigating lawyers practicing elsewhere to justify taking
the time away from pending matters, which may result
in a substantial loss of income, to take a state bar exam
that is needed only to be admitted to the federal district courts of that state in order to handle an occasional matter there. Finally, the attorney exam itself
costs $983, and once admitted, the lawyer must pay
$410 per year to the California Bar, which the lawyer
would not pay except to continue to be a member of the
bar of this Court.5

4

Kaplan’s discounted courses currently are priced between
$1699 and $2399. California Bar Review Course, KAPLAN (last
visited Jan. 31, 2018), https://www.kaptest.com/bar-exam/courses/
california-bar-review-course?state–california.
5
There is also a $153 laptop charge for the exam. Schedule
of Fees, THE STATE BAR OF CAL. (last visited Jan. 31, 2018),
https://www.calbarxap.com/applications/CalBar/info/fees.html.

App. 105
Whether California Supreme Court is justified in
continuing to insist that all applicants must take the
California Bar exam is not the question that this Court
must decide. Rather, given the admitted difficulty in
obtaining bar admission in California, the question is
whether this Court is justified in insisting that applicants for admission satisfy that requirement in addition to being in good standing in another State or the
District of Columbia. And on that question, the answer
is decidedly “No.”
The four district courts in California that require
admission in the State court are not unique among the
federal district courts. However, the combination of
State court bar admission and requiring all bar applicants to take the bar exam places those courts in a distinct minority. A majority of district courts nationwide
require admission to the local State Bar, but only eight
of the States comprising those districts require all applicants to take their state’s bar exam.6 As petitioners
explain above, we see no connection between being admitted to the bar of the state where a federal district
court is located, and the ability to provide quality legal
6

The other state bars that do not allow admission on motion
are Delaware, Florida, Hawaii, Louisiana, Nevada, Rhode Island
and South Carolina, plus Guam and the Northern Mariana Islands. Of these, Rhode Island requires that attorneys admitted
elsewhere only have to take the essay portion of the Rhode Island
Bar Exam. In February 2017, South Carolina began using the
Uniform Bar Exam, which will make it easier to gain admission
to its bar, but not eliminate the cost of application and annual
dues. NAT’L CONF REPORT, supra note 1, at 21-22, 27, 32, 36-37,
http://www.ncbex.org/pubs/bar-admissions-guide/2017/mobile/
index.html.

App. 106
services in that court. We therefore oppose all such requirements as unnecessary anywhere. The requirement is also unduly burdensome for the additional
reasons that admission to the California Bar requires
every applicant to pass the California Bar exam and
continue to be an active dues-paying member of that
bar.
3.

Pro Hac Vice Admission Is Not A Feasible
Alternative.

The third factor compounding the problem for lawyers and clients with cases in this Courts is that admission on a pro hac vice basis is not a feasible option
for several reasons. First, it is available only with the
cost and burden of having local counsel in the case.
N.D. Cal. Civ. R. 11-3(a)(3). Second, pro hac vice admission is not automatic, although most pro hac vice motions are granted, with no apparent requirement that
the Court determine whether there are any issues of
California state law in the case and whether the attorney seeking admission is qualified to handle them. Far
from supporting the current practice, the ease of admission suggests that there is no real reason to have
the California Bar admission requirement in the first
place.
Third, the charge of $310 is for each individual attorney’s pro hac vice admission in each case, and is
presently the second highest pro hac vice admissions
fee in the United States. The charge is the same as the
fee for permanent admission to the bar of this Court,

App. 107
and payment is required even if it the lawyer is simply
objecting to a class action settlement or seeking to file
an amicus brief. In this respect the fee operates like a
toll on access to justice and is particularly harmful
where a lawyer is handling a matter on a pro bono basis. For these reasons, pro hac vice admission is not a
substitute for full admission, and the pro hac vice rule
does not create a feasible alternative.7
4.

State Bar Admission Is Not Needed to Discipline Unethical Attorneys.

Courts have a legitimate interest in being able to
assure that Members of their Bar are subject to discipline by them. Eliminating the requirement that a
lawyer be admitted to the State Bar in the district in
which the federal court sits would not present a problem in this regard, especially when compared with the
situation in which a lawyer is admitted pro hac vice.
First, a Member of the bar of this Court who acts contrary to court rules may permanently lose the right to
practice in this Court, whereas an attorney admitted
pro hac vice will mainly lose the opportunity to participate in one case.
Second, if a lawyer is disciplined in one jurisdiction, that information is generally forwarded to all
7

Rule 11-3(b) imposes additional restrictions on pro hac vice
admission. With certain limited exceptions, an applicant is not
eligible for pro hac vice admission if she or he “(1) Resides in the
State of California; or (2) Is regularly engaged in the practice of
law in the State of California.”

App. 108
other jurisdictions in which the lawyer is admitted,
which may not include places in which the lawyer is
admitted for one case on a pro hac vice basis.
Third, the best proof that discipline is not a problem is the fact that many districts do not require admission to the local state bar, and there is no evidence
of which we are aware that those districts are having
any discipline problems with out of state attorneys
who are Members of their Bar.
Finally, the Court has, unintentionally, conducted
a limited experiment on whether there would be any
discipline or other problems from an attorney’s lack of
admission to the California bar, and so far as Petitioners can determine, there are no reports of such problems. The experiment arose from the express exception
created in 1995 for attorneys who are not members of
the California Bar, but who had previously been admitted to the Bar of this Court. If any problems arose from
that general exception, they surely would have surfaced in the intervening 23 years, and the fact that
they have not provides further support for the conclusion that the requirement of membership in the California Bar to be eligible for membership in the Bar of
this Court should be deleted, and the Petition granted.
CONCLUSION
For the foregoing reasons, the Court should institute a notice and comment rulemaking proceeding that
would eliminate the requirement that an attorney
must be a member of the State Bar of California to be

App. 109
a member of the Bar of this Court from Rule 11-(b),
which would then read as follows:
(b) Eligibility for Membership. To be eligible for admission to and continuing membership in the bar of this Court, an attorney
must be an active member in good standing of
the bar of any State, Territory, or the District
of Columbia.
Respectfully Submitted
/s/ Alan B. Morrison
Alan B. Morrison
D.C. Bar No. 073114
George Washington
University Law School
2000 H Street NW
Washington, D.C. 20052
202 994 7120
abmorrison@law.gwu.edu
/s/ Mark A. Chavez
Mark A. Chavez
CA Bar No. 090858
Chavez & Gertler LLP
Miller Avenue
Mill Valley, CA 94941
(415) 381-5599
mark@chavezgertler.com
Counsel for Petitioners

App. 110
ADDENDUM
DESCRIPTIONS OF PETITIONERS
Public Citizen Litigation Group is a public-interest
law firm within the non-profit consumer advocacy organization Public Citizen Foundation. Our lawyers are
located in the District of Columbia, but regularly appear in cases in federal courts across the country, including in the Northern District of California. At times
during the firm’s 45 years, we have represented in the
Northern District clients litigating as parties, clients
filing as amicus curiae, clients appearing as objectors
to proposed class action settlements, and “John Does”
challenging subpoenas to Internet Service Providers
seeking information to identify the Does. In each case,
we represent the client on a pro bono basis, although
where we represent a plaintiff we may seek an award
of attorney fees when we prevail. Currently, none of our
attorneys is admitted to practice in the Northern District. Therefore, to appear in the Northern District, we
must find local counsel, generally also pro bono, and
the attorney from our office with primary responsibility must-apply for pro hac vice admission and pay a
fee, currently $310. The requirement of paying a pro
hac fee applies even to our staff attorney who is a member of the California Bar but on inactive status, because the Northern District of California deems a
lawyer “inactive” who is on inactive status with the
California Bar. Another of our attorneys was previously admitted to the Northern District but lost her
admission after approximately 15 years, when she voluntarily retired from the California Bar (but retained

App. 111
her membership in the Bar of the District of Columbia).
American Civil Liberties Union is a national civil
liberties and civil rights organization founded in 1920
with affiliates or chapters in every state. It often litigates cases in California federal courts, and the rule as
it stands is an impediment to its doing so, and to its
working with attorneys who are not members of the
California state bar, even if those attorneys are fully
capable of and deeply versed in litigating in federal
court. For the reasons elaborated in the petition, it supports the requested rule change.
Association of Corporate Counsel, is a global bar
association of over 40,000 in-house attorneys who
practice in the legal departments of more than 10,000
organizations located in at least 85 nations. It strongly
supports the amendment by this court of Local Rule
11.1(b) to delete the requirement of membership in the
California bar in order to be admitted to the bar of
this Court. Our members’ companies may be involved
in litigation in this district and wish to use the expertise of our members, as well as outside counsel, who
may not be California bar members but who would be
the most knowledgeable and efficient choices for their
legal work. These in-house and outside counsel, admitted in other jurisdictions, perform for sophisticated corporate clients and should be allowed to practice in
federal court without the unnecessary burden of gaining admission to the California bar.

App. 112
Cato Institute is a nonpartisan public policy research
foundation dedicated to advancing the principles of individual liberty, free markets, and limited government.
Cato files amicus briefs in cases arising around the
country, and thus has an interest in ensuring reasonable admission rules in all jurisdictions that permit the
filing of amicus briefs, including the Northern District
of California. See. e.g., Google LLC v. Equustek Solutions, Inc., No. 5:17-cv-04207-EJD, Dkt. 27 & 40 (N.D.
Cal.). As a nonprofit organization, Cato is especially
sensitive to litigation costs, and high pro hac admission
fees may preclude us from filing. Cato also has a larger
institutional interest in vindicating the right to choice
of counsel, both as a general means of securing access
to justice for all litigants, and also as a component of
criminal defendants’ Sixth Amendment right to the assistance of counsel. Cato supports the petition because
the proposed rule change would enable parties to
choose from a wider range of qualified counsel and secure representation at lower cost.
Center for Constitutional Litigation, P.C. (CCL) is
a law firm located in New York, NY with a nationwide
practice, that occasionally has cases and currently has
one case pending in the Northern District of California,
though no lawyer in the firm is admitted to that court’s
bar or the bar of the State of California. In that case,
CCL lawyers represent the City of Oakland in City of
Oakland v. Wells Fargo & Co., Case No. 3:15-cv-04321EMC, having been admitted pro hac vice. Because our
practice takes our lawyers into federal and state courts
throughout the nation, CCL is keenly interested in the

App. 113
rules that govern its admission to the bar of this Court.
When lawyers in the firm have cases in the Northern
District, they must associate with (and pay) local counsel, whether that is in the best interests of their clients
and they must apply for and pay for pro hac vice admission in each case in which they are counsel.
Competitive Enterprise Institute’s Center for
Class Action Fairness represents class members pro
bono against unfair class action procedures and settlements. With a high volume of class actions filed in the
Northern District, we regularly appear in the Northern District on behalf of individual class members objecting to unfair class action settlements. We handle all
of these cases pro bono, although we may seek attorneys’ fees where our work substantially improves a
settlement. Only one of our five attorneys is admitted
to the Northern District and is a member of the California bar. Because a large percentage of our caseload
is in the Northern District, it is impractical for that
single attorney to handle all of our work in the Court.
As a result, our other attorneys often must apply for
pro hac vice admission and pay the $310 fee, instead
of paying the identical Northern District bar admission fee only once. We also are required to retain local
counsel who are physically present in the district in
such cases, even though those local counsel add nothing to our understanding of the local rules or the underlying law. This adds thousands of dollars a case to
our expenses. Combined with the expense of litigating
across the country and our limited budget, it has

App. 114
affirmatively deterred us from participating in meritorious litigation.
Consumers for a Responsive Legal System (“Responsive Law”) is a non-profit organization located in
Washington, D.C. Responsive Law seeks to make the
legal system more affordable, accessible and accountable to ordinary Americans. Responsive Law believes
that requiring state bar membership for an appearance in federal court provides no benefit to individuals
and small businesses seeking counsel for matters before a federal court. It does, however, limit the number
and variety of lawyers from whom a litigant can select
its counsel, thereby restricting consumer choice and
artificially raising costs for parties in federal litigation.
Unchecked protectionism of this sort is one of the reasons why the United States currently ranks 94th out
of 113 countries in “affordable and accessible civil justice” according to the most recent Rule of Law Index
issued by the World Justice Project.
Earthjustice is a non-profit public interest law firm.
Earthjustice is headquartered in San Francisco, has an
office in Los Angeles, and maintains additional offices
in Alaska, Hawaii, Washington, Colorado, Montana,
Pennsylvania, Florida, New York and Washington D.C.
Although a number of attorneys in Earthjustices’s
California offices are admitted to and practice in the
Northern District, some of Earthjustices’s litigation
in this District is handled by attorneys who are not
based or barred in California, and sometimes these
non-California attorneys co-counsel a case in this District with an attorney who is admitted here. If these

App. 115
non-California attorneys were admitted to the Northern District bar, they would not need local counsel and
would not have to pay the $310 pro hac vice filing fee
for each case on which they worked.
Natural Resources Defense Council is a non-profit
advocacy organization with members throughout the
United States. NRDC is headquartered in New York,
and maintains non-California offices in Illinois, Montana, and Washington, DC, as well as in San Francisco
and Santa Monica, California. Although a number of
attorneys in NRDC’s California offices are admitted to
and practice in the Northern District, some of NRDC’s
litigation in this District is handled by attorneys who
are not based or barred in California, and sometimes
these non-California attorneys co-counsel a case in this
District with an attorney who is admitted here. If these
non-California attorneys were admitted to the Northern District bar, they would not need local counsel and
would not have to pay the $310 pro hac vice filing fee
for each case on which they worked.
Pacific Legal Foundation (PLF) is a national pro
bono public interest litigation firm with offices in California, Washington, Florida, and Virginia. A number
of PLF attorneys are members of the bar associations
of states other than California, although most PLF attorneys are also members of the California State Bar.
PLF litigates constitutional and other claims on behalf
of its clients in federal courts across the nation. PLF
attorneys are experts in several areas of federal law,
including property rights and permit exactions, federal
environmental law (particularly the Clean Water Act

App. 116
and Endangered Species Act), race and sex preferences
and discrimination, and freedom of speech and association. These legal fields employ a more or less unified
national body of federal case law that is applicable in
all federal courts. In litigating claims grounded in
these fields, PLF attorneys’ credentialing by the state
bar association for the state in which the federal district court sits is not germane to their ability to represent clients and serve as officers of the federal district
court. These attorneys’ original credentialing as lawyers by any state bar adequately serves these purposes. The Northern District’s rule requiring members
of the Northern District Bar to first be members of the
California State Bar serves no purpose that membership in another state bar association does not serve,
and impedes PLF attorneys who are not California
State Bar members from carrying out their public interest mission in representing clients with federal law
claims that are properly venued in the Northern District of California.
Robert S. Peck is president of the Center for Constitutional Litigation, P.C. (CCL), a law firm located in
New York, NY, and is admitted to practice in the State
of New York and the District of Columbia. He is admitted to practice and has handled cases in the Supreme
Court of the United States, six federal circuit courts of
appeal, and five U.S. District Courts, while also having
appeared pro hac vice in four other federal circuit
courts and 13 other U.S. District Courts. In addition,
he has litigated cases in state court in 25 states. Because his practice occasionally takes him to various

App. 117
federal district courts in California, including a current matter pending in the Northern District of California, he is keenly interested in the rules that govern
admission to practice in the Northern District. Currently, when litigating in that court, he must associate
with (and pay) local counsel, whether that is in the best
interests of his clients and must apply for and pay for
pro hac vice admission in each case in which he is counsel.
Public Justice is a national public interest advocacy
organization headquartered in Washington D.C. with a
branch office in Oakland, California. Our in-house staff
attorneys team with private attorneys around the
country to fight injustice and preserve access to the
courts for ordinary people. The bulk of our litigation is
in the federal courts. Public Justice is supported by the
membership contributions of thousands of attorneys
nationwide, many of whom are not members of the California bar and hence are not eligible to be members of
the Northern District bar. Instead, when they have
cases in the Northern District, they must associate
with (and pay) local counsel, whether or not that is in
the best interests of their clients, and they must apply
for and pay for pro hac vice admission in each case in
which they are counsel. We support the petition because we believe that the current admissions rules in
this District are unduly restrictive and burdensome. In
addition, we believe that the choice of whether to have
a lawyer admitted to the state court in which the federal court sits is one that should be left to the client

App. 118
and the client’s counsel, not imposed on the client by
the Northern District rules.
John Vail is the principal of John Vail Law PLLC, a
law firm located in Washington, DC, and devoted to
appellate and motions practice throughout the United
States. Mr. Vail is admitted to the bars of Tennessee,
New Mexico, North Carolina, and the District of Columbia, and to numerous federal district and appellate
courts, including the Supreme Court. He has served as
counsel in cases in state and federal courts in California. He has expended significant time and effort being
admitted pro hac vice in courts around the country. He
has been consulted about appearing in cases pending
in the Northern District. The current rules regarding
admission impede him from appearing there.
LOCAL RULE 11-1 (Current Version)
11-1. The Bar of this Court.
(a) Members of the Bar. Except as provided in Civil
L.R. 11-2, 11-3, 11-9 and Fed. R. Civ. P. 45(f ), an attorney must be a member of the bar of this Court to practice in this Court and in the Bankruptcy Court of this
District.
(b) Eligibility for Membership. To be eligible for
admission to and continuing membership in the bar of
this Court an attorney must be an active member in
good standing of the State Bar of California, except
that for any attorney admitted before September 1,
1995 based on membership in the bar of a jurisdiction

App. 119
other than California, continuing active membership
in the bar of that jurisdiction is an acceptable alternative basis for eligibility.
(c) Procedure for Admission. Each applicant for
admission must present to the Clerk a sworn petition
for admission in the form prescribed by the Court.
Prior to admission to the bar of this Court, an attorney
must certify:
(1) Knowledge of the contents of the Federal
Rules of Civil and Criminal Procedure and
Evidence, the Rules of the United States
Court of Appeals for the Ninth Circuit and the
Local Rules of this Court;
(2) Familiarity with the Alternative Dispute
Resolution Programs of this Court;
(3) Understanding and commitment to
abide by the Standards of Professional Conduct of this Court set forth in Civil L.R. 11-4;
and
Familiarity with the Guidelines for Professional
Conduct in the Northern District of California.
(d) Admission Fees. Each attorney admitted to
practice before this Court under this Local Rule must
pay to the Clerk the fee fixed by the Judicial Conference of the United States, together with an assessment
in an amount to be set by the Court. The assessment
will be placed in the Court Non-Appropriated Fund for
library, educational and other appropriate uses.

App. 120
(e) Admission. Upon signing the prescribed oath
and paying the prescribed fees, the applicant may be
admitted to the bar of the Court by the Clerk or a
Judge, upon verification of the applicant’s qualifications.
(f ) Certificate of Good Standing. A member of the
bar of this Court, who is in good standing, may obtain
a Certificate of Good Standing by presenting a written
request to the Clerk and paying the prescribed fee.
(g) Reciprocal Administrative Change in Attorney Status. Upon being notified by the State Bar of
California (or of another jurisdiction that is the basis
for membership in the bar of this Court) that an attorney is deceased, has been placed on “voluntary inactive” status or has resigned for reasons not relating to
discipline, the Clerk will note “deceased,” “resigned” or
“voluntary inactive,” as appropriate, on the attorney’s
admission record. An attorney on “voluntary inactive”
status will remain inactive on the roll of this Court until such time as the State Bar or the attorney has notified the Court that the attorney has been restored to
“active” status. An attorney who has resigned and
wishes to be readmitted must petition the Court for admission in accordance with subparagraphs (c) and (d)
of this Rule.
(1) The following procedure will apply to actions
taken in response to information provided by the
State Bar of California (or of another jurisdiction
or other jurisdiction that is the basis for membership in the bar of this Court) of a suspension for
(a) a period of less than 30 days for any reason or

App. 121
(b) a change in an attorney’s status that is temporary in nature and may be reversed solely by the
attorney’s execution of one or more administrative
actions. Upon receipt of notification from the State
Bar that an attorney has been suspended for any
of the following, the Clerk will note the suspension
on the attorney’s admission record:
(A) Noncompliance with Rule 9.22 child and
family support;
(B)

Failure to pass PRE;

(C)

Failure to pay bar dues;

(D) Failure to submit documentation of compliance with continuing education requirements.
While suspended, an attorney is not eligible to
practice in this Court or in the Bankruptcy Court
of this District. In the event that an attorney files
papers or otherwise practices law in this Court or
in the Bankruptcy Court while an administrative
notation of suspension is pending on the attorney’s
admission record, the Clerk will verify the attorney’s disciplinary status with the State Bar (or
other jurisdiction, if applicable). If the attorney is
not then active and in good standing, the Chief
District Judge will issue an order to show cause to
the attorney in accordance with Civil L.R. 117(b)(1).
Upon receipt by the Court of notification from the
State Bar that the attorney’s active status has
been restored, the reinstatement will be noted on
the attorney’s admission record.

App. 122
(2) In response to information provided by the
State Bar of California (or other jurisdiction that
is the basis for membership in the bar of this
Court) that an attorney has been placed on disciplinary probation but is still allowed to practice,
the Clerk will note the status change on the attorney’s admission record. An attorney with that status must, in addition to providing the notice to the
Clerk required by Civil L.R. 11-7(a)(1), report to
the Clerk all significant developments related to
the probationary status. Upon receipt by the Court
of notification from the State Bar that the attorney’s good standing has been restored, the change
will be noted on the attorney’s admission record.

KNOX REPORT RULES APPENDIX
ATTORNEYS’ PORTION
SUGGESTED LOCAL RULES FOR THE
UNITED STATES DISTRICT COURTS
1 Rule 1. Attorneys.
2 (a) Roll of Attorneys The bar of this court
3 consists of those heretofore and those hereafter
4 admitted to practice before this court, who have
5 taken the oath prescribed by the rules in force
6 when they were admitted or that prescribed by
7 this rule, and have signed the roll of attorneys
8 of this district.
9 (b) Eligibility. Any person who is a member
10 in good standing of the bar of (1) the highest
11 court of this state or of (2) the highest court of
12 any other state, is eligible for admission to the

App. 123
13 bar of this court, but any person who may apply
14 for admission to the bar of this court on the basis
15 of his admission, after the effective date of this
16 rule, to the bar of the highest court of any other
17 state must show that at the time of his admission
18 to the bar of that court, the requirements for
19 admission to that bar were not lower than those
20 that were at the same time in force for admission
21 to the bar of this state.
Note. It is stated elsewhere in this report that nationwide uniformity regarding eligibility for admission to
practice in the various district courts is neither feasible nor desirable. However, since nearly every district
has rules on this subject, and since some of those rules
seem to make possible the infiltration of unfit persons
into the Federal bar, and since some are couched in archaic and obscure language, this draft is
30
presented for the consideration of those judges who
may feel that the substance of the practice which it
states would fit the needs of their respective districts.
It will be noted that the draft contains a proviso that
will be a step in the direction of higher standards for
admission and will tend to make applicable to the Federal bar in any state at least the standards which that
state requires.
22 (c) Procedure for Admission. Each applicant
23 for admission to the bar of this court shall file
24 with the clerk a written petition setting forth
25 his residence and office addresses, his general

App. 124
26 and legal education, and by what courts he has
27 been admitted to practice. If he is not a
28 resident of this [district] [state] [and] [or]
29 does not maintain an office in this [district]
30 [state] for the practice of law, he shall des31 ignate in his petition a member of the bar
32 of this court who maintains an office in this
33 [district] [state] for the practice of law with whom
34 the court and opposing counsel may readily corn35 municate regarding the conduct of cases in
36 which he is concerned, and he shall append to
37 his petition the written consent of the person so
38 designated. The petition shall be accompanied
39 by certificates from two reputable persons who
40 are either members of the bar of this court or
41 known to the court, stating how long and under
42 what circumstances they have known the peti43 tioner and what they know of the petitioner’s
44 character. If a certificate is presented by a
45 member of the bar of this court, it shall also
31
46 state when and where he was admitted to prac47 tice in this court. The clerk will examine the
48 petitions and certificates and if in compliance
49 with this rule, the petitions for admission will be
50 presented to the court at the opening of the first
51 ensuing session which convenes not earlier
52 than ___ days after the filing of the petition.
53 When a petition is called, one of the members of
54 the bar of this court shall move the admission
55 of the petitioner. If admitted the petitioner

App. 125
56 shall in open court take an oath to support the
57 Constitution and laws of the United States, to
58 discharge faithfully the duties of a lawyer, and
59 to demean himself uprightly and according to
60 law and the recognized standards of ethics of
61 the profession, and he shall, under the direction
62 of the clerk, sign the roll of attorneys and pay
63 the fee required by law.
Note. It has been suggested that the rule should provide for the appointment of a committee of the bar to
pass upon applications and, if necessary, examine the
applicants personally. Rules of this character have long
been in force in the district court of Massachusetts and
have been incorporated into new rules in Arkansas and
Oklahoma. Although the committee recognizes the desirability of such a procedure for some courts, it does
not feel that it is necessary in the majority of districts
and, therefore, It has not incorporated the provision
into this rule. For judges who desire to inaugurate such
a practice, the Arkansas, Massachusetts, and Oklahoma rules will serve as helpful guides.
It will be noted that the proposed rule provides that
the petitions and certificates are to be presented to the
court by the clerk “at the opening of the first ensuing
session which convenes not earlier than ___ days after
32
the filing of the petition.” This, of course, is a routine
matter for the clerk and the provision must be varied
to conform to the custom of the particular district concerned.

App. 126
The alternative bracketed words “[district] [state]” in
lines 28,29,30 and 33 are presented in consequence of
the fact that in states where there are more than one
district, the situations differ so that choice is essential.
For example, in New York there is no valid or practical
distinction so far as the New York City bar is concerned
between the Southern and Eastern districts of New
York, and opinion, therefore, supports a requirement
not measured by the district. In general, the word
“state” should be used except where special reasons
exist for limiting the rule to the “district.”
64 (d) Permission to Participate in a Particular
65 Case. Any member in good standing of the bar
66 of any court of the United States or of the highest
67 court of any state, who is not eligible for admis68 sion to the bar of this district under subdivision
69 (b) of this rule, may be permitted to appear and
70 participate in a particular case. In his applica71 tion so to appear he shall make the designation
72 and append thereto the consent which are
73 required by subdivision (c) of this rule from non74 resident applicants for admission to the bar of
75 this court.
76 (e) Disbarment and Discipline. Any member
77 of the bar of this court may for good cause shown
78 and after an opportunity has been given him to
79 be heard, be disbarred, suspended from practice
80 for a definite time, reprimanded, or subjected
81 to such other discipline as the court may deem
82 proper.

App. 127
33
83 Whenever it is made to appear to the court
84 that any member of its bar has been disbarred
85 or suspended from practice or convicted of a
86 felony in any other court he shall be suspended
87 forthwith from practice before this court and,
88 unless upon notice mailed to him at his last
89 known place of residence he shows good cause
90 to the contrary within ___ days, there shall be
91 entered an order of disbarment, or of suspension
92 for such time as the court shall fix.
93 Any person who before his admission to the
94 bar of this court or during his disbarment or
95 suspension, exercises in this district in any action
96 or proceeding pending in this court any of the
97 privileges of a member of the bar or who pre98 tends to be entitled so to do, is guilty of con99 tempt of court and subjects himself to appro100 priate punishment therefor.
Note. This subdivision is in accord with Rule 2 (5) of
the Rules of the Supreme Court of the United States
and the decision of that Court in Selling v. Radford
(243 U. S. 46).

App. 128
NOTICE OF PROPOSED RULES CHANGES
NDCA JANUARY 1995
RULES COMMITTEE
OF THE

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
450 Golden Gate Avenue
San Francisco, California 94102
January 20, 1995
TO:

MEMBERS OF THE PUBLIC

FROM: JUDGE JAMES WARE, CHAIR
The United States District Court for the Northern
District of California proposes to revise its Local Rules
and has authorized circulation of the proposed revisions to the public generally for comment. The proposed revisions are intended to accomplish three
primary objectives: (1) to conform the Local Rules to
amendments to the national rules; (2) to renumber the
local rules to correspond to the numbering of the national rule; and (3) to incorporate procedures which
were tested under a pilot program pursuant to the
Civil Justice Reform Act and which have been shown
to be effective to secure the just, speedy and inexpensive determination of matters before the Court.
Enacted in 1977, the Local Rules of the Court are
intended to supplement the national rules. They were
last revised on November 1, 1988. Since 1988 amendments have been made to the national rules without
corresponding amendments to applicable Local Rules.
Effective December 1, 1993, a major amendment was

App. 129
made to the Federal Rules of Civil Procedure. In addition. over the course of time, the Court received numerous suggestions fix modifications to its Local Rules
from the bench and bar.
In 1993, Chief Judge Theiton E. Henderson requested the Rules Committee of the Court to undertake a major revision of the Local Rules. On March 22,
1994, pursuant to 28 U.S.C. § 2077, Chief Judge Henderson appointed an Advisory Committee on Civil
Rules. The Advisory Committee was requested to review the Local Rules of the Court and to issue a report
and recommendation to the Court.
On November 1, 1994, the Advisory Committee issued its report and recommendations, which were referred to the Rules Committee of the Court. The Rules
committee considered the report and recommendations cite Advisory Committee, u well as suggestions
from other sources. On January 10, 1995, the Rules
Committee presented its proposed revisions of the Local Rules to the Court, which approved their publication for public comment.
The proposed revisions include modifications to
the Bankruptcy Local Rules. October 22, 1994, the
Bankruptcy Reform Ad of 1994 became effective. It
made comprehensive changes in the Federal Rules of
Bankruptcy Procedure. The Bankruptcy Court for this
District proposes to amend its Local Rules to reflect
those amendments and to coordinate the numbering of
the proposed Bankruptcy Local Rules with the proposed revisions of the Civil Local Rules.

App. 130
The Court has not approved these proposed revisions but submits them for public comment. We request that all comments and suggestions be sent as
soon as convenient and, in any event, no later than
April 20, 1995 to:
Judge James Ware
Chair of the Rules Committee
280 South First Street
San Jose, California 95113
At the conclusion of the comment period, the Rules
Committee will consider the proposed revisions in light
of any comments and will make recommendations to
the Court. If adopted, the Revised Local Rules would
become effective on July 1, 1995.

App. 131
RULES COMMITTEE
OF THE
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
District Judge, James Ware, Chair
United States Courthouse
280 South First Street
San Jose, California 95113
District Judge
William H. Orrick, Jr.
United States District
Court
450 Golden Gate Avenue
San Francisco, California
94102

District Judge
Marilyn Hall Patel
United States District
Court
450 Golden Gate Avenue
San Francisco, California
94102

Magistrate Judge
Joan S. Brennan
United States District
Court
450 Golden Gate Avenue
San Francisco, California
94102

Bankruptcy Judge
Randall Newsome
United States
Bankruptcy Court
1800 Clay Street,
Room 800
Oakland, California 94612

ADVISORY COMMITTEE ON
CIVIL LOCAL RULES
Professor Richard Marcus, Chair
University of California
Hastings College of the Law
200 McAllister Street
San Francisco, CA 94102

App. 132
Pauline Fox
Jerrold M. Ladar
Pillsbury, Madison & Sutro 507 Polk Street, Suite 310
235 Montgomery Street
San Francisco, CA 94102
Joseph Franaszek
35 Bonnie Lane
Berkeley, CA 94708
Robert Goodin
Armour, Goodin, Schlotz
& MacBride
505 Sansome Street,
9th Floor
San Francisco, CA 94111

Amitai Schwartz
165 Montgomery St.,
Ste 800
San Francisco, CA 94104
Mimi Arfin, ADR
U.S. District Court
450 Golden Gate Avenue
San Francisco, CA 94102
Mary Beth Uitti
Assistant U.S. Attorney
450 Golden Gate Avenue
San Francisco, CA 94102

John Hauser
McCutchan, Doyle,
Brown & Enersen
Three Embarcadero Center, Richard Wicking, Clerk
Suite 2800
U.S. District Court
San Francisco, CA 94111 450 Golden Gate Avenue
Daniel Johnson, Jr.
San Francisco, CA 94102
Cooley, Godward, Castro,
Huddleson & Tatum
Five Palo Alto Square,
Fourth Floor
Palo Alto, CA 94306-2155
Ian Keye
Court Operations Manager
District Court
450 Golden Gate Avenue
San Francisco, CA 94102

App. 133
MEMORANDUM
TO:

Rules Committee, United States District Court
Northern District of California

FROM: Local Rules Advisory Committee
DATE: November 1, 1994
RE:

Draft of Proposed New Local Rules

The Local Rules Advisory Committee hereby
transmits to the Rules Committee its proposal for new
civil Local Rules. This memorandum is intended to introduce the draft by explaining the method by which it
was prepared and the animating goals behind some of
the proposals.
This Committee was appointed by Chief Judge
Henderson pursuant to 28 § 2077(b) in March, 1994.
Working closely with Judge Ware, the Committee has
undertaken a comprehensive revision of the Court’s
Local Rules. In general, this revision was designed to
accomplish several objectives:
(1) to remove provisions that were no longer
applicable or appeared to conflict with
pertinent provisions of the Federal Rules
of Civil Procedure;
(2) to remove provisions that appeared unnecessary because the matters involved
are now covered by the Federal Rules of
Civil Procedure;
(3) to move into the Local Rules provisions
currently in the Court’s General Orders

App. 134
that seemed more appropriately included
in the Local Rules;
(4) to arrange the provisions of the Local
Rules so that they correspond to the Federal Rules of Civil Procedure;
(5) to integrate the provisions of General
Order 34 into the Local Rules; and
(6) to consider possible changes in the rules
on grounds of policy.
To accomplish these objectives, the Committee
began with a rearrangement of the current local rules
already done by Judge Ware that corresponded to the
Federal Rules of Civil Procedure. Throughout the process, the Committee has worked closely with Judge
Ware in fashioning the draft. Members of the Committee surveyed the current local rules to be sure that
their provisions were properly re-designated to correspond to-pertinent-Federal Rules. In addition, the
Court’s General Orders and the standing orders of
each Judge were reviewed to identify measures that
might profitably be included in the Local Rules. The local rules of the other three districts in California were
also reviewed to identify measures that might profitably be included in the Local Rules in this District.
Based on these various review processes, the Committee reached the conclusion that a number of matters presently covered in the local rules or General
Orders should be in local rules but do not fit into civil
Local Rules. Indeed, as to some of these matters other
committees are drafting proposed rules. Accordingly,

App. 135
the attached draft contains a general set of civil Local
Rules. As explained in proposed Local Rule 1-2(a), it
contemplates adoption of additional local rules governing the following areas:
(1) Admiralty and Maritime Cases
(2) Alternative Dispute Resolution
(3) Bankruptcy Proceedings
(4) Criminal Proceedings
(5) Habeas Corpus Proceedings
Based on existing rules, the Committee is preparing
proposals for the first and last of the-above additional
areas. Our intention is not to make any substantive
change in the rules governing these areas. We understand that others are drafting rules for Bankruptcy
and Criminal proceedings. A draft set of rules regarding Alternative Dispute Resolution incorporating provisions regarding arbitration from the Courts present
local rules and from General Order 35 is under way but
has not been completed for review by the Court.
Accordingly, the draft civil Local Rules follow the
format of the Federal Bales of. Civil Procedure. The final editing was delegated to a subcommittee, and there
may be the occasion for the committee to suggest some
additional modifications of language in some proposed
rules. The draft includes cross-references to the current local rules and also occasional committee notes regarding the purpose of the provisions. It is likely that
a reading of the entire document is the most effective
way to appreciate its provisions, but we thought ft

App. 136
would be worthwhile to point out certain features in
the cover memorandum.
The remainder of this memorandum will highlight
certain of the changes in light of the various objectives
the drafting committee was pursuing. These might
most easily be organized as uniformity, adjusting the
local rules to the national rules and taking account of
the CJRA experience, simplification and policy
changes. The references to specific provisions will
therefore be presented in that manner.
Uniformity
Some proposals reflect the committee’s conclusion
that uniformity is an important objective. Although
specific standards are sometimes included, the committee was more concerned with having a uniform
standard than with the specific content of the standard
in question.
Local Rule 1-2 (Standing Orders): This rule establishes that the goal of the entire package of rules is to
provide a comprehensive and uniform set of procedures so that individual orders will not be necessary
with regard to matters covered by the local rules. The
committee expected that matters relating to the conduct of the trial would still be tailored by individual
judges.
Local Rule 7-2(a) (Motions): This rule provides
that the notice period for motions be 85 days. The committee found that different judges had different notice

App. 137
requirements, but that several had directed 35 days’
notice by standing orders, and the committee adopted
that standard. The committee felt that the actual number of days was less important than that one uniform
standard be employed by all judges.
Form A (Case Management Conference Statement
and Proposed Order): Having surveyed the diverse
requirements of different judges, the committee developed one form for such statements. The committee
hopes not so much that this form be adopted unaltered
as that it be used by all judges so that there would not
be individual variations.
Adjusting to the national rules
and CJRA experience
Several members of the committee have also
served in the CJRA Advisory Group and had experience in the drafting of General Order 34. As the Court
is aware, the December, 1998, amendments to Rules 16
and 26 altered provisions covering similar matters.
Having reflected on the experience under General
Order 34 and the new provisions of the national rules,
the committee attempted to develop a coherent and effective case management system for civil cases in the
district.
Local Rule 16 (case management): This rule incorporates the recent changes in Federal Rules 16 and 26
as well as building on the experience of General Order
34. Except for cases excluded under Local rule 16-1, all
cases will involve a tailored version of the initial

App. 138
disclosure requirements of Federal Rules 26(4(1). Rule
16.2 sets out the basic ease management schedule
providing that most specified events occur during the
first 120 days after commencement of the case. Although early discovery by consent is allowed, Local
Rule 16-3 directs that non-consensual discovery occur
only after the Court has considered the needs of the
case in light of the disclosures made.-parties who
would suffer prejudice from waiting could obtain relief
from the court to permit earlier initiation of formal discovery. Some features of General Order 34 that foreshadowed changes made in the national rules (e.g.,
early production of core documents) have been retained.
Largely invisible on the enclosed draft is another
category of adjustments to take account of provisions
of the Federal Rules. On occasion the committee eliminated provisions now in the local rules on the basis
that the national rules adequately deal with the issue.
For example, the draft does not include current rule
120-4 concerning calculation of time because it is inconsistent with Federal Rule 6(d). In this instance, the
committee was aware that the existing rule is simple
to use, but. felt that it would be dubious to deviate from
the Federal Rules on this point. Similarly, the committee is recommending considerable editing of current local rule 400, so that there is no repetition of the
applicable Federal Rules or statutes, and the provisions regarding handling of appeals from decisions of
Magistrate Judges have been trimmed on the theory
that the Federal Rules provide substantial guidance.

App. 139
Other changes of this sort involved the local rules concerning the civil jury.
Simplification
In conjunction with reorganizing the rules to correspond to the arrangement in the Federal Rules, the
committee tried to simplify the text of the current
rules. Examples include:
Proposed Local Rules 3-4 and 3-5 on the form of
papers filed would therefore cover all the materials appearing in current rules 120-1, 120-2, 200-1 and 200-2.
Proposed Local Rule 7.8 restates current local rule
220-9 so that it is easier to follow.
Policy Suggestions
The committee also included some changes that it
felt would be wise as a matter of policy.
Local Rule 11 mere closely restricts bar membership to members of the California bar; the previous local rule was less restrictive on this issue. It also
requires lawyers admitted to practice before the Court
to notify the Court of any change in their status in
other courts that might bear on their status as members of the bar of this Court. In addition, Local Rule 1111 spells out requirements for student practice before
the Court.
Local Rule 37 sets out a new means of resolving
discovery disputes involving an informal chambers

App. 140
conference or an expedited motion. Some judges have
experimented with such alternative devices, and the
committee is recommending that the Court make them
generally available to streamline and reduce the cost
of discovery.
The committee has also recommended that chambers copies may be lodged at any branch of the clerk’s
office (Local Rule 3-7), as well as a mechanism for receipt of sealed documents (Local Rule 79-6). In addition, it has amplified the related case procedures to
take advantage of economies that might result from coordination of cases (Local Rule 3-13).

App. 141
Ch. 15

28 § 332
CONFERENCES AND COUNCILS

COMMENTARY ON 1988 REVISION
by David D. Siegel
Expanded Role of Judicial
Council in Rule-Making Process
One of the principal aims of the Judicial Improvements and Access to Justice Act (Pub.L. 100-702) of
1988 was to impose openness requirements on the various courts’ rule-making procedures. A key part of the
plan was to subject all rule making of the district
courts to the scrutiny of the local judicial council.
The amendment of § 332 accomplishes that. The
scrutiny is not to be limited, moreover, to the initial
promulgations of rules. It is to be on-going. The new
paragraph (4) added to subdivision (d) of § 332 says
that each judicial council shall “periodically” review
district court rules “for consistency with rules prescribed under section 2072”, meaning principally, in
the case of civil practice, the Federal Rules of Civil Procedure. The council is empowered to “modify or abrogate” any rule found inconsistent.
These adjustments in the district courts’ rulemaking process are a consequence of widespread discontent, communicated to Congress, about “a proliferation
of local rules”; Congress found that the rule-making
procedures “lacked sufficient openness” and that local
rules often “conflict with national rules of general
applicability”. See the statement of Representative

App. 142
Kastenmeier in House Report 100-889, August 26,
1988, p. 27.
An example of such a local rule was the rule of
some of the district judges in the Second Circuit that
an attorney secure the judge’s permission before making a motion. Attorneys complained about this, often
bitterly, but there was no effective review procedure
such as the 1988 act now supplies. And of course the
barrier to interlocutory appeal built into federal practice under §§ 1291 and 1292 of Title 28 made effective
appellate review of such a rule impossible sometimes,
impractical most times, and impolitic always. Rules requiring permission to make motions therefore remained in place for years. Then, when one of them did
manage to squeeze through the federal system’s massive appellate barrier for some review, the Court of Appeals struck the rule- down with the admonition that
“a court has no power to prevent a party from filing
pleadings, motions or appeals”. Richardson Greenshields Securities, Inc. v. Mui-Hin Lau, 825 F.2d 647
(July 30, 1987). The court did not reject a requirement
for the “conferencing” of motions, but it did stress that
judges “must conduct such conferences promptly upon
the request of the moving party”, especially when the
court is shown that “time is of the essence, as in the
instant case where a statute of limitations concern was
raised”.
The late, widely respected District Judge Edward
Weinfeld, participating in a federal practice seminar
several years ago, was asked by a member of the audience (and of the bar) about his view of a judge’s rule

App. 143
requiring permission to make a motion. His response
was that he never had such a rule and did not believe
he had the authority to make one. The Federal Rules
of Civil Procedure authorize motions, he said, and lawyers in his court could make a motion under those
rules without requiring any authority from him. Only
after the Richardson case did that notion become a
matter of circuit-wide policy in the Second Circuit.
With a review procedure in place such as § 332
now enacts for all district court rule making, rules of
the kind that it took case law—and a long time—to
strike down in the past should find their way into the
practice less frequently in the future. And any that do
will presumably last only until the judicial council has
had a chance to review it.
Section 2071(b), the part of the 1988 act that requires “public notice and an opportunity for comment”
before a district court can prescribe rules in the first
place (see the Commentary on § 2071 in the 28 USCA
set), has a counterpart in paragraph (1) of subdivision
(d) of the present section (§ 332). The paragraph was
amended to require that the judicial council, too, in
making any “general order relating to practice and procedure”, which presumably includes any made by the
council as part of its review of a district court rule, also
be made “only after giving appropriate public notice
and an opportunity for comment”. Promulgating a local rule without satisfying this requirement can invalidate it. Local rules are not immune “from judicial
examination for procedural regularity”. Baylson v.

App. 144
Disciplinary Board, 764 F.Supp. 328 (E.D.Pa.1991),
aff ’d 975 F.2d 102 (3d Cir.1992).
For the effective date of section 332, see the “Effective Date” caption at the end of the Commentary on
§ 2071. The Commentary applies to all of the amendments contained in Title IV of the Judicial Improvements and Access to Justice Act (Pub.L. 100-702), the
title that amended § 332.
HISTORICAL AND STATUTORY NOTES
Revision Notes and
Legislative Reports

1971 Acts. Senate
Report No. 91-1511, see
1970 U.S.Code Cong. and
1948 Acts. Based on Adm.News, p. 5876.
Title 28, U.S.C., 1940 ed.,
§ 448 (Mar. 3, 1911, c. 231,
1980 Acts. Senate
§ 306, as added Aug. 7, Report No. 96-362, see
1939, c. 501, § 1. 53 Stat. 1980 U.S.Code Cong. and
1223).
Adm.News, p. 4315.
The final sentence of
section 448 of Title 28,
U.S.C., 1940 ed., excepting
from the operation of said
section the provisions of
existing law as to assignment of district judges
outside their districts, was
omitted as surplusage, since
there is nothing in this section in conflict with section
292 of this title providing
for such assignments.

1988 Acts. House
Report No. 100-889, see
1988 U.S.Code Cong. and
Adm.News, p. 5982.
1990 Acts. Senate
Report No. 101-416, related House Reports, and
President’s Signing Statement, see 1990 U.S.Code
Cong. and Adm.News, p.
6802.

App. 145
The requirement for attendance of circuit judges,
unless excused by the chief
judge, was included in conformity with a similar provision of section 331 of
this title.

1991 Acts. House
Report No. 102-322, see
1991 U.S.Code Cong. and
Adm.News, p. 1303.

References in Text
Rule 45(c) of the Federal Rules of Civil ProceChanges in phraseol- dure, referred to in subset.
ogy were made. 80th Con- (d)(1), is rule 45(c) of the
gress House Report No. Federal Rules of Civil Pro308.
cedure, this title.
1963 Acts. Senate Codifications
Report No. 596, see 1963
Subsec. (d) of this
U.S.Code “Cong. and Adm. section was amended by
News, p. 1105.
Pub.L. 95-598, Title II,
§ 209, Nov.

App. 146
28 § 2071

JUDICIARY—PROCEDURE

COMMENTARY ON 1988 REVISION
by David D. Siegel
Additional Scrutiny Required
for District Court Rulemaking
Changes in § 2071, which contains the general authorization for rulemaking by the courts, were made by
the Judicial Improvements and Access to Justice Act
(Pub.L. 100-702) in 1988. The section previously consisted of a single paragraph. It was designated subdivision (a) in the 1988 amendment and its reference to
the Supreme Court was struck out and a reference to
§ 2072 substituted.
The change, applicable to all courts (with the exception of the U.S. Supreme Court) but adopted with
the district courts primarily in mind, requires rules
promulgated on the authority of § 2071 to conform to
the requirements of § 2072 instead of merely to rules
promulgated by the Supreme Court. The § 2072 to
which conformity is required is not, however, what was
contemplated by the House of Representatives.
The § 2072 that the House planned had a subdivision (b) that would have eliminated the controversial
‘‘supersession” clause, under which a duly promulgated
procedural rule prevails over all conflicting “laws”,
which include Acts of Congress. The House deemed it
unseemly that any rule of procedure adopted through
the rule-making process should supersede an Act of
Congress. Its initially adopted draft of § 2072 therefore

App. 147
replaced the supersession clause with a much softer
one. But the Senate had its way on this point in the
final version, and the supersession clause remains substantially as it was. It now appears as the second sentence of the terse subdivision (b) of § 2072, as amended.
Its language, as it appeared in the first sentence of the
fourth paragraph of the pre-amendment § 2012, is retained to the last syllable. (See the Commentary on
§ 2072, below.)
After designating as subdivision (a) the single preamendment paragraph that constituted § 2071, the
1988 act added subdivisions (b) through (f ). A brief seriatim review of these subdivisions may be helpful.
Subdivision (b), modeled on but more expansive
than Rule 83 of the Federal Rules of Civil Procedure
(as amended in 1985), requires that “appropriate public notice and an opportunity for comment” precede the
making of rules by any court on the authority of what
is now subdivision (a). The details of how this is to be
done are not supplied. Excepted is the Supreme Court,
which can make its own rules without the “notice” fetter of this provision. In prescribing the “general” rules
of practice that it has the continued authority to do under the amended § 2072, the U.S. Supreme Court will
follow the more formal requirements of what is now a
new § 2014. (See the Commentaries on those sections,
below.)
The court promulgating rules under subdivision
(a) is also empowered by subdivision (b) to fix their effective date and to determine the extent to which they

App. 148
shall apply to pending proceedings. Congress was especially sensitive about this retroactivity point in the
1988 legislation. Indeed, in § 2074(a), which applies to
the promulgation of the general rules by the U.S. Supreme Court, it is now provided that the application
even of a newly promulgated general rule—such as an
amended rule in the Federal Rules of Civil Procedure—to further proceedings in a pending action must
be left to the judge presiding in the action. One can extrapolate from this a broad statement of Congressional
intent that as far as retroactivity is concerned, the
facts vary so much from case to case that it is best to
leave to the presiding judge the question of the retroactivity of any new rule, including even a rule drawn
by the court of which that judge is a member.
The new subdivision (c), in its paragraph (1), acknowledges, as Rule 83 does, the role played by the judicial council in the rule-making process by providing
that all existing rules made by a district court or judge
remain in effect, but only until such time as the local
judicial council may modify or abrogate it. A coordinate
amendment is made in this regard in § 332 of Title 28,
the statute setting up the judicial circuits, to confirm
that power of review explicitly. A paragraph (4) is
added to § 332(d), requiring periodic review by the
council of all rules made by district courts under
§ 2071 to make sure they are consistent with the general rules (e.g., the Federal Rules of Civil Procedure)
promulgated under § 2072.
All said about the rules of a district “court” must
of course apply a fortiori to the rules of an individual

App. 149
judge. All such rules are subject to the scrutiny of the
judicial council. Congress found that there was “a proliferation of local rules, many of which conflict with
national rules of general applicability” (see p. 27 of
House Report 100-889 [August 26, 1988], Representative Kastenmeier’s report to Congress for the House
Judiciary Committee), and the individual rules that
many of the federal judges have adopted were a prime
part of Congress’s thinking in adopting these review
procedures. Individual rules have been a sore spot in
some parts of the federal system. In the Second Circuit
it took a Court of Appeals decision to stop judges from
requiring advance permission just to make a motion.
(See the Commentary on § 332 earlier in the 28 USCA
set.) Indeed, it was found that even the three-step,
Committee/Supreme Court/Congress procedure for enacting the general rules (see the pre-amendment
§§ 331 and 2072 in Title 28) “lacked sufficient openness” (Kastenmeier Report above, page 27), and it was
the mission of these amendments to open it wider.
As with the court-wide rules, so with individualjudge rules presently in place. They remain in place
unless and until the judicial council modifies or abrogates them (or, indeed, the individual judge withdraws
them). The obligation placed on the judicial council
now by statute is that it “periodically” review all rules.
(See the paragraph 4 added to 28 USCA § 332[d] by the
1988 act.) Hence there is to be no such thing as a rule’s
becoming sacrosanct merely for having passed judicial
council scrutiny the first time. It is subject to on-going
scrutiny, as are all rules in existence on December 1,

App. 150
1988, the date these requirements take effect (see below).
Rules prescribed by other courts than the Supreme Court or a district court are subject to review by
the Judicial Conference, a nationally constituted body,
rather than a judicial council (which has only circuitwide scope). The Conference is set up by § 331 of Title
28, and § 331, too, was amended by the 1988 act to establish this review power and require that it be used
to make sure that such rules are consistent with “Federal law”. As with a judicial council, so with the Judicial Conference: it can modify or abrogate any rule it is
required to review.
To implement the requirement of judicial council
review, subdivision (d) of the amended § 2071 requires
that copies of all rules be furnished to the council. With
the exception of the rules of the U.S. Supreme Court,
all courts must furnish copies of their rules to the Director of the Administrative Office of the U.S. Courts.
The new subdivision (e), recognizing that there
may arise “an immediate need” for a rule, permits its
promulgation without fulfillment of the notice and opportunity to be heard requirements imposed by subdivision (b). But in that instance those requirements
must be carried out “promptly thereafter”.
Finally, subdivision (f ) instructs that the rulemaking process prescribed for the district courts by
this section is to be exclusive. Implicit in that instruction, of course, and in the tenor of the § 2071 amendments overall, is that these requirements not be

App. 151
circumvented by giving a rule some other name, e.g., by
conferring the title “standing orders” or “information
sheets” or some other verbal combination on them. If
the court’s or judge’s rule is proper, it can expect judicial council approval. If it’s not a rose by that name, it
won’t be by any other.
Indeed, recognizing that an order of the judicial
council may itself amount to an order affecting practice, the 1988 act requires openness in the council’s
proceedings as well. An amendment of 28 USCA
§ 332(d)(1) requires that
Any general order relating to practice and
procedure shall be made or amended only after giving appropriate public notice and an opportunity for comment
The language used is the same as that imposed on
the district court’s own rule-making procedures. The
premise of the § 332(d)(1) amendment is that visibility
achieved at the level of original enactment should not
be obscured through the very process that was designed to assure it.
Effective Date of 1988 Amendment
The 1988 act containing the above amendments
was signed by the President on November 19, 1988.
Unlike some of the other parts of the act, however, such
as those affecting the diversity statute, which don’t
take effect until well into 1989 (see the Commentaries
following § 1882 above), the amendment of § 2071
takes effect on December 1, 1988. It is part of Title IV

App. 152
of the act, and all of Title IV’s provisions have December 1, 1988, as their effective date.
All rule-making procedures subject to the amended
section and not complete as of that date would have to
follow the requirements of the 1988 act. As noted in the
course of the above Commentaries, all rules already in
effect, whether of the court or of an individual judge,
remain in effect unless and until modified or overturned by the local judicial council. The latter is
charged with on-going surveillance of all district court
and district judge rules under the “periodically review”
requirement imposed by 28 USCA § 882(d)(4).
HISTORICAL AND STATUTORY NOTES
1988 Amendments
Subsec. (a). Pub.L. 100-702, § 403(a)(1)(A), (B),
designated existing provisions as subsec. (a) and substituted “under section 2072 of this title” for “by the
Supreme Court”.
Subsec. (b) to (f ). Pub.L. 100-702, 403(a)(1)(C),
added subsecs. (b) to (f ).
Effective Date of 1988 Amendment
Section 407 of Pub.L. 100-102 provided than “This
title [enacting sections 332(d)(4), 604(a)(19) [redesignated (a)(20)], 2071(b)-(f ), and 2072-2074 of this title;
amending sections 331, 332(d)(1), 372(c)(11), 636(d),
2071(e) [formerly designated 2071], and 2077(b) of this
title and sections 4600-11 of Title 16, Conservation and

App. 153
3402 of Title 18, Crimes and Criminal Procedure; redesignating as 604(a)(23) former section 604(18) of this
title; repealing former section 2072 and section 2076 of
this title and sections 3771, 3772 of Title 18; and enacting note provisions set out under this section] shall
take effect on December 1, 1988.”
Effective Date of 1983 Amendment
Pub.L. 97-462, § 4, Jan. 12, 1983, 96 Stat. 2530,
provided: “The amendments made by this Act [which
amended Rule 4 of the Federal Rules of Civil Procedure, added Form 18-A, Appendix of Forms, enacted
provisions set out as notes under this section, and
amended section 951 of Title 18, Crimes and Criminal
Procedure] shall take effect 45 days after the enactment of this Act [Jan. 12, 1983].”
Short Title of 1983 Amendment
Pub.L. 97-462, § 1, Jan. 12, 1983, 96 Stat. 2527,
provided: “That this Act (which amended Rule 4 of the
Federal Rules of Civil Procedure, enacted Form 18-A,
Appendix of Forms, enacted provisions set out as notes
under this section, and amended section 951 of Title
18, Crimes and Criminal Procedure) may be cited as
the ‘Federal Rules of Civil Procedure Amendments Act
1982’.”

App. 154
Savings Provisions
Section 406 of Pub.L. 100-702 provided th[XX]
“The rules prescribed in accordance with [[xx] before
the effective date of this title [Dec. 1, 19[XX] and in effect on the date of such effective d[XX] [Dec. 1, 1988]
shall remain in force until chang[XX] pursuant to the
law as amended by this title [s[XX] Effective Date of
1988 Amendment note hereunder].”
Tax Court Role Making Not Affected
Section 405 of Pub.L. 100-702 provided th[XX]
“The amendments made by this title [see Effective
Date of 1988 note set out hereunder] shall not affect
the authority of the Tax Court to presrib[XX] rules under section 7453 of the Internal Revenue Code of 1986
[section 7453 of Title 26, Internal Revenue Code].”
Amendments Proposed April 28, 1982
Pub.L. 97-462, § 5, Jan. 12, 1983, 96 Stat. 2530,
provided: ‘The amendments to the Federal Rules of
Civil Procedure [Rule 4], the effective date [Aug. 1,
1982] of which was delayed [to Oct. 1, 1983] by the Act
[Pub.L. 97-227] entitled ‘A[XX] Act to delay the effective date of proposed amendments to rule 4 of the Federal Rules of Civil Procedure [proposed by the
Supreme Court of the United States and transmitted
to the Congress by the Chief Justice on Apr. 28, 1982],’
approved August 2, 1982 (96 Stat. 246), shall not take
effect.” Section 2 of Pub.L. 97-227 had provided that
Pub.L. 97-227 be effective as of Aug. 1, 1982, but be

App. 155
inapplicable to service of process taking place between
Aug. 1, 1982, and the date of enactment on Aug. 2,
1982.
Legislative History
For legislative history and purpose of Pub.L. 100702, see 1988 U.S. Code Cong. and Adm. News, p. 5982.

App. 156
JUDICIARY-PROCEDURE

28 § 2072

COMMENTARY ON 1988 REVISION
by David D. Siegel
Federal Rule-Making Procedure Altered
Section 2071 having addressed rule making by individual courts, §§ 2072-2074 address the general rulemaking power of the U.S. Supreme Court and the procedures authorized in its exercise.
The old § 2072 of Title 28, empowering the U.S. Supreme Court to promulgate the general rules that govern practice and procedure in the federal courts,
including such compilations as the Federal Rules of
Civil Procedure, and prescribing the method of their
promulgation, was repealed and replaced in an amendment contained in the Judicial Improvements and Access to Justice Act (Pub.L. 100-702) in 1988. The U.S.
Supreme Court’s rule-making power continues, but
with a closer public and Congressional scrutiny provided. The new § 2072 is terser than its predecessor,
but the terseness is more than compensated for by the
enactment of two new sections, §§ 2073 and 2074, elaborating the rule-making steps.
The gist of the general rule-making power conferred on the U.S. Supreme Court by the old § 2072 is
retained, but in a pithy subdivision (a). The equally
terse subdivision (b) continues the instruction that no
rules adopted under (a) may alter any substantive
right, an instruction previously contained in the second paragraph of the superseded § 2072. Also in that
paragraph was the direction that the rules not impair

App. 157
the right to trial by jury guaranteed by the Seventh
Amendment. That direction is omitted, but without
moment: the Constitution needs no statute to remind
us that neither a rule nor a statute can upset a constitutional requirement.
The second sentence of the new subdivision (b) of
§ 2072 was a key player in the 1988 act. It’s the famous
supersession clause, purporting to subordinate all
“laws”, including Acts of Congress, to the rules promulgated under subdivision (a). It was the wish of the
House of Representatives that the supersession clause
be repealed and that a more circumspect substitution
be made for it, and so the House draft of § 2072 had it.
(See page 3 of House Report 100-889, dated August 26,
1988, and Representative Kastenmeier’s comments on
the subject at pages 27-28.) But the Senate would not
go along, and the amended § 2072(b) preserves the supersession clause with not even a verbal alteration.
Viewing the supersession clause as “unwise and potentially unconstitutional” in its permitting the rules
to “trump” existing statutes, Representative Kastenmeier confessed his disappointment at the Senate’s refusal to go along with its repeal, which he called “the
single most important reform” contained in the House
bill. (Congressional Record, Oct. 19, 1988, H-10440.)
For the role played by §§ 2078 and 2074 in the
newly defined rule-making process, see the Commentaries on those provisions, below.
For the effective date of the amendment of § 2072,
see the “Effective Date” caption at the end of the Commentary on § 2071, above, which applies as well to § 2072.

App. 158

HISTORICAL AND STATUTORY NOTES
Prior Provisions
A prior section 2072, Acts June 25, 1948, c. 646, 62
Stat. 961; May 24, 1949, c. 139, § 103, 63 Stat. 104; July
18, 1949, ch. 343, § 2, 63 Stat. 446; May 10, 1950, c. 174,
§ 2, 64 Stat. 158; July 7, 1958, Pub.L. 85-508, § 12(m),
72 Stat. 348; Nov. 6, 1966, Pub.L. 89-773, § 1, 80 Stat.
1323. which authorized the Supreme Court to prescribe rules of civil procedure, was repealed by Pub.L.
100-702, Title IV, §§ 401(a), 407, Nov. 19, 1988, 102
Stat. 4648, 4652, effective Dec. 1, 1988.
1990 Amendment
Subsec. (c). Pub.L. 101-650 added subsec. (c).
Effective Date
Section effective Dec. 1, 1988, see section 407 of
Pub.L. 100-702, set out as a note under section 2071 of
this title.
Legislative History
For legislative history and purpose of Pub.L. 100702. see 1988 U.S. Code Cong. and Adm. News, p. 5982.
See also, Pub.L. 101-650, 1990 U.S. Code Cong. and
Adm. News, p. 6802.

App. 159
No resolution presented herein represents the policy of the American
Bar Association until it shall have
been approved by the House of Delegates. Informational reports, comments and supporting data are not
approved by the House in its voting
and represent only the views of the
Section or Committee submitting
them.
AMERICAN BAR ASSOCIATION
LAW PRACTICE MANAGEMENT SECTION
STANDING COMMITTEE ON LEGAL
ASSISTANCE FOR MILITARY PERSONNEL
SPECIAL COMMITTEE ON
PROFESSIONAL MEDICAL LIABILITY
THE BAR ASSOCIATION OF THE
DISTRICT OF COLUMBIA
CUYAHOGA COUNTY BAR ASSOCIATION
FEDERAL COMMUNICATIONS
BAR ASSOCIATION
AKRON BAR ASSOCIATION
DAUPHIN COUNTY BAR ASSOCIATION
CLEVELAND BAR ASSOCIATION
FEDERAL ENERGY BAR ASSOCIATION
THE BAR ASSOCIATION OF
METROPOLITAN ST. LOUIS
SAN DIEGO COUNTY BAR ASSOCIATION
REPORT TO THE HOUSE OF DELEGATES

App. 160
RECOMMENDATION
RESOLVED, That the American Bar Association
supports efforts to lower barriers to practice before
U.S. District Courts based on state bar membership by
eliminating state bar membership requirements in
cases in U.S. District Courts, through amendment of
the Federal Rules of Civil and Criminal Procedure to
prohibit such local rules.
REPORT
THE PROBLEM
Some United States District Courts restrict practice privileges to lawyers who are admitted to the state
bar in which the district is located.
For example, in the Washington, DC metropolitan
area, a lawyer admitted to practice in the United
States District Court for the District of Columbia may
be admitted to the bar of the United States District
Court for the District of Maryland regardless of Maryland State bar membership. See D. Md. Local Rules
101, 701 attached hereto.*
However, in the United States District Court for
the Eastern District of Virginia, located in Alexandria,
Virginia, District of Columbia bar members may not
become members of the Eastern District of Virginia
bar without being members of the Virginia bar, which
* Copies of attachments are available from the Law Practice
Management Section upon request. Please call Alice Tully at 312988-5661.

App. 161
requires a bar exam for non-Virginia residents. See
E.D. Va. Local Rule 7, copy attached hereto. Similar
problems exist in many other contiguous Federal District Courts. See attached random survey.*
IMPACT
This is not a local or regional problem. See attached random survey. * The Law Practice Management Section has discussed and reviewed this problem
through its Goal 6 Task Force and debated it at its
Spring 1993 Section meeting. While not all districts
are as restrictive as the Eastern District of Virginia,
many others require local counsel to at least be on all
pleadings and restrict the number of times an out of
district attorney may appear pro hac vice. We submit
these are unnecessary and drive up the cost of litigation to clients.
This exclusionary policy inhibits competition, restricts lawyers from representing clients without incurring the substantial cost of local counsel and
drives up costs to clients. Therefore, appropriate action
should be taken to eliminate such exclusionary and anticompetitive practices.

App. 162
POSSIBLE OBJECTIONS AND REBUTTAL
OBJECTION 1. Knowledge of local law is required in
each state
Rebuttal: Local law can be learned by any lawyer or local counsel will be retained
or consulted as necessary.
OBJECTION 2. Out of state lawyers will not know
the local rules.
Rebuttal: Each lawyer must certify that he
or she has read and is familiar with
the local rules prior to being admitted to the bar of the local District Court. See D. Md. Local Rule
701.
OBJECTION 3. Out of state lawyers will be disciplinary problems or hard to reach.
Rebuttal: Out of state lawyers will be subject to
the same discipline as in state lawyers and will be reachable in the
same way.
OBJECTION 4. Local counsel are needed in cases.
Rebuttal: This should be the decision of the
lawyer and client, not mandated by
local rule.
CONCLUSION
Given the global nature of law practice today,
parochial local rules are inefficient, unduly costly to

App. 163
clients and/or lawyers and anti-competitive. Therefore,
this proposal should be adopted.
Respectfully submitted,
Donna M. Killoughey
Chair
Section of Law
Practice Management
Dated: November 21, 1994
February, 1995

App. 164
AMERICAN BAR ASSOCIATION
COMMISSION ON ETHICS 20/20
STANDING COMMITTEE
ON CLIENT PROTECTION
STANDING COMMITTEE ON ETHICS
AND PROFESSIONAL RESPONSIBILITY
STANDING COMMITTEE ON PROFESSIONALISM
STANDING COMMITTEE ON SPECIALIZATION
NEW YORK STATE BAR ASSOCIATION
REPORT TO THE HOUSE OF DELEGATES
RESOLUTION
RESOLVED, That the American Bar Association
amends the ABA Model Rule for Admission by Motion,
dated August 2012, as follows (additions underlined,
deletions struck through):
ABA Model Rule on Admission by Motion
1.

An applicant who meets the requirements of (a)
through (g) of this Rule may, upon motion, be admitted to the practice of law in this jurisdiction.
The applicant shall:
(a) have been admitted to practice law in another
state, territory, or the District of Columbia;
(b) hold a J.D. or LL.B. degree from a law school
approved by the Council of the Section of Legal Education and Admissions to the Bar of
the American Bar Association at the time the
applicant matriculated or graduated;
(c) have been primarily engaged in the active practice of law in one or more states, territories or

App. 165
the District of Columbia for five three of the
seven five years immediately preceding the
date upon which the application is filed;
(d) establish that the applicant is currently a
member in good standing in all jurisdictions
where admitted;
(e) establish that the applicant is not currently
subject to lawyer discipline or the subject of a
pending disciplinary matter in any jurisdiction;
(f ) establish that the applicant possesses the
character and fitness to practice law in this
jurisdiction; and
(g) designate the Clerk of the jurisdiction’s highest court for service of process.
2.

For purposes of this rRule, the “active practice of
law” shall include the following activities, if performed in a jurisdiction in which the applicant is
admitted and authorized to practice, or if performed in a jurisdiction that affirmatively permits
such activity by a lawyer not admitted in that jurisdiction; however, in no event shall any activities
that were performed pursuant to the Model Rule
on Practice Pending Admission or in advance of
bar admission in some state, territory, or the District of Columbia be accepted toward the durational requirement:
(a) Representation of one or more clients in the
private practice of law;

App. 166
(b) Service as a lawyer with a local, state, territorial or federal agency, including military service;
(c) Teaching law at a law school approved by the
Council of the Section of Legal Education and
Admissions to the Bar of the American Bar
Association;
(d) Service as a judge in a federal, state, territorial or local court of record;
(e) Service as a judicial law clerk; or
(f ) Service as in-house counsel provided to the
lawyer’s employer or its organizational affiliates.
3.

For purposes of this (Rule, the active practice of
law shall not include work that, as undertaken,
constituted the unauthorized practice of law in the
jurisdiction in which it was performed or in the jurisdiction in which the clients receiving the unauthorized services were located.

4.

An applicant who has failed a bar examination administered in this jurisdiction within five years of
the date of filing an application under this (Rule
shall not be eligible for admission on motion.

FURTHER RESOLVED: That the American Bar Association urges jurisdictions that have not adopted the
Model Rule on Admission by Motion to do so, and urges
jurisdictions that have adopted admission by motion
procedures to eliminate any restrictions that do not appear in the Model Rule on Admission by Motion.

App. 167
REPORT
The ABA Commission on Ethics 20/20 has examined how globalization and technology are transforming the legal marketplace and fueling cross-border
practice. In studying these developments, the Commission has reviewed the existing regulatory framework
governing multijurisdictional practice and lawyer mobility and produced several Resolutions and Reports.1
The Resolution accompanying this Report proposes an amendment to the ABA Model Rule on Admission by Motion that, if adopted, would allow lawyers to
qualify for admission by motion at an earlier point in
their careers than the current Rule allows (i.e., after
three, instead of five, years of practice). The Commission is also asking that the ABA adopt a resolution urging jurisdictions that have not adopted the Model Rule
to do so and encouraging jurisdictions that already
have admission by motion procedures to eliminate additional restrictions, such as reciprocity requirements,
that do not appear in the Model Rule.

1

In one Resolution, the Commission is recommending the
creation of a Model Rule on Practice Pending Admission that
would allow lawyers to establish a systematic and continuous
presence in another jurisdiction while diligently pursuing admission in that jurisdiction. The Commission is also recommending
changes to Model Rule 1.6 that would identify the information
that lawyers can disclose in order to detect possible conflicts of
interest that might arise when lawyers change firms or when two
or more firms associate with each other or merge.

App. 168
The Commission’s work in this area was informed
by the efforts of the ABA Commission on Multijurisdictional Practice (“MP Commission”), which completed
its work a decade ago. In August 2002, the ABA House
of Delegates adopted as Association policy all nine of
the MP Commission’s recommendations,2 which reflect
a more permissive regulatory framework. This framework allows lawyers, subject to certain limitations, to
practice law on a temporary basis in jurisdictions in
which they are not otherwise authorized to practice
law.3 The framework also permits lawyers, sometimes
with limitations, to establish an ongoing practice in a
jurisdiction in which they are not otherwise authorized
and without the necessity of sitting for a written bar
examination.4
The Commission found that this framework has
been widely adopted5 and produced many benefits for
2

See Client Representation in the 21 Century, Report of the
Commission on Multijurisdictional Practice (2002), http://www.
americanbar.org/groups/professionalresponsibility/committees
commissions/commissiononmultijurisditional_practice.html.
3
See, e.g., ABA MODEL RULES OF PROF’L CONDUCT R. [hereinafter MODEL RULE] 5.5(c); ABA MODEL RULE FOR PRO HAC VICE
ADMISSION.
4
See, e.g., MODEL RULE 5.5(d); ABA MODEL RULE FOR ADMISSION BY MOTION.
5
Since August 2002, forty-four jurisdictions have adopted
some form of multijurisdictional practice that is similar to Model
Rule 5.5. Chart, State Implementation of ABA Model Rule 5.5
(2010), http://www.americanbar.org/content/dam/aba/migrated/cpr/
mjp/quick_guide_5_5.authcheckdam.pdf. Every jurisdiction now
has a rule allowing for pro hac vice admission. Chart, Comparison
of ABA Model Rule For Pro Hac Vice Admission With State Versions and Amendments Since August 2002 (2011), http://www.

App. 169
clients and their lawyers. It has enabled lawyers to
represent their clients more effectively and efficiently,
provided clients with more freedom regarding their
choice of counsel, and afforded lawyers more personal
and professional flexibility.
The Commission concluded that, in light of these
successes and the still growing need to engage in crossborder practice, the ABA should once again consider
carefully crafted changes to the framework governing
multijurisdictional practice. The Resolutions accompanying this Report address the ABA Model Rule on Admission by Motion.
I.

History of the ABA Model Rule on Admission by Motion

In August 2002, the ABA House of Delegates
adopted the Model Rule on Admission by Motion. The
Model Rule permits a lawyer admitted in one U.S.
americanbar.org/content/dam/aba/migrated/cpr/mjp/prohac_admin_
comp.authcheckdam.pdf. Seven jurisdictions have adopted a version of the ABA Model Rule for Temporary Practice by Foreign
Lawyers. Summary of State Action on ABA MIP Recommendations 8 & 9 (2010), http://www.americanbar.org/content/dam/aba/
migrated/cpr/mjp/8_and_9_status_chart.authcheckdam.pdf. Forty
jurisdictions have adopted a version of the ABA Model Rule on
Admission by Motion. Chart, Comparison of ABA Model Rule on
Admission by Motion With State Versions (2011), http://www.
americanbar.org/content/dam/aba/migrated/cpr/mjp/admission_
motion comp.authcheckdam.pdf. Finally, thirty-one jurisdictions
have adopted a version of the Model Rule for the Licensing and
Practice of Foreign Legal Consultants. Chart, Foreign Legal Consultant Rules (2010), http://www.americanbar.org/content/dam/aba/
migrated/cpr/mjp/for_legal_consultants.authcheckdam.pdf.

App. 170
jurisdiction to gain full admission in another U.S. jurisdiction without having to pass that jurisdiction’s bar
examination. The lawyer, however, must satisfy several requirements, one of which is to have engaged in
the active practice of law for five of the last seven
years.6
Admission by motion procedures now exist in forty
jurisdictions. The Commission’s research revealed that
more than 65,000 lawyers have used the procedure in
the last ten years.7 Approximately half of these lawyers
were admitted in the District of Columbia. The Commission found that there is no evidence that lawyers
admitted by motion – either in the District of Columbia
or elsewhere – are more likely to be subject to discipline, disciplinary complaints, or malpractice suits
than lawyers admitted through more traditional procedures. The Commission sought information in this
6

The Model Rule has remained unchanged except for one
amendment in 2011. In February 2011, the Section of Legal Education and Admissions to the Bar filed a Resolution with the
House of Delegates recommending that the Model Rule be
amended to eliminate a provision that prohibited a lawyer’s work
as in-house counsel or as a judicial law clerk from being counted
as part of the necessary practice experience to qualify for admission by motion. The House agreed that the Model Rule had created “an unfair and unnecessary distinction” between in-house
counsel and judicial clerks, on the one hand, and the other categories of lawyers listed in paragraph 2 of the Model Rule on the
other, and thus adopted the proposed amendment.
7
National Conference of Bar Examiners, Bar Examination
and Admission Statistics, 2011 Statistics, at 28 (2011), http://
www.ncbex.org/assets/media_files/Statistics/2010Stats110111.pdf
& 2005 Statistics, at 35 (2005) http://www.ncbex.org/assets/media_
files/Statistics/2005_Statistics.pdf.

App. 171
regard from lawyer disciplinary counsel, and responses
revealed that the admission by motion process has produced no discernible risks to clients or the public. To
the contrary, it has enabled lawyers to relocate with
greater ease and given clients more freedom to select
their lawyers.
II.

Proposal to Amend the Model Rule on
Admission by Motion

In light of the Commission’s findings and changes
in the practice of law during the last decade, the Commission proposes to reduce the time-in-practice requirement in the Model Rule for Admission by Motion.
The current Model Rule requires an applicant for admission by motion to have actively practiced in another
jurisdiction for five out of the past seven years, and the
Commission is proposing to allow lawyers to qualify for
admission by motion after practicing in another jurisdiction for three out of the past five years.
The Commission believes this change responds to
client needs and market demands in an increasingly
borderless world, where lawyers frequently need to
gain admission in other U.S. jurisdictions. For example,
lawyers regularly need to move to, or establish a regular practice in, another jurisdiction in order to serve
clients who are relocating or who regularly do business
in the jurisdiction in which motion admission is
sought. The Commission’s proposal would address this
need, thus benefitting both lawyers and their clients.

App. 172
The proposal also recognizes that lawyers often
need to move to new jurisdictions for a wide range of
personal reasons, including the need to find employment. The Commission determined that a reduction of
the active practice requirement from five to three years
would have particularly salutary effects for less senior
lawyers, who are most likely to need to move from one
jurisdiction to another. The challenging legal employment marketplace only increases the likelihood that
relatively junior lawyers will need to move to a new
jurisdiction in search of employment.
The Commission seriously considered several possible arguments against reducing the time-in-practice
requirement of the Model Rule. First, the Commission
considered the concern that a lawyer who has practiced for only three years may not be sufficiently competent to practice law in a new jurisdiction. The
Commission, however, found no reason to believe that
lawyers who have been engaged in the active practice
of law for three of the last five years will be any less
able to practice law in a new jurisdiction than a law
school graduate who recently passed the bar examination in that jurisdiction. In fact, five jurisdictions already have a reduced duration-of-practice requirement
of three years,8 and none of those jurisdictions have reported any resulting problems.

8

Chart, Comparison of ABA Model Rule on Admission by
Motion With State Versions (2010), http://www.americanbar.org/
content/dam/aba/migrated/cpr/mjp/admission_motion_comp.auth
checkdam.pdf.

App. 173
The Commission also found unpersuasive the concern that passage of the bar examination is necessary
to demonstrate knowledge of the law of the jurisdiction
in which the lawyer is seeking admission. As explained
above, more than 65,000 lawyers have obtained admission by motion in the last ten years, and there is no
evidence from disciplinary counsel or any other source
that these lawyers have been unable to practice competently in the new jurisdiction or have been unable to
identify and understand aspects of the new jurisdiction’s law that differ from the law of the jurisdiction
where those lawyers were originally admitted.
The Commission also concluded that the “local
law” concern rests on the incorrect assumption that
passage of the bar examination demonstrates competence in local law. In fact, an increasing number of jurisdictions use the Uniform Bar Examination,9 which
typically does not require any knowledge of local law.
And in jurisdictions that do test local law, the local law
portion of the test is usually sufficiently small that bar
passage does not turn on it. Thus, a significant percentage of bar examinations require either limited
knowledge of local law or none at all, suggesting that
passage of the bar examination does not offer better
evidence of a lawyer’s understanding of local law than
three years of practice in another jurisdiction. To the
9

Nat’l Conference of Bar Exam’rs & Am. Bar Ass’n Section
of Legal Education & Admissions to the Bar, Comprehensive
Guide to Bar Admission Requirements 2012, at 23 (2012) (available at http://www.ncbex.org/assets/media_files/Comp-Guide/Comp
Guide.pdf).

App. 174
contrary, the Commission concluded that three years
of practice in another jurisdiction may actually enable
a lawyer to identify and understand variations in the
law more easily than a recent law school graduate who
has never practiced at all but has passed the jurisdiction’s bar examination.
Another possible concern that the Commission
considered is that lawyers might take and pass the bar
examination in a jurisdiction with a relatively high
passage rate and then seek admission by motion in a
jurisdiction that has more demanding examination requirements. The Commission concluded, however, that
the three year waiting period is sufficiently long that
lawyers would not have an incentive to circumvent the
bar examination requirements of a jurisdiction with a
relatively low bar pass rate.
Additionally, the Commission considered whether
to retain the existing seven year period within which a
lawyer must fulfill the new three year practice requirement. One argument for doing so is that the career
tracks of modern lawyers are not always linear and
that lawyers, both male and female, frequently need to
take time away from the practice of law due to changes
in personal circumstances, including changes in substantive employment, military service, returning to
school for another degree or, an issue that continues to
disproportionately affect women, family care. At the
same time, however, the Commission heard concerns
that a four year gap in practice would be too substantial to offer adequate assurance to bar admission authorities that a lawyer has the requisite competence to

App. 175
practice law in the new jurisdiction. To reconcile these
competing interests, the Commission determined that
a lawyer seeking admission by motion should have to
satisfy the three year practice requirement within a
five year time period. This approach permits lawyers
to take two years off from the active practice of law,
while recognizing the concerns that bar admissions authorities would have about an extended period of time
away from practice.
Finally, the Commission concluded that Section 2
of the Model Rule on Admission by Motion should state
that the time spent practicing pursuant to the proposed new Model Rule on Practice Pending Admission
should not count toward the period of time necessary
to qualify for admission by motion. (The proposed new
Model Rule on Practice Pending Admission would allow lawyers to establish a law practice in another jurisdiction while diligently pursuing admission in that
jurisdiction through one of the recognized forms of admission, such as through admission by motion.) The
Commission determined that this restriction in Section 2 is a necessary additional client protection as it
will prevent lawyers from establishing a practice in a
new jurisdiction in fewer than three years and prevent
lawyers from serially relocating to new jurisdictions
under the Model Rule on Practice Pending Admission
in order to accumulate the necessary practice experience to qualify for admission by motion.
In sum, the Commission determined that, in most
jurisdictions, a lengthy practice requirement unnecessarily hinders the lawyer mobility that clients and

App. 176
legal employers increasingly demand. Although the
Commission recognizes that some jurisdictions may
have particular needs that warrant a longer or shorter
durational requirement, the Commission concluded
that the vast majority of jurisdictions would benefit
from the proposed approach.
III. Implementation of ABA Model Rule on
Admission by Motion Rule
The Commission concluded that the widespread
adoption of admission by motion procedures is a positive development, but also found that a number of
jurisdictions have not yet adopted an admission by motion process or have adopted a process that imposes
unnecessary restrictions and requirements. Thus, in
addition to proposing the amendments described
above, the Commission also urges the eleven jurisdictions that have not adopted the Model Rule to do so
and urges jurisdictions with admission by motion procedures to eliminate any restrictions, such as reciprocity requirements, that do not appear in the Model Rule.
With regard to the eleven jurisdictions that have
not adopted any admission by motion procedure, those
jurisdictions require lawyers to take at least some portion of the jurisdiction’s bar examination (or a special
lawyers’ examination) in order to gain admission. The
Commission concluded that such a requirement is unnecessary for lawyers who have three years of experience and that these jurisdictions should adopt an
admission by motion procedure.

App. 177
With regard to the forty jurisdictions that have
adopted an admission by motion procedure, ten have
an admission by motion procedure that is nearly identical to the Model Rule.10 The other thirty jurisdictions,
however, have procedures that impose restrictions beyond those contained in the Model Rule. More than
half of these jurisdictions have some type of reciprocity
requirement, which makes admission by motion possible only for lawyers from states that also offer admission by motion on a reciprocal basis.11 Moreover, some
jurisdictions define law practice in a manner that is
narrower than the Model Rule definition.12 Other jurisdictions require lawyers to certify that they intend to
practice actively and maintain an office in the state
where admission by motion is being sought.13
The Commission found no evidence that these
more restrictive approaches are related in any way to
the competence of the applicants or the protection of
the public. Indeed, jurisdictions that have adopted the
Model Rule without any additional restrictions have
reported no problems. The Commission believes that
such varied additional restrictions only serve to sustain outdated and parochial purposes at a time when
the relevance of borders to the competent practice of
law has and will continue to erode. The Commission
believes that the Model Rule on Admission by Motion
10
11
12
13

See Comparison Chart, supra note 8.
Id.
Id.
Id.

App. 178
ensures competent representation and amply protects
the integrity of the bar.
Conclusion
Continually evolving technology, client demands
and a national (as well as global) legal services marketplace have fueled an increase in cross-border practice as well as a related need for lawyers to relocate to
new jurisdictions. The Resolutions accompanying this
Report are intended to permit lawyers to respond to
these developments to the benefit of their clients, while
providing adequate regulatory safeguards. Accordingly, the Commission respectfully requests that the
House of Delegates adopt those Resolutions.
Respectfully submitted,
Jamie S. Gorelick and Michael Traynor, Co-Chairs
ABA Commission on Ethics 20/20
August 2012

App. 179
GENERAL INFORMATION FORM
Submitting Entity: ABA Commission on Ethics 20/20
Submitted By:
1.

Jamie S. Gorelick and
Michael Traynor, Co-Chairs

Summary of Resolution(s).
Resolution 105e: Admission by Motion
•

The ABA Model Rule on Admission by Motion,
which was adopted in 2002, allows a lawyer
licensed in one U.S. jurisdiction to seek admission in another U.S. jurisdiction without sitting for that jurisdiction’s bar examination. In
order to qualify for admission by motion, the
Model Rule currently requires a lawyer to
have engaged in the active practice of law for
5 of the last 7 years. The Commission proposes
to reduce this “time in practice” requirement
so that a lawyer can qualify for admission by
motion after practicing for 3 of the last 5
years.

•

The Commission also proposes to amend the
Model Rule on Admission by Motion to ensure
that the definition of the “active practice of
law” does not include time spent practicing
pursuant to the proposed Model Rule on Practice Pending Admission (Resolution 105d).
The Commission determined that this restriction is necessary to prevent lawyers from
qualifying for admission by motion after fewer
than three years of active practice in a jurisdiction where the lawyer is actually licensed.
The restriction also will prevent lawyers from
serially relocating to new jurisdictions under

App. 180
the Model Rule on Practice Pending Admission in order to accumulate the necessary
practice experience to qualify for admission
by motion.
•

2.

Finally, a number of jurisdictions have not yet
adopted an admission by motion process or
have processes with unnecessary restrictions
and requirements. The Commission’s Resolution encourages the eleven jurisdictions that
have not adopted the Model Rule to do so and
urges jurisdictions that have admission by
motion procedures to eliminate restrictions
that do not appear in the Model Rule.
Approval by Submitting Entity.
The Commission approved five of these Resolutions and Reports at its April 12-13, 2012 meeting.

3.

Has this or a similar resolution been submitted
to the House or Board previously?
No.

4.

What existing Association policies are relevant
to this resolution and how would they be affected by its adoption?
The adoption of this proposal would result in
amendments to the ABA Model Rule on Admission by Motion.

App. 181
5.

What urgency exists which requires action at
this meeting of the House?
The ABA is the national leader in developing
and interpreting standards of legal ethics and
professional regulation and has the responsibility to ensure that its Model Rules of Professional
Conduct and related policies keep pace with social change and the evolution of law practice.
The ABA’s last “global” review of the Model
Rules and related policies concluded in 2002,
with the adoption of the recommendations of the
ABA Commission on Evaluation of the Rules of
Professional Conduct (“Ethics 2000 Commission”) and the ABA Commission on Multijurisdictional Practice (“MJP Commission”). The
Commission on Ethics 20/20 was appointed in
August 2009 to conduct the next overarching review of these policies.
Technology and globalization are transforming
the practice of law in ways the profession could
not anticipate in 2002. One aspect of this transformation has been the extent to which lawyers
now need to relocate to new jurisdictions during
their careers. The proposed amendments to the
Model Rule on Admission by Motion respond to
this increased need for mobility while providing
adequate safeguards for clients and the public.

6.

Status of Legislation. (If applicable)
N/A

App. 182
7.

Brief explanation regarding plans for implementation of the policy, if adopted by the House
of Delegates.
The Center for Professional Responsibility will
publish any updates to the ABA Model Rules of
Professional Conduct and Comments, and also
will publish electronically amendments to the
ABA Model Rule on Admission by Motion. The
Policy Implementation Committee of the Center
for Professional Responsibility has in place the
procedures and infrastructure to implement any
policies proposed by the Ethics 20/20 Commission that are adopted by the House of Delegates.
The Policy Implementation Committee and Ethics 20/20 Commission have been in communication in anticipation of the implementation effort.
The Policy Implementation Committee has been
responsible for the successful implementation of
the recommendations of the ABA Ethics 2000
Commission, the Commission on Multijurisdictional Practice and the Commission to Evaluate
the Model Code of Judicial Conduct.

8.

Cost to the Association. (Both direct and indirect
costs)
None

9.

Disclosure of Interest. (If applicable)

10.

Referrals.
From the outset, the Ethics 20/20 Commission
concluded that transparency, broad outreach
and frequent opportunities for input into its
work would be crucial. Over the last three years
the Commission routinely released for comment

App. 183
to all ABA entities (including the Conference of
Section and Division Delegates), state, local,
specialty and international bar associations,
courts and the public a wide range of documents,
including issues papers, draft proposals, discussion drafts, and draft informational reports. The
Commission held eleven open meetings where
audience members participated; conducted numerous public hearings and roundtables, domestically and abroad; created webinars and
podcasts; made CLE presentations; and received
and reviewed hundreds of written and oral comments from the bar and the public. To date, the
Commission has made more than 100 presentations about its work, including presentations to
the Conference of Chief Justices, the ABA House
of Delegates, the ABA Board of Governors, the
National Conference of Bar Presidents, numerous ABA entities, as well as local, state, and international bar associations.
All materials were posted on the Commission’s
website. The Commission created and maintained a listserve for interested persons to keep
them apprised of the Commission’s activities.
There are currently 725 people on that list.
The Commission’s process was collaborative. It
created seven substantive Working Groups with
participants from relevant ABA and outside entities. Included on these Working Groups were
representatives of the ABA Standing Committee
on Ethics and Professional Responsibility, ABA
Standing Committee on Professional Discipline,
ABA Standing Committee on Client Protection,
ABA Standing Committee on Delivery of Legal

App. 184
Services, ABA Section of International Law,
ABA Litigation Section, ABA Section of Legal
Education and Admissions to the Bar, ABA Section of Real Property, Trust and Estate Law,
ABA Task Force on International Trade in Legal
Services, ABA General Practice, Solo and Small
Firm Division, ABA Young Lawyers Division,
ABA Standing Committee on Specialization,
ABA Law Practice Management Section, and
the National Organization of Bar Counsel.
11.

Contact Name and Address Information. (Prior
to the meeting)
Ellyn S. Rosen
Regulation Counsel
ABA Center for Professional Responsibility
321 North Clark Street, 17th floor
Chicago, IL 60654-7598
Phone: 312/988-5311
Fax: 312/988-5491
Ellyn.Rosen@americanbar.org
www.americanbar.org

12.

Contact Name and Address Information. (Who
will present the report to the House?)
Jamie S. Gorelick,
Co-Chair
WilmerHale
1875 Pennsylvania
Ave., N.W.
Washington, DC 20006
Ph: (202)663-6500
Fax: (202)663-6363
jamie.qorelick@
mwilmerhale.com

Michael Traynor,
Co-Chair
3131 Eton Ave.
Berkeley, CA 94705
Ph: (510)658-8839
Fax: (510)658-5162
mtraynor@
traynorgroup.com

App. 185
EXECUTIVE SUMMARY
1.

Summary of the Resolution(s)

Resolution 105e: Admission by Motion
•

The ABA Model Rule on Admission by Motion,
which was adopted in 2002, allows a lawyer
licensed in one U.S. jurisdiction to seek admission in another U.S. jurisdiction without sitting for that jurisdiction’s bar examination. In
order to qualify for admission by motion, the
Model Rule currently requires a lawyer to
have engaged in the active practice of law for
5 of the last 7 years. The Commission proposes
to reduce this “time in practice” requirement
so that a lawyer can qualify for admission by
motion after practicing for 3 of the last 5
years.

•

The Commission also proposes to amend the
Model Rule on Admission by Motion to ensure
that the definition of the “active practice of
law” does not include time spent practicing
pursuant to the proposed Model Rule on Practice Pending Admission (Resolution 105d).
The Commission determined that this restriction is necessary to prevent lawyers from
qualifying for admission by motion after fewer
than three years of active practice in a jurisdiction where the lawyer is actually licensed.
The restriction also will prevent lawyers from
serially relocating to new jurisdictions under
the Model Rule on Practice Pending Admission in order to accumulate the necessary
practice experience to qualify for admission
by motion.

App. 186
•

2.

Finally, a number of jurisdictions have not yet
adopted an admission by motion process or
have processes with unnecessary restrictions
and requirements. The Commission’s Resolution encourages the eleven jurisdictions that
have not adopted the Model Rule to do so and
urges jurisdictions with admission by motion
procedures to eliminate restrictions that do
not appear in the Model Rule.
Summary of the Issue that the Resolution Addresses
The ABA’s last “global” review of the Model
Rules of Professional Conduct and related policies concluded in 2002, with the adoption of the
recommendations of the ABA Commission on
Evaluation of the Rules of Professional Conduct
(“Ethics 2000 Commission”) and the ABA Commission on Multijurisdictional Practice (“MJP
Commission”). As the national leader in developing and interpreting standards of legal ethics
and professional regulation, the ABA has the responsibility to ensure that its Model Rules of
Professional Conduct and related policies keep
pace with social change and the evolution of law
practice. To this end, in August 2009, then-ABA
President Carolyn B. Lamm created the Commission on Ethics 20/20 to study the ethical and
regulatory implications of globalization and
technology on the legal profession and propose
changes to ABA policies.
The ABA Model Rule on Admission by Motion
was adopted in 2002, as part of the package of
resolutions unanimously adopted by the House

App. 187
of Delegates to address increased cross-border
practice. At the time of its adoption, the Model
Rule required that lawyers could qualify for admission by motion only if they had been engaged
in the active practice of law for 5 of the last 7
years.
Much has changed in the last decade, resulting
in increased lawyer mobility. For example, lawyers regularly need to move to, or establish a
regular practice in, another jurisdiction in order
to serve clients who are relocating there or who
regularly do business in that jurisdiction. Resolution 105e responds to this need, thus benefitting both lawyers and their clients, by reducing
the time in practice requirement in the Model
Rule for Admission by Motion to 3 of the last 5
years. The Commission’s research revealed that
the Model Rule has produced no problems in the
jurisdictions that have adopted it and no problems in the jurisdictions that already allow admission by motion after only three years of
practice.
3.

Please Explain How the Proposed Policy Position will address the issue
A reduction of the time in practice requirement
in the ABA Model Rule on Admission by Motion
will facilitate the cross-border practice that clients demand in a 21st century legal marketplace.
The Commission’s research revealed that there
is no reason to believe that lawyers who have
spent 3 of the last 5 years engaged in law practice will be any less able to practice law

App. 188
responsibly and competently in a new jurisdiction. The Commission found no evidence that
lawyers admitted by motion are more likely to
be subject to discipline, disciplinary complaints,
or malpractice suits than lawyers admitted by
examination. The Commission also found no evidence that the admission by motion process has
produced any risks to clients or the public. To
the contrary, it has enabled lawyers to relocate
with greater ease and given clients more freedom to select their lawyers. Finally, the Commission found that the five jurisdictions that
already have a duration-of-practice requirement
of three years have not encountered any problems.
Resolution 105e also adds language to make
clear that time spent practicing pursuant to the
proposed ABA Model Rule on Practice Pending
Admission does not count toward the Model
Rule of Admission by Motion’s active practice requirement.
Additionally, given the increasing importance of
lawyer mobility and the success of the Model
Rule on Admission by Motion, the ABA should
encourage the adoption of the Model Rule for
Admission by Motion in the eleven jurisdictions
that have not yet adopted such a process. The
ABA also should encourage jurisdictions that
have an admission by motion process to eliminate restrictions that do not appear in the Model
Rule and that pose unnecessary obstacles to using the process.

App. 189
The Commission has concluded that these
changes will facilitate lawyer mobility in a manner that is consistent with the principles that
have guided the Commission’s work: protecting
the public; preserving the core professional values of the American legal profession; and maintaining a strong, independent, and selfregulated profession.
4.

Summary of Minority Views
The Commission is not aware of any organized
or formal minority views or opposition to Resolution 105e as of June 1, 2012.
As of June 1, 2012, the following entities have
agreed to co-sponsor Resolution 105e relating to
Admission by Motion: The ABA Standing Committee on Client Protection, the ABA Standing
Committee on Ethics and Professional Responsibility, the ABA Standing Committee on Professionalism, the ABA Standing Committee on
Specialization, and the New York State Bar Association.
From the outset, the Commission on Ethics 20/20
implemented a process that was transparent
and open and that allowed for broad outreach
and frequent opportunities for feedback. Over
the last three years, the Commission routinely
released for comment to all ABA entities (including the Conference of Section and Division
Delegates), state, local, specialty and international bar associations, courts, regulatory authorities, and the public a wide range of documents,
including issues papers, draft proposals, discussion drafts, and draft informational reports. The

App. 190
Commission held eleven open meetings where
audience members participated; conducted numerous public hearings and roundtables, domestically and abroad; presented webinars and
podcasts; made CLE presentations; received and
reviewed more than 350 written and oral comments from the bar, the judiciary, and the public.
To date, the Commission has made more than
100 presentations about its work, including
presentations to the Conference of Chief Justices, the ABA House of Delegates, the National
Conference of Bar Presidents, numerous ABA
entities, as well as local, state, and international
bar associations. All materials, including all
comments received, have been posted on the
Commission’s website (click here). Moreover, the
Commission created and maintained a listserve
for interested persons to keep them apprised of
the Commission’s activities. Currently there are
725 participants on the list.
Further, as noted in the General Information
Form accompanying this Resolution, the Commission’s process was collaborative. It created
seven substantive Working Groups with participants from relevant ABA and outside entities.
The Commission is grateful for and took seriously all submissions. The Commission routinely extended deadlines to ensure that the
feedback was as complete as possible and that
no one was precluded from providing input. The
Commission reviewed this input, as well as the
written and oral testimony received at public
hearings, and made numerous changes in light
of this feedback.

App. 191
Throughout the last three years, the Commission received many supportive submissions as
well as submissions that offered constructive
comments or raised legitimate concerns. The
Commission made every effort to resolve constructive concerns raised, and in many instances made changes based upon them. The
Commission’s final proposals were shaped by
those who participated in this feedback process.

